App. 1
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 20-1208
BRITTANY IRISH, individually and as
Personal Representative of the
Estate of Kyle Hewitt; KIMBERLY IRISH,
Plaintiffs, Appellants,
v.
DETECTIVE JASON FOWLER; DETECTIVE
MICAH PERKINS; SERGEANT DARRIN CRANE,
Defendants, Appellees,
and
STATE OF MAINE; STATE POLICE
OF THE STATE OF MAINE; JOHN DARCY;
ANDREW LEVESQUE,
Defendants.
-----------------------------------------------------------------------

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
[Hon. John A. Woodcock, Jr., U.S. District Judge]
-----------------------------------------------------------------------

Before
Lynch, Selya, and Barron,
Circuit Judges.
-----------------------------------------------------------------------

App. 2
Scott J. Lynch, with whom Lynch & Van Dyke, P.A.
was on brief, for appellants.
Christopher C. Taub, Assistant Attorney General,
with whom Aaron M. Frey, Attorney General, was on
brief, for appellees.
-----------------------------------------------------------------------

November 5, 2020
-----------------------------------------------------------------------

LYNCH, Circuit Judge. In this opinion, we hold
on these facts that a viable substantive due process
state-created danger claim has been presented against
two Maine State Police (“MSP”) ofﬁcers, and that it
was error to grant the ofﬁcers qualiﬁed immunity. Under the state-created danger substantive due process
doctrine, ofﬁcers may be held liable for failing to protect plaintiffs from danger created or enhanced by
their afﬁrmative acts. In doing so, we for the ﬁrst time
join nine other circuits in holding such a theory of substantive due process liability is viable.
This § 1983 action arises out of the attacks, murder, and rapes committed in July 2015 by Anthony
Lord against appellants Brittany Irish (“Irish”) and
those close to her. After actions and inactions by the
defendant ofﬁcers, Lord murdered Irish’s boyfriend
Kyle Hewitt, shot Irish’s mother Kimberly Irish, and
then kidnapped Brittany Irish for about nine hours
and raped her.
The suit asserts that Lord’s rampage was triggered by a voicemail left on Lord’s cellphone by

App. 3
defendant MSP Detectives Micah Perkins and Jason
Fowler, the ofﬁcers investigating Irish’s criminal complaint that Lord had abducted, threatened, and raped
her two days earlier. Before the detectives checked
Lord’s criminal record or made any effort to ﬁnd Lord
in person, Detective Perkins left a voicemail identifying himself as a state police ofﬁcer and asking Lord to
call him back.
The plaintiffs seek relief based on the state-created danger doctrine. The plaintiffs argue that the detectives created and enhanced the danger to them and
then failed to protect them in the face of Lord’s escalating threats.
This court had earlier vacated the dismissal of
these claims for failure to state a claim. Irish v. Maine,
849 F.3d 521, 523 (1st Cir. 2017) (“Irish I”). After remand and the completion of extensive pretrial discovery, the defendants moved for summary judgment and
the district court held that a jury could ﬁnd that the
defendant ofﬁcers violated the plaintiffs’ constitutional
rights. Irish v. Fowler, 436 F. Supp. 3d 362, 364 (D. Me.
2020). It granted summary judgment to the ofﬁcers on
the grounds of qualiﬁed immunity. Id. We describe the
district court’s rulings later.
We afﬁrm the district court’s holding that a jury
could ﬁnd that the ofﬁcers violated the plaintiffs’ substantive due process rights. We reverse the grant of
defendants’ summary judgment motion on qualiﬁed
immunity grounds.

App. 4
I.

Statement of Facts

On defendants’ motion for summary judgment, we
read the facts in the light most favorable to the plaintiff. Stamps v. Town of Framingham, 813 F.3d 27, 30
(1st Cir. 2016).
We supplement our description of the facts in Irish
I with the district court’s comprehensive statement of
the facts.
The Events Underlying Plaintiffs’ Claims
At approximately 11:13 AM on July 15, 2015,
Britany Irish reported to the Bangor Police Department that Anthony Lord, a former lover, had kidnapped and raped her repeatedly on the night of July
14, including at two vacant camps near Benedicta,
Maine. The Bangor Police Department referred her to
the MSP. MSP Sergeant Darrin Crane assigned Detectives Perkins and Fowler to the case and told the
detectives that Lord was a registered sex offender.
Around 2:00 PM, Sergeant Crane forwarded the detectives a copy of Brittany Irish’s statement to the Bangor
Police Department. The statement said that Lord had
threated to “cut her from ear to ear.”
Brittany Irish met with the detectives at 3:05 PM
and again at 4:34 PM. At the 3:05 meeting, she told the
detectives that she was “scared that Anthony Lord
would become terribly violent if he knew [Irish] went
to the police.” The detectives told Irish that because
of Lord’s repeated threats, they “recommended not

App. 5
letting [Lord] know . . . reports had been made [to the
police].” Indeed, they instructed her to “continue talking to [Lord] as if nothing happened” until the detectives could get Lord’s statement. Irish also told the
detectives that she had moved her children to Hewitt’s
mother’s house in Caribou, Maine, for their safety. That
evening, the detectives found evidence corroborating
Irish’s allegations against Lord at one of the vacant
camps near Benedicta.
On July 16, Irish made a second written statement
to the detectives which said that Lord had threated to
“cut [her] from ear to ear,” to abduct Irish’s children, to
abduct and “torture” Hewitt to ﬁnd out “the truth”
about what was happening between Irish and Hewitt,
to kill Hewitt if Hewitt was romantically involved with
Irish, and to weigh down and throw Irish into a lake.
Despite these repeated death and other threats
and their knowledge that Lord was a registered sex offender, the defendants did not, as was customary, check
the sex offender registry to ﬁnd Lord’s address or run
a criminal background check. Such searches would
have revealed that he was on probation and had an extensive record of sexual and domestic violence. The detectives did not contact Lord’s probation ofﬁcer at this
time or request a probation hold, which could have
been used to detain Lord and is simpler to obtain than
an arrest warrant.
Her written statement in hand, the detectives interviewed Irish again on July 16. Despite their earlier
statement to her, they told her that they planned to call

App. 6
Lord to get his statement. At 6:17 PM on July 16, Detective Perkins called Lord while Detective Fowler listened.1 When Lord did not answer, Detective Perkins
did not hang up. Rather, he left a voicemail for Lord on
his cellphone. In that voicemail, Detective Perkins
identiﬁed himself as a state police detective and asked
Lord to return his call. Detective Perkins did not ask
Lord to come meet with him. At that point, the defendants had made no effort to locate Lord, much less to
apprehend him. Detective Perkins admitted that, if
Lord had committed the original assault against Irish,
it would be “logical” that Lord would determine that
the phone call was related to the rape and kidnapping
of Brittany Irish.
At 8:05 PM on July 16 – about an hour and fortyﬁve minutes after he had left the voicemail – Detective
Perkins received notice of a “possible suspicious” ﬁre in
Benedicta, the town where the detectives had found evidence that Lord had raped Irish at a vacant camp. Believing that Lord may have set the ﬁre, the detectives
drove to the site of the ﬁre. At 9:24 PM, Brittany Irish
called the detectives and told them it was her parents’
barn, roughly ﬁfteen feet from their home, which was
on ﬁre. Irish also told the detectives that someone had
heard Lord say as he left his uncle’s house (in Crystal,
Maine) earlier that evening that “I am going to kill a
fucker.” Irish told the detectives that she was afraid for
her children’s safety, planned to stay at her mother’s

1

At no point has the defense tried to distinguish between the
two ofﬁcers as to plaintiffs’ claims.

App. 7
home in Benedicta, and would meet the detectives
there.
The detectives ﬁrst began the search for Lord at
10:05 PM, almost four hours after leaving the voicemail. They arranged a state-wide teletype for a “stop
and hold” of Lord. Detective Perkins added a “use caution” warning to the teletype, which warned ofﬁcers
that Lord could be dangerous and to take precautions.
Sergeant Crane joined the search at about 10:00
PM. Around 10:35 PM, Sergeant Crane sent two MSP
troopers to Lord’s mother’s house in Houlton, Maine,
which is about forty miles from Benedicta. Those ofﬁcers did not call Lord’s mother’s house but chose to drive
there. There is no evidence that these ofﬁcers ever left
Houlton or came to Benedicta to help look for Lord.
The defendant detectives arrived at the scene of
the barn ﬁre around 10:36 PM. Detective Perkins requested a K-9 unit to be dispatched to the scene.
Shortly thereafter, Irish received a phone call from
her brother, who told her that Lord, upon receiving the
voicemail, was irate and said that “someone’s gonna
die tonight.” Irish immediately told the detectives
about this death threat and asked for protection. The
ofﬁcers left the scene and no ofﬁcer remained to protect
her and the others.
At 11:38 PM, the detectives ﬁnally requested a
criminal background check and learned Lord’s criminal record.

App. 8
At 11:49 PM, the detectives ﬁrst contacted Lord’s
probation ofﬁcer, who attempted to reach Lord and told
the detectives that Lord’s last known residence was at
his uncle’s property in Crystal, Maine.
Around midnight, Brittany Irish contacted Detective Perkins and asked again for an ofﬁcer to come to
her mother’s residence. Detective Perkins understood
that she wished for an ofﬁcer to protect her and her
family in the event that Lord returned to her mother’s
house. Detective Perkins did not relay the request to
his superior at this time, and no ofﬁcers were sent
there.
Instead, at 12:30 AM on July 17, four ofﬁcers, including Crane, Fowler, and Perkins, went to Lord’s uncle’s house in Crystal, Maine, about twenty miles from
Benedicta, to look for Lord. They did so despite having
been told that Lord had left his uncle’s house earlier
that evening and their suspicions Lord had set the ﬁre
in Benedicta. No explanation was given for why they
did not call the uncle to see if Lord was there.
At about 1:00 AM, Crane, Fowler, and Perkins met
in a parking lot in Crystal, where Detective Perkins ﬁnally told Sergeant Crane about Irish’s request for protection. Sergeant Crane told the detectives he would
not provide protection to the plaintiffs because they
did not have “the manpower.” The detectives did not
tell Irish about this decision until an hour later. They
had three hours earlier, however, alerted all ofﬁcers to
the fact that Lord was considered dangerous. At about
the same time as this parking lot meeting, Detective

App. 9
Perkins requested that the Bangor Police Department
send an ofﬁcer to Acadia Hospital in Bangor to look for
Lord. The request was not that the ofﬁcer simply call
the hospital to ﬁnd out if Lord was there. There is no
evidence as to whether the state police could have requested the Bangor police to provide protection to
Irish.
Around 2:00 AM, not having received any response
to her request for protection, Irish again called Detective Perkins. Detective Perkins, for the ﬁrst time, told
her that his supervisor had denied the request an hour
earlier. He said the police would continue looking for
Lord.
Also around 2:00 AM, Detectives Perkins and
Fowler met Detective Jonah O’Rourke and Detective
Trooper Corey Hafford at a gas station in Sherman,
Maine, about ten miles from the Irish home, to search
the dumpster for evidence of the original rape. Not one
of these four ofﬁcers was sent to protect Irish at her
mother’s home.
Around 2:30 AM, Sergeant Crane went home. An
investigator from the ﬁre marshal’s ofﬁce remained
near the scene of the ﬁre until approximately 2:30 or
3:00 AM. The ofﬁcers who were searching near the
Sherman gas station left the area around 3:00 AM.
Also around 3:00 AM, the detectives left the area.
Sergeant Crane admitted that he did not believe
there were any state police resources in the area between 3:00 and 4:00 AM. No one told the plaintiffs that

App. 10
the detectives, let alone all police units, had left the
area.
Around 3:00 or 4:00 AM, Kimberly Irish, Brittany
Irish’s mother, contacted the MSP through their “800
number.” She said that she would like to come with
Brittany and Hewitt in her car to the MSP parking lot
to remain there overnight for protection. An unidentiﬁed MSP employee advised her not to come to the station, that leaving her house “would be a dangerous
mistake,” and that the MSP had “ofﬁcers in the vicinity” who could respond quickly to any problems that
arose. A jury could ﬁnd that these statements were not
true, and that each piece of that advice was relied on
by the plaintiffs and increased the risk to them. Kimberly Irish never saw any police presence near her residence, despite keeping watch through the night.
Between 4:00 and 4:40 AM on July 17, Kary Mayo,
a resident of Silver Ridge, Maine, reported that someone had attacked him with a hammer and stolen his
truck and guns just six miles (and twelve minutes)
from the Irish home. An ofﬁcer responded out of Houlton. The state police did not notify the plaintiffs of that
nearby attack (which was committed by Lord).
Within about an hour, Lord drove Mayo’s truck to
the Irish home. Lord ﬁred one round with Mayo’s shotgun at the front door to break the lock, which hit Brittany Irish in the arm. The door remained locked, so
Lord kicked down the door. Lord entered the house,
saw Hewitt on the couch, and shot Hewitt nine times
while Brittany Irish watched. Brittany ran from the

App. 11
room and into the bathroom to hide. Kimberly Irish
had already been in the bathroom brushing her teeth.
They unsuccessfully attempted to lock the door. With
the help of her mother, Brittany Irish had climbed
partway through the bathroom window to escape when
Lord came through the bathroom door. Kimberly Irish
pushed Brittany the rest of the way through the bathroom window, and Brittany started running. Lord ﬁred
twice as Brittany was escaping and struck Kimberly in
the arm.
Moments later, Brittany Irish was able to jump
into the truck of Carleton Eddy, a passing motorist.
Lord saw her get into the truck and managed to jump
into the bed of the truck as Eddy began to pull away.
From the bed of the truck, Lord shot Eddy three times
in the neck and then pulled Brittany out of the truck
and took her back to the pickup truck he had stolen
from Mayo. They drove away. The police did not free
Irish or apprehend Lord until around 2:00 PM on July
17, about nine hours after the shooting.2

2

The police ﬁrst found Lord and Irish at 5:41 AM, but Lord
escaped by repeatedly shooting at the pursuing ofﬁcers, threatening to kill Brittany if the police did not back off, and driving onto
an “impassable” road.
Around 6:20 AM, Lord and Irish arrived at a woodlot in Lee,
Maine. Lord and Irish encountered Kevin Tozier and Clayton
McCarthy, and Lord asked them if he could borrow one of their
cellphones. One of the men lent his cellphone to Lord. Tozier noticed Irish’s wound and asked about it. Lord responded by fatally
shooting Tozier in the chest several times. As McCarthy ran
away, Lord shot him too.

App. 12
Only after Lord’s capture did the MSP post an ofﬁcer at the Irish home. They did so for two days to protect the crime scene.
Evidence as to Proper Police Practices
There is evidence that the detectives failed to follow proper MSP procedure and state law in several respects.
The parties agree that the optimal time to contact
an offender is at the end of an investigation, once all
the facts are in order. Speciﬁcally as to sexual assault
charges, the Director of Training for the Maine Criminal Justice Academy, which trains MSP ofﬁcers, testiﬁed that the reasonableness of an ofﬁcer’s response to
a report of sexual assault depends on the severity of
the underlying assault, whether the suspect has made
threats against the victim, whether the suspect has
been convicted of a felony, and whether the suspect has
a violent history.
The plaintiffs’ expert, D.P. Van Blaricom, explained that there is a standard of care “that the ﬁrst
priority is the victim’s safety and you would do nothing
that would put her safety at risk.” He concluded that
the defendants violated this standard of care in their
Lord then stole a pulp truck, abandoned it in Haynesville,
Maine, stole an ATV, and travelled with Irish to Weston, Maine.
In Weston, he stole a Ford F-150 truck and drove to Houlton. At
some point during this ﬂight, Lord raped Irish again. The police
ﬁnally apprehended Lord around 2:00 PM when his uncle reported that Lord was in Houlton.

App. 13
investigation. In his expert report, Van Blaricom
stated that “[a]fter a report of kidnapping and sexual
assault, the ﬁrst priority is to locate the suspect and
take him into custody.” He testiﬁed that “if you’re trying to safeguard the victim, you don’t tip off the suspect
when she’s already said he’d threaten her,” and “contacting the suspect and leaving a phone message is
the last thing I would consider doing.” Instead, “[t]he
suspect is typically the last to be interviewed,” and
“[w]anting to ‘hear his side of the story’ at the outset is
fundamentally dysfunctional and a poor investigative
practice.” In his expert opinion, the ﬁrst police contact
with Lord, given the circumstances, should have been
an arrest.
Van Blaricom also testiﬁed that “[t]he ﬁrst thing
you do when you’ve got a suspect is run a criminal history” because it is “absolutely fundamental . . . to know
as much as you can about your suspect.” The defendants admit that a criminal background check is “fundamental” and is the ﬁrst thing ofﬁcers should do when
they have identiﬁed a suspect. The ofﬁcers here did not
perform a background check until after the barn ﬁre.
This was long after leaving a voicemail message asking
Lord to contact the detectives.
Ofﬁcers of the MSP, including the defendant detectives, are trained on the proper response to domestic
violence complaints as set forth in Maine statute, Me.
Stat. tit. 19-A § 4012, and MSP’s “DV Policy M-4” (“M4”). M-4 instructs that an ofﬁcer “is to try to determine”
whether the suspect has a history of domestic violence.
Maine law and Section E of M-4 both state that an

App. 14
“ofﬁcer shall immediately use all reasonable means to
prevent further abuse.” Me. Stat. tit. 19-A, § 4012(6).
This includes “[r]emaining on the scene [of a domestic
violence incident for] as long as the ofﬁcer reasonably
believes there is a danger to the physical safety of that
person without the presence of a law enforcement officer.” Id. § 4012(6)(A). M-4 adds that “[i]n circumstances in which it is necessary for a DV victim to
temporarily or permanently leave a location where he
or she has been living, [an ofﬁcer shall] assist[ ] the DV
victim in locating lodging with family, friends, in public
accommodations, or at a DV shelter/safe home.”
II.

District Court Opinion

The district court concluded that the plaintiffs had
presented triable issues of fact as to whether Detectives Fowler and Perkins had violated the plaintiffs’
substantive due process rights under a state-created
danger theory and whether the detectives’ actions
“shock[ed] the conscience.”3 Irish, 436 F. Supp. 3d at
423-24, 428.
The district court began by acknowledging that
the plaintiffs have suffered constitutional deprivations
of life and liberty. Id. at 414. In its grant of summary
judgment on the ground of qualiﬁed immunity, the
court used the Third Circuit state-created danger test
laid out in Sanford v. Stiles, 456 F.3d 298, 304-05 (3d
3

The district court also entered summary judgment in favor
of Sergeant Darrin Crane, and plaintiffs do not appeal that portion of the district court order.

App. 15
Cir. 2006). Irish, 436 F. Supp. 3d at 413 n.148. The
court made three essential holdings. First, it held that
the plaintiffs had presented sufﬁcient evidence for a
jury to ﬁnd that the voicemail was an afﬁrmative act
that had enhanced the danger to the plaintiffs. Id. at
415-16. Next, because the detectives had time to make
unhurried judgments, the plaintiffs needed to show
that the defendants had acted with deliberate indifference to show conscience-shocking behavior. Id. at 418.
Finally, the court determined that a reasonable jury
could ﬁnd that leaving the voicemail was “deliberately
indifferent to the point of being conscience-shocking in
light of the actions [the detectives] took before and after leaving a voicemail for Mr. Lord.” Id. at 419.
As to qualiﬁed immunity, the court reasoned that
the existence of the state-created danger doctrine was
not clearly settled law in the First Circuit because this
court had never found the theory applicable to the speciﬁc facts presented by the case before it. Id. at 425.
Recognizing that a consensus of persuasive authority
from other circuits was sufﬁcient to clearly establish
the doctrine, it nevertheless declined to hold that the
doctrine was clearly established. Id. at 426. That was
because in its view, the Fifth and Eleventh Circuits
had rejected the state-created danger theory, and it
was “not within [the district court’s] purview to select
between the majority and minority rules” or “which
among the majority formulations . . . [to] adopt.” Id.
The plaintiffs have appealed. The defendant ofﬁcers have not appealed.

App. 16
III. Contours of the
State-Created Danger Doctrine
We review a district court’s grant of summary
judgment de novo. Lopez-Santos v. Metro. Sec. Servs.,
967 F.3d 7, 11 (1st Cir. 2020). In doing so, we read the
facts in the light most favorable to the non-moving
party (here, the plaintiffs), granting all reasonable inferences in their favor. Id.
The Due Process Clause of the Fourteenth Amendment provides that “[n]o State shall . . . deprive any
person of life, liberty, or property, without due process
of law.” U.S. Const. amend. XIV, § 1. While the Supreme
Court has said that in general, “a State’s failure to protect an individual against private violence simply does
not constitute a violation of the Due Process Clause,”
DeShaney v. Winnebago Cnty. Dep’t of Soc. Servs., 489
U.S. 189, 197 (1989), it has also suggested that when
the state creates the danger to an individual, an afﬁrmative duty to protect might arise. See id. at 201
(“While the State may have been aware of the dangers
that [the plaintiff ] faced in the free world, it played no
part in their creation, nor did it do anything to render
him any more vulnerable to them.”).
Nine other circuits have since recognized the
state-created danger doctrine. See Okin v. Vill. of Cornwall-on-Hudson Police Dep’t, 577 F.3d 415, 428 (2d Cir.
2009); Sanford, 456 F.3d at 304-05; Doe v. Rosa, 795
F.3d 429, 439 (4th Cir. 2015); Jane Doe v. Jackson Loc.
Sch. Dist. Bd. of Educ., 954 F.3d 925, 932 (6th Cir.
2020); D.S. v. E. Porter Cnty. Sch. Corp., 799 F.3d 793,

App. 17
798 (7th Cir. 2015); Fields v. Abbott, 652 F.3d 886, 891
(8th Cir. 2011); Kennedy v. City of Ridgeﬁeld, 439 F.3d
1055, 1066 (9th Cir. 2006); Estate of B.I.C. v. Gillen, 710
F.3d 1168, 1173 (10th Cir. 2013); Butera v. District of
Columbia, 235 F.3d 637, 652 (D.C. Cir. 2001).
The circuits that recognize the doctrine uniformly
require that the defendant afﬁrmatively acted to create or exacerbate a danger to a speciﬁc individual or
class of people. See, e.g., Sanford, 456 F.3d at 304; Kennedy, 439 F.3d at 106164. Each circuit requires that the
defendant’s acts be highly culpable and go beyond
mere negligence.4 See, e.g., Butera, 235 F.3d at 651; see
also Cnty. of Sacramento v. Lewis, 523 U.S. 833, 847
(1998) (“[T]he substantive component of the Due Process Clause is violated by executive action only when
it ‘can properly be characterized as arbitrary, or conscience shocking, in a constitutional sense.’ ” (quoting
Collins v. City of Harker Heights, 503 U.S. 115, 128
(1992))). The plaintiff also must show a causal connection between the defendant’s acts and the harm. See,
e.g., Sanford, 456 F.3d at 304-05; Fields, 652 F.3d at
891.

4

Most circuits require that the defendant’s actions “shock
the conscience.” The Ninth Circuit does not use the phrase “shock
the conscience” as it has opined that the phrase “sheds more heat
than light on the thought process courts must undertake in cases
of this kind.” Kennedy, 439 F.3d at 1064-65 (quoting L.W. v.
Grubbs, 92 F.3d 894, 900 (9th Cir. 1996)). That court requires that
the defendant act with at least deliberate indifference to a “known
or obvious danger.” Id. at 1062, 1064-65.

App. 18
This circuit has repeatedly outlined the core elements of the state-created danger doctrine as they
have been articulated in other circuits. This court has
stated that in order to be liable under the state-created
danger doctrine, the defendant must “afﬁrmatively
act[ ] to increase the threat to an individual of thirdparty private harm.” Coyne v. Cronin, 386 F.3d 280, 287
(1st Cir. 2004); see also Ramos-Piﬁero v. Puerto Rico,
453 F.3d 48, 55 n.9 (1st Cir. 2006); Rivera v. Rhode Island, 402 F.3d 27, 37 (1st Cir. 2005). A government ofﬁcial must actually have created or escalated the
danger to the plaintiff and the plaintiff cannot have
“voluntarily assume[d] those risks.” Velez-Diaz v. VegaIrizarry, 421 F.3d 71, 81 (1st Cir. 2005). The danger cannot be “to the general public,” it must be “speciﬁc” in
some “meaningful sense” to the plaintiff. Ramos-Piﬁero, 453 F.3d at 54. The ofﬁcial’s acts must cause the
plaintiff ’s injury. Rivera, 402 F.3d at 37-38. The defendant’s actions must “shock the conscience,” and where a
state actor had the “opportunity to reﬂect and make
reasoned and rational decisions, deliberately indifferent behavior may sufﬁce to ‘shock the conscience.’ ”5 Id.
at 35-36; see also Irish I, 849 F.3d at 526. To show deliberate indifference, the plaintiff “must, at a bare
minimum, demonstrate that [the defendant] actually
knew of a substantial risk of serious harm . . . and disregarded that risk.” Coyne, 386 F.3d at 288. In evaluating whether the defendant’s actions shocked the
5

The defendants do not argue in their brief that the plaintiffs must show more than deliberate indifference to make their
claim.

App. 19
conscience, we also consider whether the defendants
violated state law or proper police procedures and
training. See Irish I, 849 F.3d at 528; Marrero-Rodriguez v. Municipality of San Juan, 677 F.3d 497, 500-02
(1st Cir. 2012).
Our decision in Rivera v. Rhode Island, which predates the defendant ofﬁcers’ conduct here, provided
this circuit’s most comprehensive exposition of the
state-created danger doctrine and its elements. See
403 F.3d at 34-38.
In Rivera, Charles Pona and his associates repeatedly threatened to kill ﬁfteen-year-old Jennifer Rivera
if she testiﬁed at Pona’s murder trial. Id. at 31. She told
the police about these threats many times, and they
promised to protect her. Id. at 31-32. An associate of
Pona shot and killed Rivera the day before she was
scheduled to testify. Id. at 32. Rivera’s mother, Iris Rivera, brought a § 1983 claim against the ofﬁcers investigating the murder under the state-created danger
doctrine. Id. at 33-35. This court reviewed the contours
of the doctrine as described above, and then held that
Iris Rivera had not made out a viable state-created
danger claim against the defendant ofﬁcers because
the acts taken by defendants were essential to the investigation and performed appropriately. Id. at 37.
This case presents different facts that require us to
recognize the state-created danger doctrine and conclude that a reasonable jury could ﬁnd that a claim has
been validly presented on this evidence.

App. 20
We now state the necessary components for the viability of such a claim. In order to make out a statecreated danger claim in the First Circuit, the plaintiff
must establish:
(1) that a state actor or state actors afﬁrmatively acted to create or enhance a danger to
the plaintiff;
(2) that the act or acts created or enhanced
a danger speciﬁc to the plaintiff and distinct
from the danger to the general public;
(3) that the act or acts caused the plaintiff ’s
harm; and
(4) that the state actor’s conduct, when
viewed in total, shocks the conscience.
(i) Where ofﬁcials have the opportunity
to make unhurried judgments, deliberate
indifference may shock the conscience,
particularly where the state ofﬁcial performs multiple acts of indifference to a
rising risk of acute and severe danger. To
show deliberate indifference, the plaintiff
must, at a bare minimum, demonstrate
that the defendant actually knew of a
substantial risk of serious harm and disregarded that risk.
(ii) Where state actors must act in a
matter of seconds or minutes, a higher
level of culpability is required.
We apply this test to the two issues before us.

App. 21
IV.

Substantive Due Process Violation

We agree with and do not restate the district
court’s reasoning that a jury could ﬁnd the plaintiffs’
substantive due process rights were violated.
The defendants argue, as though context does not
matter, that Rivera established that the use of basic
law enforcement investigative tools cannot ever serve
as the afﬁrmative act underlying a state-created danger claim. Rivera established no such thing; rather it
held only that the use of law enforcement tools in that
case did not provide an adequate basis for the statecreated danger claim there. See id. at 37. That was because interviewing and subpoenaing Jennifer Rivera
were both necessary steps of the investigation that
could not reasonably be avoided and were performed
appropriately. See id. Here the claim is not that the defendants should not have contacted Lord at all, but
that the manner in which the ofﬁcers did so – despite
having been warned about Lord’s threats of violence
and their own acknowledgement that contacting him
would increase the risks to Irish and her family – was
wrongful.
The defendants next argue that the ofﬁcers’ violations of state law and MSP policy cannot serve as the
basis of a state-created danger claim. That is not the
plaintiffs’ argument. The plaintiffs’ argument is that
these violations are, at the very least, relevant to determining the conscience-shocking nature of the defendants’ conduct and the qualiﬁed immunity inquiry.
The plaintiffs’ position is well based on our prior

App. 22
opinions of which the defendant ofﬁcers had notice.
Those opinions are described below.
The defendants also argue that no jury could ﬁnd
the ofﬁcers’ conduct shocked the conscience. We rely on
the district court’s reasoning as to why that argument
fails. See Irish, 436 F. Supp. 3d at 419-24.
V.

Qualified Immunity

Government ofﬁcials sued in their individual capacities are immune from damages claims unless “(1)
they violated a federal statutory or constitutional
right, and (2) the unlawfulness of their conduct was
‘clearly established at the time.’ ” District of Columbia
v. Wesby, 138 S. Ct. 577, 589 (2018) (quoting Reichle v.
Howards, 566 U.S. 658, 664 (2012)). The defendants’
argument turns on the clearly established prong.
The test to determine whether a right is clearly
established asks whether the precedent is “clear
enough that every reasonable ofﬁcial would interpret
it to establish the particular rule the plaintiff seeks to
apply” and whether “[t]he rule’s contours [were] so well
deﬁned that it is clear to a reasonable ofﬁcer that his
conduct was unlawful in the situation he confronted.”
Id. at 590 (internal quotation marks and citations
omitted).
A rule is clearly established either when it is “dictated by ‘controlling authority’ or ‘a robust “consensus
of cases of persuasive authority.” ’ ” Id. at 589-90 (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741-42 (2011)). A

App. 23
“robust consensus” does not require the express agreement of every circuit. Rather, sister circuit law is sufﬁcient to clearly establish a proposition of law when it
would provide notice to every reasonable ofﬁcer that
his conduct was unlawful. See Wilson v. Layne, 526 U.S.
603, 61618 (1999); Wesby, 138 S. Ct. at 589-90.
“[T]he salient question . . . is whether the state of
the law [at the time of the defendants’ conduct] gave
[them] fair warning that their alleged treatment of
[the plaintiffs] was unconstitutional.” Hope v. Pelzer,
536 U.S. 730, 741 (2002); see also Rainsberger v. Benner, 913 F.3d 640, 652 (7th Cir. 2019) (“[T]he relevant
question is what a well-trained ofﬁcer would have
thought about the lawfulness of that action.” (emphasis in original)). “[O]fﬁcials can still be on notice that
their conduct violates established law even in novel
factual circumstances.” Hope, 536 U.S. at 741; see also
Taylor v. Riojas, No. 19-1261, 2020 WL 6385693, at *2
(Nov. 2, 2020) (holding that qualiﬁed immunity should
not be granted when “any reasonable ofﬁcer should
have realized that [the conduct at issue] offended the
Constitution”); Safford Uniﬁed Sch. Dist. No. 1 v. Redding, 557 U.S. 364, 377-78 (2009); Brosseau v. Haugen,
543 U.S. 194, 199 (2004) (“Of course, in an obvious case,
these standards can ‘clearly establish’ the answer, even
without a body of relevant case law.”); Browder v. City
of Albuquerque, 787 F.3d 1076, 108283 (10th Cir. 2015)
(“[T]he more obviously egregious the conduct in light
of prevailing constitutional principles, the less speciﬁcity is required from prior case law to clearly establish
the violation.” (citations omitted)).

App. 24
The Supreme Court has established that cases involving materially similar facts are not necessary to a
ﬁnding that the law was clearly established. Hope, 536
U.S. at 741. The circuits have followed that rule. See
Suboh v. Dist. Att’y’s Off. of Suffolk Dist., 298 F.3d 81,
94 (1st Cir. 2002); Dean for & on behalf of Harkness v.
McKinney, 976 F.3d 407, 418 (4th Cir. 2020); Cantu v.
City of Dothan, 974 F.3d 1217, 1232 (11th Cir. 2020);
Vinyard v. Wilson, 311 F.3d 1340, 1355 (11th Cir. 2002);
Williams v. Strickland, 917 F.3d 763, 770 (4th Cir.
2019); Browder, 787 F.3d at 1082-83.
A defendant’s adherence to proper police procedure bears on all prongs of the qualiﬁed immunity
analysis. Irish I, 849 F.3d at 527-28.6 When an ofﬁcer
violates the Constitution, state law, of course, provides
no refuge. A lack of compliance with state law or procedure does not, in and of itself, establish a constitutional violation, but when an ofﬁcer disregards police
procedure, it bolsters the plaintiff ’s argument both
that an ofﬁcer’s conduct “shocks the conscience” and
that “a reasonable ofﬁcer in [the ofﬁcer’s] circumstances would have believed that his conduct violated
the Constitution.” Stamps, 813 F.3d at 32 n.4 (quoting
6

Defendants’ argument that the violations of proper police
procedure and state law are “not relevant to the qualiﬁed immunity analysis” is both incorrect and troubling. The defendants’ argument is tantamount to saying that violations of state law and
proper police procedures have no bearing on whether a reasonable
ofﬁcer would know his conduct was unlawful. Such an argument
is pernicious; the driving principle behind it would encourage government ofﬁcials to short-cut proper procedure and established
protocols.

App. 25
Jennings v. Jones, 499 F.3d 2, 20 (1st Cir. 2007)); see
also id. (collecting cases); Marrero-Rodriguez, 677 F.3d
at 502 (stating that defendant’s “violation of several
training protocols” weighed in favor of plaintiffs’
claim); Dean, 976 F.3d at 416-17 (relying on ofﬁcer’s violation of training, department policy, and state law to
hold that a reasonable jury could conclude that ofﬁcer’s
conduct was conscience shocking).
The defendants’ main argument is that because
this circuit to date has not recognized the state-created
danger doctrine, the law was not clearly established.
That is simply incorrect. The Supreme Court has
stated that clearly established law can be dictated by
controlling authority or a robust consensus of persuasive authority. Wesby, 138 S. Ct. at 589-90; see also
McCue v. City of Bangor, 838 F.3d 55, 64 (1st Cir. 2016)
(stating that the agreement of four circuits was sufﬁcient to establish threshold for excessive force); Maldonado v. Fontanes, 568 F.3d 263, 270-71 (1st Cir. 2009)
(holding that a consensus of three circuits was sufﬁcient to establish that the killing of a pet was a seizure
within the meaning of the Fourth Amendment). The
widespread acceptance of the state-created danger
theory, described above, was sufﬁcient to clearly establish that a state ofﬁcial may incur a duty to protect a
plaintiff where the ofﬁcial creates or exacerbates a
danger to the plaintiff.
The defendants’ reliance on Soto v. Flores, 103 F.3d
1056 (1st Cir. 1997), is also misplaced. In Soto, this
court concluded that the state-created danger doctrine
was not clearly established. Id. at 1065. The broad

App. 26
acceptance of the doctrine “militate[d] in favor of ﬁnding that there [was] clearly established law in this
area,” but two circumstances prevented the court from
holding that the law was clearly established. Id. First,
the court noted that at the time of the defendants’ conduct in Soto, the First Circuit had never “discuss[ed]
the contours of [the state-created danger] doctrine.” Id.
Second, the court relied on the fact that while the
Third Circuit had then recently “comprehensively described” the state-created danger theory, the history of
the doctrine was “uneven,” and that only “more recent
judicial opinions . . . ha[d] begun to clarify the contours” of the doctrine. Id. All of this had changed by the
time Detective Perkins left the voicemail for Anthony
Lord. By July 2015, this court had discussed the statecreated danger doctrine at least a dozen times, even if
it had never found it applicable to the facts of a speciﬁc
case. And our sister circuits’ law developed as well in
the decades since Soto.
The ofﬁcers argue that because the Fifth and Eleventh Circuits have rejected the state-created danger
doctrine,7 the doctrine cannot be clearly established.
Again, as a proposition of law this is wrong. A circuit
7

We disagree with the defendants that the Fifth and Eleventh Circuits have rejected the state-created danger doctrine.
Though the Eleventh Circuit no longer has a discrete “state-created danger doctrine,” it also does not bar recovery in cases like
this one. See Waddell v. Hendry Cnty. Sheriff ’s Off., 329 F.3d
1300 1305-06 (11th Cir. 2003). And the Fifth Circuit has not explicitly foreclosed the possibility that it might recognize the doctrine in the future. See Doe ex rel. Magee v. Covington Cnty. Sch.
Dist. ex rel. Keys, 675 F.3d 849, 865-66 (5th Cir. 2012) (en banc).

App. 27
split does not foreclose a holding that the law was
clearly established, as long as the defendants could not
reasonably believe that we would follow the minority
approach. See Pro v. Donatucci, 81 F.3d 1283, 1292 (3d
Cir. 1996). After Rivera, the defendants could not reasonably have believed that we would ﬂatly refuse to
apply the state-created danger doctrine to an appropriate set of facts.
Rivera was a critical warning bell that ofﬁcers
could be held liable under the state-created danger
doctrine when their afﬁrmative acts enhanced a danger to a witness. This court did not simply dismiss Rivera’s claim without analysis, as would have been
appropriate if the state-created danger doctrine could
never apply to any set of facts in this circuit. Instead,
Rivera outlined the elements of the state-created danger doctrine and performed a nuanced analysis of why
each particular action of the defendants was not the
type of afﬁrmative act covered by the doctrine. 402 F.3d
at 36-38. Rivera warned that if an ofﬁcer performed a
non-essential afﬁrmative act which enhanced a danger, a sufﬁcient causal connection existed between that
act and the plaintiff ’s harm, and the ofﬁcer’s actions
shocked the conscience, the ofﬁcer could be held liable
for placing a witness or victim in harm’s way during an
investigation.
Defendants also argue that they are immune from
suit because no factually similar cases alerted them
that their conduct was impermissible. This too is incorrect. As we have just said, a general proposition of
law may clearly establish the violative nature of a

App. 28
defendant’s actions, especially when the violation is
egregious. See Hope, 536 U.S. at 741; Dean, 976 F.3d at
417 (“That there is little precedent imposing liability
under these speciﬁc circumstances does not necessarily mean that an ofﬁcer lacks notice that his conduct is unlawful.”). Not only is the argument wrong,
but its premise is wrong; there are factually similar
earlier cases. Both were decided after Soto.
In 2006, the Ninth Circuit faced a similar case. In
Kennedy v. City of Ridgeﬁeld, Kimberly Kennedy reported that her thirteen-year-old neighbor, Michael
Burns, had molested her nine-year-old daughter. 439
F.3d at 1057. Kennedy told the police that Burns was
violent and that she was afraid of how Burns would
respond to the allegations. Id. at 1057-58. The police
promised to warn Kennedy before contacting Burns.
Id. at 1058. Instead, the investigating ofﬁcer told
Burns’s mother about the allegations against her son
ﬁfteen minutes before telling Kennedy that he had
contacted the Burns family. Id. The ofﬁcer promised to
but did not provide protection that night. Id. Early the
next morning, burns broke into Kennedy’s house and
shot both her and her husband while they slept. Id.
The Ninth Circuit held that there was a triable issue
of fact as to whether the officer had violated Kennedy’s substantive due process rights under the statecreated danger theory. Id. at 1067. The officer had
“created an actual, particularized danger Kennedy
would not otherwise have faced.” Id. at 1063. Going to
the Burns residence prematurely and reassuring Kennedy with false promises of increased security were

App. 29
acts of deliberate indifference. Id. at 1064-65. The
Ninth Circuit also held that the law was clearly established. Id. at 1066-67.
Another factually similar case was decided by the
Seventh Circuit in 1998. In Monﬁls v. Taylor, 165 F.3d
511 (7th Cir. 1998), Thomas Monﬁls tipped off the police that his coworkers intended to steal property from
their workplace. Id. at 513. Despite Monﬁls’ pleas to
keep the recording of his tip secret, the police released
the recording to one of his co-workers, Keith Kutska.
Id. Monﬁls had warned the police that Kutska was
“known to be violent,” “crazy,” and “a biker type with
nothing to lose” and that Monﬁls “was afraid that . . .
[Kutska] would ‘take him out.’ ” Id. at 513-14. Kutska
murdered Monﬁls shortly after the police released the
recording. Id. at 515. Relying on a Sixth Circuit case,
Kallstrom v. City of Columbus, 136 F.3d 1055 (6th Cir.
1998), in which a city was held liable under the statecreated danger doctrine for releasing the contact information of undercover police ofﬁcers, the Seventh Circuit concluded that the defendant ofﬁcer was not
entitled to qualiﬁed immunity on the state-created
danger claim. Monﬁls, 165 F.3d at 516, 518.
These cases gave the defendants notice that they
could be held liable for violating the Due Process
Clause if, after receiving a report of criminal activity,
they effectively alerted the suspect that he was under
investigation in a manner that notiﬁed the suspect
who the reporting individual was, despite knowing
that the suspect was likely to become violent toward
that person. Monﬁls, 165 F.3d at 513-18. The ofﬁcers

App. 30
were also on notice that failing to take steps to mitigate the danger they had created and misleading the
victim about the level of police protection she had could
likewise give rise to a constitutional violation under
the state-created danger doctrine. Kennedy, 493 F.3d
at 1063-65.
On this record, a reasonable jury could conclude
that as much occurred here. The plaintiffs allege that
the defendants, even in the face of Irish’s expressed
fear that Lord would react violently, contacted him in
a manner that a reasonable jury could ﬁnd notiﬁed him
that Irish had reported him to the police. The plaintiffs
also allege that the defendants failed to convey her request for protection to their superiors for several hours
and further failed to inform her in a timely fashion
that the request had been denied. A jury could also conclude that the defendants played a role in the decision
to withdraw all resources from the area without telling
the plaintiffs that they had done so, thereby allowing
the plaintiffs to believe more protection was available
than was actually true. Finally, the defendants’ apparent utter disregard for police procedure could contribute to a jury’s conclusion that the defendants
conducted themselves in a manner that was deliberately indifferent to the danger they knowingly created,
and that they thereby acted with the requisite mental
state to fall within the ambit of the many cases holding
that a violation of the Due Process Clause requires behavior that “shocks the conscience.” See, e.g., Kennedy,
439 F.3d at 1064-65; Rivera, 402 F.3d at 37-38; Coyne,
386 F.3d at 288. Whether the jury will or should

App. 31
conclude as much is, of course, not a question for this
court, but it was clearly established in July 2015 that
such conduct on the part of law enforcement ofﬁcers, if
it occurred, could give rise to a lawsuit under § 1983.
VI.
For the reasons stated above, we reverse the grant
of summary judgment, afﬁrm the district court’s conclusion that a jury could conclude that defendants violated plaintiffs’ substantive due process rights, and
remand for further proceedings consistent with this
opinion. Costs are award to the appellants.

App. 32
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
BRITTANY IRISH et al.,
Plaintiffs,
v.
JASON FOWLER et al.,
Defendants.

)
)
)
)
)
)
)

1:15-cv-00503-JAW

ORDER ON MOTION FOR
SUMMARY JUDGMENT
This tragic case returns to the Court on a motion
for summary judgment by the Defendants, Maine
State Troopers Darrin Crane, Jason Fowler, and Micah
Perkins. The Plaintiffs—Brittany Irish, the estate of
Kyle Hewitt, and Kimberly Irish—brought an action
against the Defendants, alleging that despite knowing of her old boyfriend’s threats of violence against
Brittany Irish, the troopers left a voicemail message
for him, implicitly informing him that she had gone to
law enforcement to report that he had sexually assaulted her, and then law enforcement failed to protect
her and the other plaintiffs from the ensuing and predictable harm. The Court concludes that the record
does not demonstrate a genuine issue of material fact
as to whether Maine State Sergeant Crane was acting
in a deliberately indifferent manner and that he is
entitled to summary judgment in his favor.

App. 33
Taking the facts and inferences in the light most
hospitable to the Plaintiffs, the Plaintiffs have shown
sufﬁcient disputed facts to raise a jury issue as to
whether Maine State Detectives Fowler and Perkins
violated the Plaintiffs’ substantive due process rights.
However, because the Court ﬁnds that the law on statecreated danger was not clearly established when the
events in this case took place, the Court concludes that
the Defendants are entitled to qualiﬁed immunity and
grants their motion for summary judgment.
I.

PROCEDURAL HISTORY

On December 10, 2015, Brittany Irish, individually and as personal representative of the estate of
Kyle Hewitt, deceased, and Kimberly Irish (Plaintiffs)
ﬁled a three-count complaint in this Court, bringing a
civil rights action against the state of Maine, the
Maine State Police, and ten certain known and unknown state of Maine police officers (Defendants).
Compl. at 1 (ECF No. 1). After this Court granted the
Defendants’ motion to dismiss, the Plaintiffs appealed
to the Court of Appeals for the First Circuit and on
March 1, 2017, the First Circuit vacated this Court’s
order with respect to the individual defendants and remanded the case for further discovery. Irish v. Maine,
849 F.3d 521, 529 (1st Cir. 2017). On March 23, 2017,
the Court received the mandate of the First Circuit,
which returned jurisdiction to the Court. Mandate
(ECF No. 17). On September 13, 2017, the Plaintiffs
ﬁled a ﬁrst amended complaint, naming Jason Fowler,
Micah Perkins, John Darcy, and Andrew Levesque as

App. 34
Defendants. First Am. Compl. (ECF No. 32). On October 26, 2017, the Plaintiffs ﬁled a second amended
complaint naming Jason Fowler, Micah Perkins, and
Darrin Crane (Individual Ofﬁcers) as Defendants. Second Am. Compl. (ECF No. 38). On November 30, 2017,
the Individual Ofﬁcers answered the Second Amended
Complaint. Answer (ECF No. 42).
After the parties engaged in discovery, the discovery period closed on October 29, 2018. Order Granting
Mot. to Amend Scheduling Order (ECF No. 54). On
December 14, 2018, the Defendants filed a motion to
exclude one of the Plaintiffs’ experts. Defs.’ Mot. to Exclude D.P. Van Blaricom (ECF No. 59). The Plaintiffs
responded on January 11, 2019. Pls.’ Obj. to Defs.’ Mot.
to Exclude D.P. Van Blaricom (ECF No. 62). The Defendants replied on January 25, 2019. Defs.’ Reply in
Support of Mot. to Exclude D.P. Van Blaricom (ECF No.
67). On March 13, 2019, the Court ruled on the motion
to exclude Mr. Van Blaricom. Order on Mot. to Exclude
D.P. Van Blaricom (ECF No. 68).
On March 20, 2019, the parties ﬁled a joint motion
for approval of a Local Rule 56(h) schedule, which the
Court granted on the same day. Jt. Mot. for Summ. J.
Schedule (ECF No. 69); Order Granting Mot. for Approval of Local Rule 56(h) Schedule (ECF No. 70). On
April 17, 2019, the parties jointly ﬁled a stipulation of
facts (JSF). Joint Stipulated Facts (ECF No. 72) (JSF).
On April 26, 2019, the Individual Ofﬁcers ﬁled a statement of material facts (DSMF). Defs.’ Statement of Undisputed Material Facts (ECF No. 79) (DSMF). On the
same day, the Individual Ofﬁcers ﬁled a motion for

App. 35
summary judgment. Mot. for Summ. J. of Defs. Jason
Fowler, Micah Perkins and Darrin Crane (ECF No. 80)
(Defs.’ Mot.). On June 11, 2019, the Plaintiffs ﬁled a response to the Individual Ofﬁcers’ Motion for Summary
Judgment as well as a response to their statement of
material facts, which included a statement of additional material facts. Pls.’ Opp’n to Defs.’ Mot. for
Summ. J. (ECF No. 87); Pls.’ Opposing Statement of
Material Facts with Additional Statement of Material
Facts (ECF No. 88). On July 8, 2019, the Plaintiffs ﬁled
an amended response to the Individual Ofﬁcers’ motion for summary judgment as well as an amended response to their statement of material facts (PRDSMF),
which included an amended statement of additional
material facts (PSAMF). Pls.’ Opp’n to Defs.’ Mot. for
Summ. J. (ECF No. 95) (Pls.’ Opp’n); Pls.’ Opposing
Statement of Material Facts with Additional Statement
of Material Facts (ECF No. 96) (for paragraphs 1-112,
PRDSMF; for paragraphs 113-336, PSAMF). On July
31, 2019, the Individual Ofﬁcers ﬁled a reply to the
Plaintiffs’ response to their statement of material
facts and the Plaintiffs’ statement of additional material facts (DRPSAMF) as well as a reply to the
Plaintiffs’ opposition to their motion for summary
judgment. Defs.’ Reply Statement of Facts (ECF No.
99) (DRPSAMF); Defs.’ Reply in Supp. of Mot. for
Summ. J. (ECF No. 100) (Defs.’ Reply). The Court ordered oral argument, which it held on January 22,
2020. Min. Entry (ECF No. 103).

App. 36
FACTUAL BACKGROUND1

II.

A. The Relationship Between Brittany Irish
and Anthony Lord
Brittany Irish met Anthony Lord in June of 2011,
when she was sixteen years old. DSMF, Attach. 1 at
18:17-19:01 (Dep. of Brittany Irish). In July of 2011,
Brittany Irish’s parents took out a protection from
abuse or protection from harassment order against Mr.
Lord.2 DSMF ¶ 7; PRDSMF ¶ 7. Brittany Irish believed that they had done so because her father discovered that Mr. Lord was a registered sex offender and
because she was underage and had just had a child.
DSMF ¶ 8; PRDSMF ¶ 8. Mr. Lord had a signiﬁcant
criminal history, including convictions for criminal
trespass in 1999 and assault in 2002, a “charge of Felony Class A . . . gross sexual assault in 2002, which
lead to a Felony Class C conviction in 2002,” probation
violations in 2003 and 2009, and a domestic violence
“assault charge Class D in 2015, for which he served

1

The Court states the facts “in the light most hospitable to
[Plaintiffs], consistent with record support. . . .” Mancini v. City
of Providence ex rel. Lombardi, 909 F.3d 32, 37 (1st Cir. 2018)
(citing Ahern v. Shinseki, 629 F.3d 49, 51 (1st Cir. 2010); Gillen v.
Fallon Ambulance Serv., Inc., 283 F.3d 11, 17 (1st Cir. 2002).
2
The Plaintiffs qualify this statement by pointing out that
“[a] court of law granted the order” which it would not have done
“absent evidence Lord had done something to satisfy the legal
standard for such orders.” PRDSMF ¶ 7. Although the qualiﬁed
response is correct, satisfying the legal standard for the issuance
of the order is implicit. The Court therefore declines to qualify the
paragraph.

App. 37
forty-ﬁve days in jail and was on probation for a third
time.” PSAMF ¶ 280; DRPSAMF ¶ 280.
In October of 2011, Brittany Irish became romantically involved with Kyle Hewitt.3 DSMF ¶ 1;
PRDSMF ¶ 1. Mr. Hewitt and Brittany Irish began living together in May of 2012. DSMF ¶ 2; PRDSMF ¶ 2.
For a brief period in 2013, Brittany Irish was romantically involved with Mr. Lord. DSMF ¶ 5; PRDSMF ¶ 5.
In December 2013, Brittany Irish gave birth to her and
Mr. Hewitt’s son. JSF ¶ 1. In March of 2014, Brittany
Irish and Mr. Hewitt moved to an apartment in Bangor, Maine. DSMF ¶ 3; PRDSMF ¶ 3. Brittany Irish
and Mr. Lord once again became romantically involved
beginning in April or May of 2015.4 DSMF ¶ 6;
PRDSMF ¶ 6. In early June of 2015, Mr. Hewitt moved
out of the apartment he and Brittany Irish shared, but
he had moved back in as of July 10, 2015. DSMF ¶ 4;
PRDSMF ¶ 4.

3

The Plaintiffs qualify this statement by stating that “Defendants admit a lover’s triangle and a[ Brittany] Irish/Lord relationship qualifying for Maine State Police . . . domestic violence
. . . protection. . . .” PRDSMF ¶ 1. The Court views this qualiﬁcation as argument, rather than a dispute regarding the factual content of the statement. The Court declines to qualify the Individual
Ofﬁcers’ statement.
4
The Plaintiffs once again qualify this statement by stating
that “Defendants admit “a lover’s triangle and a[ Brittany]
Irish/Lord relationship qualifying for Maine State Police . . . domestic violence . . . protection. . . .” PRDSMF ¶ 6. The Court again
views this qualiﬁcation as argument, rather than a dispute regarding the factual content of the statement. The Court declines
to qualify the Individual Ofﬁcers’ statement.

App. 38
On June 30, 2015, Mr. Lord spent the night at
Brittany Irish’s residence. JSF ¶ 2. Brittany Irish has
never taken out a formal order for protection against
Mr. Lord, DSMF ¶ 9; however, on July 7, 2015, Brittany
Irish called the Bangor Police Department (BPD) “to
report being harassed and threatened by her exboyfriend Anthony Lord.”5 BPD Harassment Report;
see also DSMF ¶ 9; PRDSMF ¶ 9; PSAMF ¶ 194;
DRPSAMF ¶ 194. On that same day, BPD officer
Michael Brennan called Mr. Lord and advised him
that Brittany Irish had contacted the police about Mr.
Lord’s harassing and threatening her and that Mr.
5

Paragraph 9 of the DSMF states, “B[rittany] Irish has
never applied for a protection from abuse order or for a protection
from harassment order against Lord.” DSMF ¶ 9. The Plaintiffs
qualify this statement by pointing out that Brittany Irish had previously gone to BPD to report Mr. Lord for harassment, PRDSMF
¶ 9, and while the Court regards this as argument outside of the
scope of the fact asserted by the Individual Ofﬁcers, the Court alters this statement to reﬂect the record and because this information is included in PSAMF ¶ 194.
The ﬁnal sentence of paragraph 194 of the PSAMF reads,
“This harassment complaint made by Brittany Irish, a little over
one week earlier to the voicemail being left for Lord, is demonstrative that Lord knew that Brittany Irish had contacted the police at least once before to report abuse by Lord.” PSAMF ¶ 194.
The Individual Ofﬁcers move to strike this sentence, arguing that
“it is not supported by the cited-to portions of the record,” “is argument,” and that furthermore, Brittany Irish “reported being
harassed and threatened by Lord,” but “did not report recent
abuse.” DRPSAMF ¶ 194. The Court agrees that the Plaintiffs’
statement is not supported by the record evidence, as the BPD
Harassment Report does not demonstrate that Brittany Irish reported abuse by Mr. Lord. See PSAMF, Attach. 12 at 2 (BPD Harassment Report). Therefore, the Court strikes the third sentence
of paragraph 194 of the PSAMF.

App. 39
Lord “was to stop attempting to contact her.”6 PSAMF
¶¶ 137, 194; DRPSAMF ¶¶ 137, 194. As of July 12,
2015, Brittany Irish wanted to spend her life with Mr.
Lord. JSF ¶ 3. As of July 14, 2015, Brittany Irish was
engaged in a romantic relationship with Mr. Lord involving regular intimate relations,7 and on that day,
she sent him a text message stating that she wanted
to have a baby with him. JSF ¶ 4-5; DSMF ¶ 10;
PRDSMF ¶ 10.
B. The Evening of July 14, 2015
On July 14, 2015, Brittany Irish arrived at her
friend Amber Adams’ house at approximately 5:00 p.m.8
DSMF ¶ 11; PRDSMF ¶ 11. At 7:04 p.m., Brittany
Irish sent Mr. Lord a text message telling him that she
6

The Individual Ofﬁcers seek to qualify paragraph 137 of the
PSAMF, stating that “[a] BPD ofﬁcer called Mr. Lord and told him
that B[rittany] Irish wanted no further contact with him and that
he was to stop attempting to contact her.” DRPSAMF ¶ 137. The
Court is unclear how this is different from the Plaintiffs’ statement and declines to qualify the original statement.
7
The Plaintiffs attempt to qualify this statement by referring back to their responses to paragraphs 1 and 6 of the DMSF.
PRDSMF ¶ 10. The Court again views this qualiﬁcation as argument, rather than a dispute regarding the factual content of the
statement. The Court declines to qualify the Individual Ofﬁcers’
statement.
8
The Plaintiffs object to the inclusion of this fact as irrelevant. PRDSMF ¶ 11. The Individual Ofﬁcers counter that it is relevant “because it relates to the events immediately preceding
B[rittany] Irish’s encounter with Lord outside of an IGA store, as
alleged in paragraph 19 of the Second Amended Complaint.”
DRPSAMF ¶ 11. The Court agrees with the Individual Ofﬁcers
and overrules the Plaintiffs’ objection.

App. 40
was probably going to come see him that night.9 DSMF
¶ 12; PRDSMF ¶ 12. At 8:15 p.m., Brittany Irish sent
Mr. Lord a text message telling him that she loved him.
JSF ¶ 6. At 8:43 p.m., Brittany Irish sent Mr. Hewitt a
text message telling him that she was not going to
visit Mr. Lord that night; however, at the time she sent
this text message, Brittany Irish was planning to see
Mr. Lord.10 DSMF ¶ 13; PRDSMF ¶ 13.
At approximately 10:00 p.m., Brittany Irish left
Ms. Adams’ house and drove to an IGA store in Orono,
Maine, to meet Mr. Lord.11 DSMF ¶ 14; PRDSMF ¶ 14.

9

The Plaintiffs object to the inclusion of this fact as irrelevant. PRDSMF ¶ 12. The Individual Ofﬁcers counter that it is relevant on two grounds, the ﬁrst of which is that “it relates to the
events immediately preceding B[rittany] Irish’s encounter with
Lord outside of an IGA store, as alleged in paragraph 19 of the
Second Amended Complaint.” DRPSAMF ¶ 12. The Court overrules the Plaintiffs’ objection on this ground, and so does not reach
the second ground.
10
The Plaintiffs object to the inclusion of this fact as irrelevant. PRDSMF ¶ 13. The Individual Officers counter that it is
relevant “because it relates to the events immediately preceding
B[rittany] Irish’s encounter with Lord outside of an IGA store, as
alleged in paragraph 19 of the Second Amended Complaint” and
“because it corroborates Hewitt’s statement to Perkins and
Fowler that B[rittany] Irish lied to him about her relationship
with Lord.” DRPSAMF ¶ 13. The Court agrees with the Individual Ofﬁcers that the statement is relevant and thus admissible.
The Court overrules the Plaintiffs’ objection.
11
The Plaintiffs object to the inclusion of this fact as irrelevant. PRDSMF ¶ 14. The Individual Ofﬁcers counter that it is relevant “because it relates to the events immediately preceding
B[rittany] Irish’s encounter with Lord outside of an IGA store, as
alleged in paragraph 19 of the Second Amended Complaint.”

App. 41
Brittany Irish spoke to Mr. Lord on the phone throughout this drive.12 DSMF ¶ 15; PRDSMF ¶ 15. Upon
meeting Mr. Lord, Brittany Irish told him that she had
a kidney infection, and he offered to drive her in his
car to a hospital emergency room located in Lincoln,
Maine. JSF ¶ 7. Brittany Irish left her car in the parking lot at the IGA and got into Mr. Lord’s car. JSF ¶ 8.
Brittany Irish later reported to Maine State Police
(MSP) Detectives Micah Perkins and Jason Fowler
that Mr. Lord did not take her to the emergency room,
but rather drove her to a gravel road in or near Benedicta, Maine, where he choked her with a seatbelt and
sexually assaulted her.13 JSF ¶ 9. He then drove her to
a cabin where he bound her hands behind her back
with window blind cords and sexually assaulted her,
and then drove her to a second cabin where he again
sexually assaulted her. JSF ¶ 9. After Mr. Lord
dropped Brittany Irish off at her car in the IGA store
DRPSAMF ¶ 14. The Court agrees with the Individual Ofﬁcers
and overrules the Plaintiffs’ objection.
12
The Plaintiffs object to the inclusion of this fact as irrelevant. PRDSMF ¶ 15. The Individual Ofﬁcers counter that it is relevant on two grounds, the ﬁrst of which is that “it relates to the
events immediately preceding B[rittany] Irish’s encounter with
Lord outside of an IGA store, as alleged in paragraph 19 of the
Second Amended Complaint.” DRPSAMF ¶ 15. The Court overrules the Plaintiffs’ objection on this ground, and so does not reach
the second ground.
13
For the purposes of resolving this motion for summary
judgment, the Court draws all reasonable inferences in favor of
the Plaintiffs, the non-movants, and so in this order the Court
assumes the truth of Brittany Irish’s allegations against Mr.
Lord.

App. 42
parking lot in the morning on July 15, Mr. Lord and
Brittany Irish drove in separate cars to a Verizon store
on Stillwater Avenue in Bangor. JSF ¶ 10. The two
entered the store at approximately 10:30 a.m. and left
at approximately 10:47 a.m. JSF ¶ 11. At 11:54 a.m.,
Brittany Irish sent Mr. Lord a text message stating
that she loved him. JSF ¶ 12.
C. Brittany Irish’s First Meeting with
Micah Perkins and Jason Fowler
At 12:50 p.m., 12:52 p.m., 12:54 p.m., and 6:50 p.m.
on July 15, 2015, Brittany Irish placed telephone calls
to Mr. Lord. JSF ¶ 16. That same day, Ms. Adams drove
Brittany Irish to St. Joseph’s Hospital to complete a
rape kit. JSF ¶ 13. At 12:00 p.m. on July 15, Sergeant
Darrin Crane of the MSP received a call from an ofﬁcer
with the BPD, relaying that Brittany Irish had made a
complaint of gross sexual assault against Mr. Lord to
the BPD.14 PSAMF ¶¶ 139-40; DRPSAMF ¶¶ 139-40.
The BPD ofﬁcer told Sergeant Crane that Brittany
Irish alleged Mr. Lord abducted her on July 14, kept
her against her will, and raped her several times.
PSAMF ¶ 141; DRPSAMF ¶ 141. Sergeant Crane
knew Mr. Lord personally, having grown up with him
14

The Court altered the Plaintiffs’ statement in response to
the Individual Ofﬁcers’ qualiﬁcation. See DRPSAMF ¶ 140. The
record does not reﬂect that the BPD ofﬁcer told Sergeant Crane
that Brittany Irish had called the BPD but does provide support
for Brittany Irish having made a complaint of gross sexual assault
against Mr. Lord to the BPD. See Defs.’ Reply in Supp. of Mot. to
Exclude D.P. Van Blaricom, Attach. 1 at 13:02-07 (ECF No. 67)
(Dep. of Crane).

App. 43
and having arrested him for an unrelated burglary or
theft. PSAMF ¶¶ 161-62; DRPSAMF ¶¶ 161-62.
Sergeant Crane assigned Detectives Perkins and
Fowler to the case after this phone call. PSAMF ¶ 142;
DRPSAMF ¶ 142. Sergeant Crane briefed Detective
Perkins at 1:20 p.m. on July 15, telling him that Mr.
Lord was the suspect, that Brittany Irish had broken
up with him, and that her allegations included violence, choking with a seatbelt, and multiple rapes at
multiple locations. PSAMF ¶ 143; DRPSAMF ¶ 143.
Detective Perkins also learned from Sergeant Crane
that Mr. Lord was on the Sex Offender Registry but did
not run a criminal background check at that time to
determine Mr. Lord’s full criminal record.15 PSAMF
¶¶ 144; DRPSAMF ¶¶ 144. Detective Perkins briefed
Detective Fowler about what Sergeant Crane had told
him about the events of the night before at 1:25 p.m.
PSAMF ¶ 145; DRPSAMF ¶ 145.

15

Paragraph 160 of the PSAMF states that “Sergeant Crane
knew at 12:30 p.m. that Lord was a registered sex offender, but
not whether this conviction was a felony or misdemeanor and the
detectives were not notiﬁed.” PSAMF ¶ 160. The Individual Ofﬁcers argue that the cited portion of Detective Perkins’ deposition
does not provide support for this assertion. DRPSAMF ¶ 160. The
Court strikes this paragraph. The cited portion of Detective
Perkins’ deposition, Pls.’ Obj. to Defs.’ Mot. to Exclude D.P. Van
Blaricom, Attach. 3 at 71:20-74:07 (ECF No. 62) (Dep. of Perkins),
makes clear that Sergeant Crane only told Detective Perkins that
Mr. Lord was on the sex offender registry at 1:20 p.m., and provides no support for Sergeant Crane having known earlier, at
12:30 p.m. Additionally, it makes clear that Sergeant Crane notiﬁed Detective Perkins that Mr. Lord was a registered sex offender. Id.

App. 44
At just before 2:00 p.m. on July 15, Sergeant Crane
received an email from the BPD containing an ofﬁcer’s
report of what the BPD ofﬁcer had spoken to Brittany
Irish about.16 PSAMF ¶ 146; DRPSAMF ¶ 146. The report contained a statement by Brittany Irish, as recorded by the BPD ofﬁcer, that Mr. Lord would “cut her
ear to ear” if she “did not stop lying to him.”17 PSAMF
¶ 148; DRPSAMF ¶ 148. At 2:05 p.m., Sergeant Crane
forwarded the report to Detective Fowler.18 PSAMF
¶ 147; DRPSAMF ¶ 147. Because Detective Fowler did
not follow up with BPD regarding Mr. Lord, he did not
know about the July 7, 2015, notice given by BPD to
16

The Plaintiffs refer to the BPD ofﬁcer’s report as Brittany
Irish’s “statement as typed by the BPD ofﬁcer. . . .” PSAMF ¶ 146.
The Individual Ofﬁcers quibble with this characterization.
DRPSAMF ¶ 146. The Court does not understand the Individual
Ofﬁcers to disagree that Brittany Irish made statements to the
BPD which were recorded by a BPD ofﬁcer and sent to Sergeant
Crane as a report, but rather with reference to that report as a
“statement.” The Court agrees with the Individual Ofﬁcers that
the cited portion of the record does not refer to this report as a
“statement,” but believes the distinction of no moment. The report
constitutes a collection of statements made by Brittany Irish to a
BPD ofﬁcer, even if it is not a formal “statement” as that term is
understood in the law enforcement community. See PSAMF, Attach. 11 at 1-2 (using variants of the phrase “Brittany stated” at
least twelve times).
17
The Court altered the Plaintiffs’ statement to reﬂect the
Individual Officers’ qualification that Mr. Lord’s threat was
conditioned on Brittany Irish’s honesty with him and that the
BPD ofﬁcer rather than Brittany Irish recorded the statement.
DRPSAMF ¶ 148.
18
The Individual Ofﬁcers qualify this fact by asserting that
Brittany Irish’s report to BPD was not a “statement.” DRPSAMF
¶ 147. The Court rejects this qualiﬁcation for the reasons expressed in footnote 16, supra.

App. 45
Mr. Lord stating that Brittany Irish had complained of
harassment by Mr. Lord and wanted no more contact
with him. PSAMF ¶ 138; DRPSAMF ¶ 138.
From approximately 2:05 p.m. to 3:05 p.m. on July
15, Detectives Perkins and Fowler drove together to
meet Brittany Irish at St. Joseph’s Hospital, where
she was completing a rape kit exam. PSAMF ¶ 149;
DRPSAMF ¶ 149. During this time, neither Detective
Perkins nor Detective Fowler made any effort to ascertain Mr. Lord’s criminal history or whether he had any
bail or probation conditions. PSAMF ¶ 150; DRPSAMF
¶ 150. As Detective Perkins testiﬁed, it is simpler to
get a probation hold on a suspect than an arrest warrant, as a probation hold is achieved by calling a suspect’s probation ofﬁcer and explaining the allegations;
however, if one does not know that a suspect is on probation, one cannot ask for such a hold.19 PSAMF ¶ 150;
DRPSAMF ¶ 150.

19

The Court altered the Plaintiffs’ statement to reﬂect the
Individual Ofﬁcers’ qualiﬁcation that Detective Perkins referred
to probation holds as simpler than warrants, rather than better.
DRPSAMF ¶ 150. The Court also notes Detective Perkins’ testimony that, even had he known Mr. Lord was on probation, he
would not have sought a probation hold during his drive to the
hospital, DRPSAMF ¶ 150, but does not include that statement
in its recitation of facts. The PSAMF does not allege that Detective Perkins would have sought a probation hold had he known of
Mr. Lord’s probation status. Therefore, the Individual Ofﬁcers’ inclusion of this testimony by Detective Perkins about what he
would have done under different facts violates District of Maine
Local Rule 56(d), which “limit[s] a party’s reply to only the opposing party’s additional facts and requests to strike.” Michaud v.

App. 46
At 3:05 p.m. on July 15, Detectives Perkins and
Fowler arrived at St. Joseph’s hospital and met with
the sexual assault advocate and Brittany Irish.20
PSAMF ¶¶ 151, 155, 157; DRPSAMF ¶¶ 151, 155, 157.
The meeting was brief, and it is not clear from the
record or from the parties what was discussed.21 Dep.
of Brittany Irish at 139:08-140:06.
D. Brittany Irish’s Second Meeting with
Micah Perkins and Jason Fowler
At 4:34 p.m. on July 15, 2015, Detectives Perkins
and Fowler met with Brittany Irish for a second time
Calais Reg’l Hosp., No. 15-cv-00359-NT, 2017 WL 902133, at *1
n.1 (D. Me. Mar. 7, 2017).
20
The Individual Ofﬁcers qualify paragraph 157 of the
PSAMF by stating that the 3:05 p.m. meeting between Brittany
Irish and Detectives Perkins and Fowler on July 15, 2015, did not
occur the way the Plaintiffs allege it did in other facts. DRPSAMF
¶ 157. The Court regards this qualiﬁcation as argument outside
the facts asserted by the Plaintiffs and disregards it. Furthermore, the Court is required to view disputed facts in the light
most favorable to the non-movants.
21
The Plaintiffs maintain Brittany Irish reported a threat of
retaliation by Mr. Lord during this ﬁrst meeting with Detectives
Perkins and Fowler, PSAMF ¶¶ 154, 156; however, a portion of
Brittany Irish’s deposition just before the cited portion suggests
that the events the Plaintiffs describe as a reporting of a retaliation threat took place during a later meeting with Detectives Perkins and Fowler. See Dep. of Brittany Irish at 140:07-141:04. The
Court included the threat of retaliation in its description of the
second meeting among the detectives and Ms. Irish. The exact
timing as to when between these two meetings Brittany Irish told
the detectives of the Lord threats is not material for purposes of
ruling on the instant motion.

App. 47
at St. Joseph’s Hospital.22 JSF ¶ 14; DSMF ¶ 16;
PRDSMF ¶ 16. Brittany Irish indicated at this meeting that, though she was tired, she wanted to talk
to Detectives Perkins and Fowler. PSAMF ¶ 152;
DRPSAMF ¶ 152. Brittany Irish told the two that she
and Mr. Lord had been dating for two or three months
but that their relationship had ended recently. DSMF
¶ 18; PRDSMF ¶ 18. She described having met with
Mr. Lord the previous evening in the parking lot of an
IGA store in Orono to exchange some personal items.23
DSMF ¶ 19; PRDSMF ¶ 19. She told them that after

22

Stripped of argument, the Plaintiffs’ denial of this statement by the Individual Ofﬁcers boils down to a denial that the
meeting described in this statement was the ﬁrst meeting between Detectives Perkins and Fowler and Brittany Irish.
PRDSMF ¶ 16. The Court already described the previous meeting
that took place between Detectives Perkins and Fowler and
Brittany Irish and alters the Individual Ofﬁcers’ statement to
clarify that it refers to a second, rather than initial, meeting.
23
The Plaintiffs qualify this statement by pointing out that
the statement “omit[s] that [Brittany] Irish told much more to Defendants by 4:34 p.m. on July 15.” PRDSMF ¶ 19. This is not a
proper qualiﬁcation under District of Maine Local Rule 56(c). The
Plaintiffs are free to submit additional statements of material
fact, if they wish to do so. As the Plaintiffs do not deny or qualify
the facts contained in the statement and as the Court ﬁnds the
statement supported by the record citation, the Court deems the
statement admitted. See Forrest v. Brinker Int’l Payroll Co., LP,
No. 06-cv-00073-P-C, 2007 WL 120307, at *4 n.2 (D. Me. Jan. 11,
2007) (noting that when a party’s response to a statement of fact
is not acceptable under Local Rule 56, the statement is deemed
admitted if supported by the citation provided), adopted by 2007
WL 1083431 (D. Me. Apr. 11, 2007), aff ’d, 511 F.3d 225 (1st Cir.
2007).

App. 48
she asked Mr. Lord to drive her back,24 Mr. Lord choked
her with a seatbelt. PSAMF ¶ 163; DRPSAMF ¶ 163.
She told them that after that, Mr. Lord took her to a
camp in Benedicta, Maine, where he tied her wrists behind her back with window blind cord, bound her feet,
and tied her feet to a bed, before leaving for a while,
returning, and unbinding her. DSMF ¶ 20; PRDSMF
¶ 20. She also told them that Mr. Lord kidnapped her,
took her multiple places, and sexually assaulted her
multiple times. JSF ¶ 15; PSAMF ¶ 163; DRPSAMF
¶ 163. The information Brittany Irish gave Detectives
Perkins and Fowler during this conversation led to evidence being found in two different locations.25 PSAMF
¶¶ 153, 164, 174-75; DRPSAMF ¶¶ 153, 164, 174-75.

24

It is unclear from the record where the Plaintiffs assert
Brittany Irish requested to be driven back from, but the Court
assumes they are referring to the gravel road where Brittany
Irish says Mr. Lord drove her prior to sexually assaulting her the
ﬁrst time. See DSMF ¶ 31; PRDSMF ¶ 31.
25
The Individual Ofﬁcers qualify the Plaintiffs’ statement
that Brittany Irish provided “corroborating evidence,” PSAMF
¶ 153, by pointing out that this goes beyond the record citation,
in which Detective Fowler only testiﬁes that Brittany Irish provided information that led to evidence being found in two locations. See DRPSAMF ¶ 153; Pls.’ Obj. to Defs.’ Mot. to Exclude
D.P. Van Blaricom, Attach. 2 at 21:07-22:02 (ECF No. 62) (Dep.
of Fowler). The Court altered this statement to more accurately
reﬂect the record.
The Individual Ofﬁcers qualify paragraph 164 of the PSAMF
by stating that the locations Detective Perkins and Fowler found
were locations where Brittany Irish claimed to have been raped,
not locations where she was necessarily raped. Because the Court
takes all reasonable inferences in favor of the non-movants, the
Court rejects this qualiﬁcation.

App. 49
Brittany Irish told Detectives Perkins and Fowler
that Mr. Lord dropped her off at her car at the IGA
parking lot between approximately 11:00 and 11:15
a.m. on July 15, and that she then drove home to her
apartment in Bangor. DSMF ¶ 22; PRDSMF ¶ 22. Because she did not consider it relevant, she did not disclose to them that after Mr. Lord dropped her off at her
car in the IGA parking lot, she and Mr. Lord drove separately to a store on Stillwater Avenue in Bangor,
where they spent some time together.26 DSMF ¶ 23;
PRDSMF ¶ 23. During this conversation, Detective
Fowler was able to see both of Brittany Irish’s wrists
and did not observe any marks on them, although he
later testiﬁed that whether marks would appear could
depend on how she was bound.27 DSMF ¶ 21; PRDSMF
¶ 21; PSAMF ¶ 166; DRPSAMF ¶ 166.
Detective Perkins asked Brittany Irish to provide
him with her clothing so that it could be examined for
evidence, but she declined, stating that the detectives
would not ﬁnd any evidence on the clothing.28 DSMF
26

The Court altered this statement to reﬂect the Plaintiffs’
qualiﬁcation that Brittany Irish did not mention the store because she did not believe it was relevant. PRDSMF ¶ 23.
27
The Plaintiffs qualify paragraph 21 of the DSMF by pointing to expert testimony that Detective Fowler should have known
domestic violence strangulation does not always leave visible
marks. PRDSMF ¶ 21. Because the Individual Ofﬁcers admit paragraph 166 of the PSAMF, which shows that Detective Fowler
testiﬁed that he knew restraints do not always leave marks, the
Court views this qualiﬁcation as resolved. PSAMF ¶ 166;
DRPSAMF ¶ 166.
28
The Plaintiffs deny paragraph 24 of the DSMF on the basis
that the actual reason Brittany Irish declined to provide her

App. 50
¶ 24; PRDSMF ¶ 24. Detective Perkins also asked
Brittany Irish to complete a written statement, but she
told him that she was too tired and “wanted to go home
and give [her] children hugs and kisses. . . .”29 DSMF
¶ 17; PRDSMF ¶ 17; PSAMF ¶ 156; DRPSAMF ¶ 156.
Detective Fowler later testiﬁed that one does not hold
clothes was because she was of limited ﬁnancial means, PRDSMF
¶ 24; however, the Court ﬁnds that there is a basis in the record
for the Individual Ofﬁcers’ statement and that the Plaintiffs’ denial does not refute the statement. The Court therefore regards
the Plaintiffs’ response to paragraph 24 of the DSMF as a qualiﬁcation and deems it resolved by the Court’s inclusion of paragraph
180 of the PSAMF, which states that Amber Adams told Detectives Perkins and Fowler on July 16, 2015, about Brittany Irish’s
true reason for not giving the Individual Ofﬁcers her clothes.
PSAMF ¶ 180.
29
The Plaintiffs deny paragraph 17 of the DSMF for several
reasons which boil down to an objection as to when this interaction occurred. PRDSMF ¶ 17. The Court addressed this issue in
footnote 22, supra, and applies the same logic here. The Court
does alter this statement to include an additional reason provided
by the Plaintiffs for why Brittany Irish did not want to give her
statement during this meeting. PSAMF ¶ 156.
The Individual Ofﬁcers request that a large portion of paragraph 156 of the PSAMF be stricken. DRPSAMF ¶ 156. The
Plaintiffs’ statement says that Brittany Irish “told [the Individual
Ofﬁcers] that she had acted to hide her children from Lord because she was fearful that he might ‘do something.’ ” PSAMF
¶ 156. The Individual Ofﬁcers point out that the cited portion of
the record does not reﬂect that she told this to Detectives Perkins
and Fowler. DRPSAMF ¶ 156. The Court agrees and strikes everything from this statement except what Brittany Irish said to
Detectives Perkins and Fowler about wanting to give her children
hugs and kisses. The cited portion of the record reflects that
Brittany Irish was fearful that Mr. Lord might do something to
harm her children but not that she said this to Detectives Perkins
and Fowler. Dep. of Brittany Irish at 141:05-142:12. For the same
reason, the Court strikes paragraphs 154 and 158 of the PSAMF.

App. 51
it against trauma victims if they want to rest before
giving a written statement, that Brittany Irish had
shown courage by going to the hospital to report a rape,
and that the examination and the detectives’ questioning of a victim are invasive. PSAMF ¶ 167; DRPSAMF
¶ 167. Brittany Irish told Detectives Perkins and
Fowler that she was scared of Mr. Lord and that he
would be angry and do “terrible violence” to her and
her children if he found out she went to the police.30
PSAMF ¶¶ 153, 159; DRPSAMF ¶¶ 153, 159.
30

The last sentence of paragraph 153 of the PSAMF states
that, in talking to Detectives Perkins and Fowler, “Irish described
that she was scared of Lord and that [he]would be angry and do
‘terrible violence’ if he found out she went to the police,” citing
Brittany Irish’s afﬁdavit. PSAMF ¶ 153. (Paragraph 153 actually
says that “she was scared of Lord and that she would be angry
and do “terrible violence” if he found out she went to the police.”
The Court has changed the pronoun to “he” because based on its
context and the content of the afﬁdavit, the “she” must be a typographical error.) The Individual Ofﬁcers request that this sentence be stricken, stating that in her deposition, Brittany Irish
testiﬁed she was “ ‘not sure exactly’ when she ﬁrst told the police
that Lord said he would hurt her or her children if she went to
the police” and that she “cannot now attempt to create a material
dispute of fact by offering an afﬁdavit contradictory to that of her
deposition, at least in the absence of any explanation for the
change.” DRPSAMF ¶ 153 (citing Colantuoni v. Alfred Calcagni
& Sons, Inc., 44 F.3d 1, 4-5 (1st Cir. 1994); West v. AT & T Mobility, LLC, No. 13-cv-00092-DBH, 2014 WL 2804115, at *1 (D. Me.
June 19, 2014); McGowen v. Four Directions Dev. Corp., 12-cv00109-JAW, 2014 WL 916366, at *9 n.36 (D. Me. Mar. 10, 2014)).
It is true that “[w]hen an interested witness has given clear
answers to unambiguous questions, he cannot create a conﬂict
and resist summary judgment with an afﬁdavit that is clearly
contradictory, but does not give a satisfactory explanation of why
the testimony is changed.” Colantuoni, 44 F.3d at 4-5. However,

App. 52

the Court does not regard the discrepancy here as contradictory.
In her deposition testimony, Brittany Irish could not remember
when she had communicated this threat information to Detectives Perkins and Fowler. Dep. of Brittany Irish at 202:15-203:03.
As she was writing her later afﬁdavit, she remembered. PSAMF,
Attach. 22 ¶¶ 6-8 (Aff. of Brittany Irish). On a motion for summary judgment, taking all reasonable inferences in favor of the
non-movant, the afﬁdavit controls. See Gillen v. Fallon Ambulance Serv., Inc., 283 F.3d 11, 26 (1st Cir. 2002) (noting that “[a]
subsequent afﬁdavit that merely explains, or ampliﬁes upon,
opaque testimony given in a previous deposition is entitled to consideration in opposition to a motion for summary judgment”). The
Court declines to strike the last sentence of paragraph 153 of the
PSAMF.
In DSMF paragraph 28, the Defendants assert that during
the interview at the hospital on July 15, 2015, Brittany Irish did
not express any concern that Mr. Lord might hurt her or her children if he found out that she had reported him to the police nor
did she ask them not to contact Mr. Lord. DSMF ¶ 28. In their
response, the Plaintiffs denied this paragraph. PRDSMF ¶ 28.
The Court strikes paragraph 28 of the DSMF, which the Court
ﬁnds is not supported by the applicable record citation. See DSMF
¶ 28. The portion of Brittany Irish’s deposition testimony referenced by the Individual Ofﬁcers deals only with the ﬁrst time
Brittany Irish expressed fear of retaliation if Detectives Perkins
or Fowler left a voicemail for Mr. Lord. Dep. of Brittany Irish at
197:20-198:02. This does not exclude the possibility that she communicated a more general retaliation threat to Detectives Perkins
and Fowler earlier. Additionally, the portions of the afﬁdavits of
Detectives Perkins and Fowler offered by the Individual Ofﬁcers
as support would require the Court to weigh the credibility of
those afﬁdavits against the afﬁdavit of Brittany Irish, which is
not the Court’s role on a motion for summary judgment. See Town
of Westport v. Monsanto Co., 877 F.3d 58, 66 (1st Cir. 2017) (stating that “a judge must not engage in making credibility determinations or weighing the evidence at the summary judgment
stage” (quoting Pina v. Children’s Place, 740 F.3d 785, 802 (1st
Cir. 2014))). The Court is required to view disputed facts in the
light most favorable to the non-movants.

App. 53
The MSP crime laboratory analyzes rape kits and
these analyses can often take some time to return results; Detective Perkins did not receive any results
from Brittany Irish’s rape kit on July 15 or 16.31 DSMF
¶ 25; PRDSMF ¶ 25; PSAMF ¶ 275; DRPSAMF ¶ 275.
Additionally, the medical providers at the hospital
did not tell Detective Perkins any findings they made
relevant to whether Brittany Irish was sexually assaulted during their examination of her.32 DSMF ¶ 26;
PRDSMF ¶ 26. Detectives Perkins and Fowler asked
Brittany Irish to come to the police barracks the following day and bring a written statement and the
clothes she was wearing at the time of the alleged
Additionally, the Individual Ofﬁcers request that the Court strike
paragraph 159 of the PSAMF as merely a summary of earlier
statements of fact presented as argument. DRPSAMF ¶ 159. The
Court disagrees and declines to strike it. Furthermore, the answers the Individual Ofﬁcers attempt to incorporate into their response to paragraph 159, DRPSAMF ¶ 159, do not address the
fact for which the Court cited paragraph 159—namely, that
Brittany Irish told Detectives Perkins and Fowler she was fearful
Mr. Lord would harm her children if he knew she had gone to the
police. PSAMF ¶ 159.
31
The Plaintiffs qualify this statement by reciting various
ways that the Individual Ofﬁcers’ “investigation was not at its
end. . . .” PRDSMF ¶ 25. The qualiﬁcation is non-responsive because DSMF paragraph 25 does not state or imply that the investigation was over. If the Plaintiffs wished to present this fact, the
proper place to do so would have been in their statement of additional facts. The Court declines the Plaintiffs’ qualiﬁcation.
32
The Plaintiffs’ qualiﬁcation to this statement is identical
in substance to their qualiﬁcation of paragraph 25 of the DSMF.
Compare PRDSMF ¶ 25, with PRDSMF ¶ 26. For the reasons discussed in footnote 31, supra, the Court rejects the Plaintiffs’ qualiﬁcation.

App. 54
assault.33 DSMF ¶ 27; PRDSMF ¶ 27. At approximately 5:00 p.m. on July 15, 2015, Detectives Perkins
and Fowler ended their initial interviews of Brittany
Irish. PSAMF ¶ 168; DRPSAMF ¶ 168.
E. Micah Perkins and Jason Fowler’s Investigation of the Benedicta Camps
At 5:39 p.m. on July 15, 2015, Detectives Perkins
and Fowler left the hospital and drove towards Benedicta, attempting to locate the two camps in which
Brittany Irish claimed she had been sexually assaulted.34 DSMF ¶ 29; PRDSMF ¶ 29. This drive took
between two and a half and three hours. PSAMF ¶ 169;
DRPSAMF ¶ 169. During this time, neither Detective
33

The Plaintiffs attempt to qualify this statement by referring to their denials of paragraphs 16 and 24 of the DSMF.
PRDSMF ¶ 27. The Court reviewed the two denials referenced by
the Plaintiffs and determines they do not alter the statement.
Paragraph 16 of the PRDSMF is a long recitation of arguments
unrelated to the statement at issue here, and the Court is not
clear what portion of the record the Plaintiffs are attempting to
cite by referring to this paragraph, as required by District of
Maine Local Rule 56(c). PRDSMF ¶ 16. Paragraph 24 merely
states that Brittany Irish did not want to give Detectives Perkins
and Fowler her clothes because she had limited ﬁnancial resources, which does not contradict the statement in paragraph 27
of the DSMF. PRDSMF ¶ 24.
34
The Plaintiffs’ qualiﬁcation of this statement constitutes
argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 29, and the Court disregards it as violative of District
of Maine Local Rule 56(c). See Michaud, 2017 WL 902133, at *1
n.1 (noting that “qualiﬁcations” that exceed the scope of the original statement are appropriately presented as additional facts
rather than qualiﬁcations).

App. 55
Perkins nor Detective Fowler attempted to learn about
Mr. Lord’s criminal history or whether he was on probation.35 PSAMF ¶¶ 169-73; DRPSAMF ¶¶ 169-73.
However, while en route, Detective Perkins contacted
two members of the MSP’s evidence response team,
briefed them on the case, told them that he and Detective Fowler were attempting to locate the camps, and
requested that they go to the camps in the morning
and process them for evidence.36 DSMF ¶ 30; PRDSMF
¶ 30.
At approximately 8:10 p.m., Detectives Perkins
and Fowler found what appeared to be the gravel road
where Brittany Irish said she was strangled with a
seatbelt and sexually assaulted for the ﬁrst time, and
Detective Perkins took photographs of tire tracks.37
DSMF ¶ 31; PSAMF ¶ 31. Also at approximately 8:10
p.m., Detectives Perkins and Fowler found a camp in
35

In paragraphs 169-73, the Plaintiffs list a variety of investigative steps that Detectives Perkins and Fowler did not take
during this drive. PSAMF ¶¶ 169-73. As the Individual Ofﬁcers
make clear, this list is not supported by the cited portion of the
record, which only shows that Detective Perkins and Fowler did
not attempt to learn Mr. Lord’s criminal history or probation status. DRPSAMF ¶¶ 169-73; Dep. of Perkins at 86:12-23. The Court
altered these statements to reﬂect the record.
36
The Plaintiffs’ attempt to qualify paragraph 30 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 30, and as in footnote 34, supra, the Court
rejects it.
37
The Plaintiffs’ attempt to qualify paragraph 31 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 31, and as in footnote 34, supra, the Court
rejects it.

App. 56
Benedicta matching the ﬁrst camp Brittany Irish described and found tire tracks and two ﬁngerprints on
the outside front window.38 DSMF ¶ 32; PRDSMF ¶ 32;
PSAMF ¶ 174; DRPSAMF ¶ 174. A ﬁngerprint analysis would later show that these ﬁngerprints belonged
to Lord.39 PSAMF ¶¶ 279, 326; DRPSAMF ¶¶ 279, 326.
Detective Perkins took interior and exterior photographs of the camp. DSMF ¶32; PRDSMF ¶ 32. After
ﬁnding these locations which matched Brittany Irish’s
description, Detectives Perkins and Fowler did not
attempt to determine Mr. Lord’s criminal history
or whether he was on probation. PSAMF ¶ 176;
DRPSAMF ¶ 176. Based on Brittany Irish’s description of Mr. Lord’s actions, even without the results of
the ﬁngerprint analysis, on July 16, 2015, Detectives
Perkins and Fowler could have arrested Mr. Lord for
38

The Individual Ofﬁcers say that Detectives Perkins and
Fowler found this camp at 8:25 p.m. DSMF ¶ 32. In this order on
a motion for summary judgment, the Court adopts the time put
forward by the non-movant, which is supported by deposition testimony. PSAMF ¶ 174. Moreover, the Individual Ofﬁcers say that
Detectives Perkins and Fowler found two ﬁngerprints, DSMF
¶ 32, while the Plaintiffs say that Detectives Perkins and Fowler
found “a visible ﬁngerprint” on the window. PSAMF ¶ 174. The
Court adopts the Individual Ofﬁcers’ statement because it is not
inconsistent with there being “a visible ﬁngerprint” on the window and the Plaintiffs did not object to its truth.
The Plaintiffs’ attempt to qualify paragraph 32 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 32, and as in footnote 34, supra, the Court
rejects it.
39
The Individual Ofﬁcers qualify paragraph 279 of the
PSAMF on grounds irrelevant to this fact. See DRPSAMF ¶ 279.
The Court rejects the Individual Defendants’ qualiﬁcation.

App. 57
breaking and entering this camp on July 14, 2015.40
PSAMF ¶ 326; DRPSAMF ¶ 326.
40

The Plaintiffs’ paragraph 326 reads:
Brittany Irish’s information enabled Defendants to ascertain that Lord had broken into a camp in Benedicta
and gone through a window, a crime for which he
should have been arrested on July 16, 2015; Irish accurately described this to the detectives on July 15, 2015.
PSAMF ¶ 326. The Individual Defendants object to this statement on the ground that they did not learn the results of the ﬁngerprint analysis until after July 17, 2015, and there is no basis
for the statement that the Detectives should have arrested Mr.
Lord on July 16, 2015, for breaking and entering. DRPSAMF
¶ 326. The Plaintiffs’ paragraph and the Individual Defendants’
response are problematic. First, the Plaintiffs’ paragraph is argumentative. The Court strikes that portion of the paragraph that
states what the Detectives should have done. Whether police protocol would have necessitated an arrest of Mr. Lord based on Brittany Irish’s statement is not a matter of record.
A closer question is whether Brittany Irish’s statement would
have given Detectives Perkins and Fowler probable cause to arrest Mr. Lord for breaking and entering. It is true, as the Individual Defendants point out, that they did not have the ﬁngerprint
analysis by July 16, 2015, but they did have Brittany Irish’s statement, which could have been enough to arrest Mr. Lord. The
Court therefore overrules the Individual Defendants’ objection to
this portion of the paragraph because, viewing the record in the
light most favorable to the non-movant, Brittany Irish’s statement could have caused the detectives to arrest Mr. Lord. It is not
a matter of record whether in the real world of policing an arrest
would have been made in these circumstances, based only on the
statement of the victim, without waiting for the ﬁngerprint analysis and without contacting the owner to determine whether he
or she had given Mr. Lord permission to enter the cabin. However,
given the state of the record and bearing in mind its obligation to
view factual disputes in the light most favorable to the non-movant, the Court includes an altered version of Plaintiffs’ paragraph 326 to reﬂect its concerns.

App. 58
At 9:25 p.m. on July 15, 2015, Detectives Perkins
and Fowler visited the home of Warden Seth Powers
in Benedicta and Warden Powers provided them with
information regarding their search for the second
camp.41 DSMF ¶ 33; PSAMF ¶ 33. At 10:20 p.m., Detectives Perkins and Fowler located a camp road they
suspected led to the second camp described by Brittany
Irish, but because it was dark they were not able to
locate the camp; they never returned to this location.42
DSMF ¶ 34; PRDSMF ¶ 34; PSAMF ¶ 165; DRPSAMF
¶ 165. Detective Perkins arrived back home at 1:00
a.m. on July 16.43 DSMF ¶ 35; PRDSMF ¶ 35. Detectives Perkins and Fowler did not attempt to determine
Mr. Lord’s criminal history or probation status at any
time on July 15. PSAMF ¶ 177; DRPSAMF ¶ 177. At
8:40 a.m. on July 16, Detective Perkins learned facts
from the owner of the ﬁrst camp, which he and Detective Fowler were able to identify, that there was evidence that Mr. Lord had committed a breaking and
41

The Plaintiffs’ attempt to qualify paragraph 33 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 33, and as in footnote 34, supra, the Court
rejects it.
42
The Plaintiffs’ attempt to qualify paragraph 34 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 34, and as in footnote 34, supra, the Court
rejects it. The Court does not address the Individual Ofﬁcers’
qualiﬁcation of paragraph 165 of the PSAMF, DRPSAMF ¶ 165,
because paragraph 34 of the DSMF contains the same information and the Court includes the information above.
43
The Plaintiffs’ attempt to qualify paragraph 35 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 35, and as in footnote 34, supra, the Court
rejects it.

App. 59
entering.44 PSAMF ¶ 178; DRPSAMF ¶ 178. Upon
learning this information, Detective Perkins did not attempt to determine Mr. Lord’s criminal record. PSAMF
¶ 179; DRPSAMF ¶ 179.
F. Brittany Irish’s Visit to the Maine State
Police Major Crimes Unit
On July 16, 2015, Brittany Irish placed telephone
calls to Mr. Lord at 9:23 a.m., 9:52 a.m., and 10:58 a.m.
JSF ¶ 17. At 1:00 p.m., Brittany Irish went to the ofﬁces of MSP’s Major Crimes Unit in Bangor, where she
met Amber Adams, one of her best friends at the time.45
44

The Individual Officers qualify paragraph 178 of the
PSAMF by arguing that, based on what the owner of the camp
said, Detective Perkins now had evidence of a breaking and entering but not necessarily that this was done by Mr. Lord.
DRPSAMF ¶ 178. The Court rejects the Individual Defendants’
qualiﬁed response. Even though Detectives Perkins and Fowler
did not learn that the ﬁngerprint came from Mr. Lord until after
July 17, 2015, the Plaintiffs cite Detective Perkins’ deposition in
which he admitted that once he had spoken to the camp owner,
he had evidence that Mr. Lord, not just someone, had broken into
and entered the owner’s cabin without her permission.
45
The Plaintiffs’ attempt to qualify paragraph 36 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 36, and as in footnote 34, supra, the Court
rejects it.
The Plaintiffs object to paragraph 37 of the DSMF as inadmissible because irrelevant. PRDSMF ¶ 37. The Individual Ofﬁcers respond that the fact that Ms. Adams was one of Brittany
Irish’s best friends provides relevant context for Ms. Adams’ later
conversation with Detectives Perkins and Fowler. DRPSAMF
¶ 37. The Court agrees with the Individual Ofﬁcers and overrules
the objection.

App. 60
DSMF ¶¶ 36-37; PRDSMF ¶¶ 36-37. When she arrived, she had not completed her written statement, as
Detectives Perkins and Fowler had requested the day
before.46 DSMF ¶ 38; PRDSMF ¶ 38. Detectives Perkins and Fowler gave Brittany Irish time to complete
the statement; during this time, they conducted a
recorded interview of Ms. Adams.47 DSMF ¶¶ 39-40;
PRDSMF ¶¶ 39-40; PSAMF ¶ 180; DRPSAMF ¶ 180.
Ms. Adams told Detectives Perkins and Fowler
that she did not believe that Brittany Irish, whom she
regarded as a “pathological” liar, had been sexually assaulted by Lord, and that she thought Brittany Irish
was making up the story out of fear that Mr. Hewitt
would leave her if he learned that she had voluntarily
had sex with Mr. Lord.48 DSMF ¶ 41; PRDSMF ¶ 41;
46

The Plaintiffs’ attempt to qualify paragraph 38 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 38, and as in footnote 34, supra, the Court
rejects it.
47
The Plaintiffs’ attempt to qualify paragraphs 39 and 40 of
the DSMF is argument outside the scope of the facts asserted in
the statement, PRDSMF ¶¶ 39-40, and as in footnote 34, supra,
the Court rejects it.
48
Paragraph 41 of the DSMF states:
Adams told Perkins and Fowler that B[rittany] Irish is
a “pathological liar,” that she does not believe any of
what B[rittany] Irish was saying about being sexually
assaulted by Lord, and that she thinks B[rittany] Irish
was making up the story because she was afraid that
her boyfriend, Hewitt, would leave her if he learned
that she voluntarily had sex with Lord.
DSMF ¶ 41. The Plaintiffs object to this statement as irrelevant
and double hearsay. PRDSMF ¶ 41. The Individual Ofﬁcers respond that this statement is being offered for the effect on the

App. 61
DRPSAMF ¶ 41. Ms. Adams told Detectives Perkins
and Fowler various recent details regarding the intimate life of Brittany Irish and Mr. Lord, including that
earlier on July 16, Brittany Irish had told Mr. Lord she
loved him via text message and over the phone.49
DSMF ¶¶ 42-44; PRDSMF ¶¶ 42-44. Ms. Adams
showed Detectives Perkins and Fowler text messages
that she had exchanged with Mr. Hewitt the previous
day while Brittany Irish was completing her rape kit
and examination in which Mr. Hewitt expressed
doubts about Brittany Irish’s story of assault and her
credibility more generally.50DSMF ¶¶ 45-48; PRDSMF
listener—i.e. that Detectives Perkins and Fowler were told information by one of Brittany Irish’s best friends that cast doubts on
her credibility. DRPSAMF ¶ 41.
The Court agrees with the Individual Ofﬁcers that this statement is admissible, but not for its truth, and overrules the Plaintiffs’ objection. Whether Detective Perkins and Fowler had a
legitimate basis to conclude that Brittany Irish was not being
honest with them is relevant to the reasonableness of their continued investigation. See Morgan v. Mass. Gen. Hosp., 901 F.2d
186, 191 (1st Cir. 1990) (stating that an afﬁdavit from a supervisor regarding statements he received during the investigation of
his employee was admissible to demonstrate investigative steps
taken and information received during the investigation).
49
The Plaintiffs object to paragraphs 42 through 44 of the
DSMF as irrelevant and double hearsay. PRDSMF ¶¶ 42-44. The
Court overrules this objection for the reasons in footnote 48, supra.
50
The Plaintiffs object to paragraphs 46 through 48 of the
DSMF as irrelevant and double hearsay. PRDSMF ¶¶ 46-48. The
Court overrules this objection for the reasons in footnote 48, supra. Information from Brittany Irish’s boyfriend is at least as
relevant as information from her best friend for its effect on Detectives Perkin and Fowler and their determination of her credibility.

App. 62
¶¶ 45-48. She also told Detectives Perkins and Fowler
that the reason Brittany Irish did not want to give up
her clothing was that she was of limited ﬁnancial
means. PSAMF ¶ 180; DRPSAMF ¶ 180.
At 4:00 p.m., Ms. Adams intercepted Detective
Perkins while he went to check whether Brittany Irish
had ﬁnished her written statement and told him that
Brittany Irish’s statement was different from the narrative she had given to the detectives, Ms. Adams, and
the hospital nurse the previous day.51 DSMF ¶ 49;
PRDSMF ¶ 49. Brittany Irish completed her ten-page
written statement shortly thereafter.52 DSMF ¶ 50;
PRDSMF ¶ 50. Prior to 4:24 p.m., Detectives Perkins
and Fowler reviewed Brittany Irish’s statement.53
51

The Plaintiffs object to paragraph 49 of the DSMF as irrelevant and double hearsay. PRDSMF ¶ 49. The Court overrules
this objection for the reasons in footnote 48, supra.
The Plaintiffs also deny this statement on the grounds that
Brittany Irish testiﬁed that Ms. Adams was not present when she
wrote her statement, and thus could not have known whether
the statement was different. PRDSMF ¶ 49. The Court agrees
with the Individual Ofﬁcers that this statement is not used to
show Brittany Irish’s statement was different, but to show that
Ms. Adams said this to Detective Perkins. DRPSAMF ¶ 49. The
Court included the statement.
52
The Plaintiffs’ attempt to qualify paragraph 50 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 50, and as in footnote 34, supra, the Court
rejects it.
53
There is some dispute regarding when Detectives Perkins
and Fowler reviewed Brittany Irish’s statement, compare PSAMF
¶ 181, with DRPSAMF ¶ 181; however, the record makes clear
that Detectives Perkins and Fowler must have completed their
review of the statement prior to interviewing Brittany Irish,

App. 63
DSMF ¶ 52; PRDSMF ¶ 52; PSAMF ¶ 181; DRPSAMF
¶ 181.
In her written statement, Brittany Irish attempted
to include all the details she considered important that
she could remember.54 DSMF ¶ 51; PRDSMF ¶ 51. She
did not refer in the written statement to threats by Mr.
Lord to hurt her or her children in the speciﬁc event
that she went to the police.55 DSMF ¶ 53; PRDSMF
¶ 53. Detective Fowler acknowledged reading the portion of Brittany Irish’s statement wherein she wrote
that Mr. Lord threatened to “cut her from ear to ear,”
as well as the portion where she wrote that Mr. Lord
had threatened to hurt or torture Kyle Hewitt. PSAMF
¶¶ 182, 184; DRPSAMF ¶¶ 182, 184. Brittany Irish’s
statement also referred to Mr. Lord mentioning
which they began to do at 4:24 p.m. DSMF ¶ 54; PRDSMF ¶ 54.
The Court alters paragraph 181 of the PSAMF to reﬂect that Detectives Perkins and Fowler’s review ended prior to 4:24 p.m.
The Plaintiffs’ denial of paragraph 52 of the DSMF is argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 52, and as in footnote 34, supra, the Court rejects it.
54
The Plaintiffs’ attempt to qualify paragraph 51 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 51, and as in footnote 34, supra, the Court
rejects it.
55
The Plaintiffs’ denial of paragraph 53 of the DSMF is argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 53, and as in footnote 34, supra, the Court rejects it;
however, the Court altered this statement to clarify that it refers
only to threats made about Brittany Irish communicating with
the police, and not threats more generally, as the record establishes that Brittany Irish’s statement did contain threats of violence from Mr. Lord. See PSAMF ¶¶ 182-84; DRPSAMF ¶¶ 18284.

App. 64
Brittany Irish’s children in the context of a threat to
Mr. Hewitt. PSAMF ¶ 184; DRPSAMF ¶ 184. After
reading Brittany Irish’s statement, Detectives Perkins
and Fowler did not attempt to obtain information relating to Mr. Lord’s criminal record or probation status,
and Detective Perkins did not attempt to ascertain
whether Mr. Lord was a felon or what risk he posed to
Brittany Irish for recidivism.56 PSAMF ¶¶ 184-85;
DRPSAMF ¶¶ 184-85.
Detectives Perkins and Fowler began a recorded
interview of Brittany Irish at 4:24 p.m. on July 16,
2015. DSMF ¶ 54; PRDSMF ¶ 54. During the ﬁrst
three minutes of the interview, Detective Perkins told
Brittany Irish that he needed to obtain a statement
from Mr. Lord and that his goal was to get such a
statement that evening.57 DSMF ¶ 55; PRDSMF ¶ 55.
Brittany Irish told Detective Perkins that she could
get Mr. Lord to meet her somewhere if someone was
with her, but Detective Perkins rejected this offer.58
56

The Individual Ofﬁcers qualify paragraph 185 of the
PSAMF by pointing out that the “retaliatory threat” referenced
by the Plaintiffs referred to a threat Mr. Lord made about what
would happen if Brittany Irish lied to him. DRPSAMF ¶ 185. The
Court believes this is clear from the context already provided by
the Court in footnote 17, supra.
57
The Plaintiffs’ attempt to qualify paragraph 55 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 55, and as in footnote 34, supra, the Court
rejects it.
58
The Plaintiffs’ attempt to qualify paragraph 57 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 57, and as in footnote 34, supra, the Court
rejects it.

App. 65
DSMF ¶¶ 56-57; PRDSMF ¶¶ 56-57. When informed
by Detective Perkins that he was planning on calling
Mr. Lord’s cellphone, Brittany Irish only expressed the
concern that Mr. Lord might not answer and did not
state that he had threatened her specifically if she went
to the police.59 DMSF ¶ 58; PRDSMF ¶ 58. Brittany
Irish provided Detective Perkins with Mr. Lord’s cellphone number at his request.60 DSMF ¶ 59; PRDSMF
¶ 59. The interview concluded at 5:00 p.m., Detective
Perkins and Fowler informed Brittany Irish that they
would call Mr. Lord later that evening, and she left the
MSP ofﬁce shortly after that.61 DSMF ¶ 60; PRDSMF
¶ 60; PSAMF ¶ 188; DRPSAMF ¶ 188. When she left
the MSP ofﬁcers, she understood that Detective Perkins would be calling Mr. Lord on his cellphone later

59

The Plaintiffs’ denial of paragraph 58 of the DSMF is argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 58, and as in footnote 34, supra, the Court rejects it.
60
The Court alters paragraph 59 of the DSMF to reﬂect the
Plaintiffs’ qualiﬁcation that Brittany Irish provided Mr. Lord’s
cellphone number at Detective Perkins’ request. See Dep. of Brittany Irish at 201:17-25; PRDSMF ¶ 59.
61
The Plaintiffs’ denial of paragraph 60 of the DSMF is argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 60, and as in footnote 34, supra, the Court rejects it.
The Court grants the Individual Ofﬁcers’ request to strike
the statement that Brittany Irish was “left alone at her residence,” DRPSAMF ¶ 188, as unsupported by the record; the interview was conducted at the MSP ofﬁces, and Brittany Irish left
those ofﬁces. See Dep. Of Brittany Irish at 198:5-16. Therefore,
she could not have been left alone at her residence because she
was not at her residence at the conclusion of the interview.

App. 66
that evening.62 DSMF ¶ 61; PRDSMF ¶ 61. While she
was at the MSP ofﬁce, Brittany Irish did not express
concern about Detective Perkins and Fowler contacting Mr. Lord or request that they not do so.63 DSMF
¶ 62; PRDSMF ¶ 62. During this time, Brittany Irish
also did not say anything to Detectives Perkins and
Fowler about Mr. Lord having threatened to hurt her
or her children if she went to the police.64 DSMF ¶ 63;
PRDSMF ¶ 63.
G. Micah Perkins’ Voicemail Message to
Anthony Lord
Prior to Detective Perkins’ call to Mr. Lord on July
16, 2015, Detective Fowler did not run a background
check to determine Mr. Lord’s prior criminal history or
probation status, though he later testiﬁed that at some
62

The Court alters paragraph 61 of the DSMF to reﬂect the
Plaintiffs’ denial, which points out that Brittany Irish only knew
that Detective Perkins would be calling Mr. Lord later that evening. PRDSMF ¶ 61.
63
The Plaintiffs’ denial of paragraph 62 of the DSMF is argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 62, and as in footnote 34, supra, the Court rejects it.
Additionally, the Plaintiffs’ denial based on what the Plaintiffs
assert is a prior statement by Brittany Irish to Detectives Perkins
and Fowler, PRDSMF ¶ 62, does not contradict paragraph 62 of
the DSMF.
64
The Plaintiffs’ attempt to qualify paragraph 63 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 63, and as in footnote 34, supra, the Court
rejects it. The Plaintiffs’ claim that Brittany Irish communicated
this information to the detectives the day prior and at a different
location, PRDSMF ¶ 63, does not contradict the Individual Ofﬁcers’ statement, which has record support.

App. 67
point it becomes important to conduct a background
check on a potential suspect.65 PSAMF ¶¶ 186, 190,
192; DRPSAMF ¶¶ 186, 190, 192. Detective Perkins, on
the other hand, later testiﬁed that he did not see this
as important information for the purposes of protecting a victim. PSAMF ¶ 191; DRPSAMF ¶ 191.
At 6:17 p.m. on July 16, 2015, Detective Perkins
placed a recorded telephone call to Mr. Lord’s cellphone.66 DSMF ¶ 64; PRDSMF ¶ 64; PSAMF ¶ 189;
DRPSAMF ¶ 189. Mr. Lord did not answer his phone,
so Detective Perkins left the following voicemail message:
Hello, Anthony. This is Detective Perkins. I’m
giving you a call here from the Maine State
Police. I’m looking to see if there’s a time that
we could speak with you. Phone number you
can call us back—the dispatch—is 973-3700.
973-3700. I’ll be right here. Just let them
know Detective Perkins if you don’t mind

65

The Court alters paragraph 186 of the PSAMF to reﬂect
that it was Detective Perkins who called Mr. Lord, not Detective
Fowler. DRPSAMF ¶ 186.
The Court alters paragraph 192 of the PSAMF to reﬂect that
Detective Fowler said background criminal information is important to know at some point in an investigation but did not
make the more general statement asserted by the Plaintiffs.
DRPSAMF ¶ 192.
66
The Plaintiffs’ attempt to qualify paragraph 64 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 64, and as in footnote 34, supra, the Court
rejects it.

App. 68
calling back and I will try you back in a few
moments. Thank you. Goodbye.67
DSMF ¶ 65; PRDSMF ¶ 65. Mr. Lord never returned
Detective Perkins’ phone call; however, when Detective
Perkins interviewed Mr. Lord after his arrest, on July
17, 2015, Mr. Lord stated that he believed the voicemail message was related to the death of his son.68

67

The Plaintiffs’ attempt to qualify paragraph 65 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 65, and as in footnote 34, supra, the Court
rejects it.
68
The Individual Ofﬁcers agree with the Plaintiffs that paragraph 66 of the DMSF should be stricken, and the Court accedes
to this request.
The Plaintiffs’ attempt to qualify paragraph 67 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 67, and as in footnote 34, supra, the Court rejects it.
The Plaintiffs object to paragraph 68 of the DSMF as hearsay, requesting that it be stricken “since the [Individual Ofﬁcers]
have not produced an afﬁdavit nor any testimony of Anthony
Lord.” PRDSMF ¶ 68. If the Court ﬁnds this statement admissible, the Plaintiffs deny it. PRDSMF ¶ 68. The Individual Ofﬁcers
respond that “[a]lthough B[rittany] Irish was permitted to amend
her response to Request for Admission No. 27, she admits in her
amended response that Lord told detectives in an interview that
Lord stated that he thought the message from Perkins related to
the death of his son,” and therefore there is “no basis for objecting
to or denying this fact.” DRPSAMF ¶ 68.
The Individual Ofﬁcers are correct that the Plaintiffs stipulated to this fact. See Order on Mot. to Amend Pls.’ Resp. to Request for Admission at 3, 15 (ECF No. 86). Given that the
Plaintiffs in fact speciﬁcally moved to alter their admission to this
fact and their motion was granted, id. at 1, the Court sees no reason to disturb this stipulation. The Court does alter the statement

App. 69
DSMF ¶¶ 67-68; PRDSMF ¶¶ 67-68. Detective Perkins
later testiﬁed that he agreed that if a suspect committed a rape and then received a call from the MSP the
next day, it would be logical for them to connect the
dots between those two events. PSAMF ¶ 193; DSMF
¶ 193.
Thomas Pickering, a detective with the MSP, was
one of the detectives investigating the death of Larry
Earl Lord, who died at the age of six months on May 7,
2015. DSMF ¶¶ 69-70; PRDSMF ¶¶ 69-70. On either
May 6 or 7, Detective Pickering met Mr. Lord, who was
Larry Lord’s father, at Eastern Maine Medical Center
and gave him his business card, on which Detective
Pickering wrote his cellphone number.69 DSMF ¶ 71;
PRDSMF ¶ 71.
At 6:37 p.m., approximately twenty minutes after
receiving a voicemail message from Detective Perkins,
Mr. Lord called Detective Pickering at the cellphone
to more accurately reﬂect the text of the Plaintiffs’ admission by
omitting reference to Detective Pickering. See id. at 3.
The Court also notes that the Plaintiffs specifically do not
admit that Mr. Lord believed his statement to Detective Perkins
was true. Id. As Plaintiffs are the non-movants on this motion for
summary judgment, the Court draws the inference that Mr. Lord
was lying to Detective Perkins when he made this statement and
that whether he knew immediately that the call was related to
his kidnapping and rape of Brittany Irish, he did at least know
before he began his spree of violence.
69
The Court draws from the fact that Mr. Lord had Detective
Pickering’s cellphone number the inference that Mr. Lord knew
Detective Pickering’s cellphone number was different from the
number of the call that he received from Detective Perkins.

App. 70
number Detective Pickering gave him, but Detective
Pickering did not answer.70 DSMF ¶ 72; PRDSMF ¶ 72.
Detective Pickering returned Mr. Lord’s call at 6:44
p.m., but Mr. Lord did not answer.71 DSMF ¶ 73;
PRDSMF ¶ 73. Sergeant Crane later testiﬁed that he
was not advised of the voicemail until approximately
9:30 p.m. that night. PSAMF ¶ 195; DRPSAMF ¶ 195.
At the time Detective Perkins contacted Mr. Lord,
Detectives Perkins and Fowler had not completed
gathering evidence at the ﬁrst Benedicta camp, considered the 4:30 p.m. discovery of a smashed door at the
second camp, received the results of the ﬁngerprint
analysis from the ﬁrst camp which would show that
both ﬁngerprints belonged to Mr. Lord, or received information from the hospital and lab regarding analysis
of Brittany Irish and her clothes.72 PSAMF ¶¶ 278-79;

70

The Plaintiffs’ attempt to qualify paragraph 72 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 72, and as in footnote 34, supra, the Court
rejects it.
71
The Plaintiffs’ attempt to qualify paragraph 73 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 73, and as in footnote 34, supra, the Court
rejects it.
72
Paragraph 187 of the PSAMF reads: “The sole basis of
leaving the voicemail with Lord was not safety of the victim but
‘efﬁcien[cy],’ but efﬁciency is not an appropriate factor to consider
when and how to contact a suspect.” PSAMF ¶ 187 (alteration in
original). The Individual Ofﬁcers request that this statement be
stricken because it is not supported by the provided record citation. DRPSAMF ¶ 187. The Court reviewed the cited portions of
the record and strikes this paragraph for the reasons given by the
Individual Ofﬁcers.

App. 71
DRPSAMF ¶¶ 278-79. Detectives Perkins and Fowler
also had not conducted an Ontario Domestic Assault
Risk Assessment (ODARA) of Mr. Lord.73 PSAMF
¶ 281; DRPSAMF ¶ 281. Detectives Perkins and
Fowler had other options available to them at the time
Detective Perkins left a voicemail message for Mr.
Lord, such as developing a physical presence around
him or conducting a pretextual phone call.74 PSAMF
The Plaintiffs state that the ﬁngerprint analysis “would conﬁrm the suspected breaking and entering crime at the ﬁrst camp.”
PSAMF ¶ 279. The Individual Ofﬁcers request that this statement be stricken because it is “not supported by the cited-to portion of the record.” DRPSAMF ¶ 279. The Court reviewed the
cited portion of the record and strikes this paragraph for the reason given by the Individual Ofﬁcers.
73
The Individual Ofﬁcers attempt to qualify paragraph 281
of the PSAMF by stating that the cited portions of the record do
not support the Plaintiffs’ implication that there is “any other
MSP tool to ascertain Lord’s propensity for future violence or recidivism.” DRPSAMF ¶ 281. The Court reviewed the cited portions of the record and agrees with the Individual Ofﬁcers. The
Court altered the statement to reﬂect this lack of record support.
The Individual Ofﬁcers’ attempt to further qualify paragraph
281 of the PSAMF by pointing to Detective Perkins’ testimony
regarding when an ODARA analysis is done, DRPSAMF ¶ 281, is
argument outside the scope of the facts asserted in the statement,
PSAMF ¶ 281, and as in footnote 34, supra, the Court rejects it.
74
The Individual Ofﬁcers attempt to qualify paragraph 287
of the PSAMF by stating that the cited portion of the record only
shows that “Perkins and Fowler ‘possibly’ could have done other
things and it was a ‘possibility’ that they could have developed a
physical presence around Lord.” DRPSAMF ¶ 287. The Court rejects this qualiﬁcation. First, one line before the cited portion of
Deputy Chief John P. Cote’s deposition noticed pursuant to Federal Rule of Civil Procedure 30(b)(6) on behalf of the MSP, Cote
states that Perkins and Fowler “had many options available to
them,” PSAMF, Attach. 16 at 41:09 (Dep. of Cote), which closely

App. 72
¶ 287; DRPSAMF ¶ 287. A pretext phone call is a call
in which the MSP has a victim make contact with a
suspect.75 PSAMF ¶ 288; DRPSAMF ¶ 288. Another
option available to Detectives Perkins and Fowler was
pretending to be the victim and asking to meet with
the suspect.76 PSAMF ¶ 289; DRPSAMF ¶ 289.
tracks the text of the Plaintiffs’ statement. See PSAMF ¶ 287.
Second, the Court does not see an inconsistency between Deputy
Chief Cote’s statement that developing a physical presence
around Lord “was a possibility,” Dep. of Cote at 41:13-15, and the
Plaintiffs’ statement that developing a physical presence around
Mr. Lord was an option. See PSAMF ¶ 287.
75
The Court alters paragraph 288 of the PSAMF to reﬂect
the qualiﬁcation offered by the Individual Ofﬁcers. DRPSAMF
¶ 288 (qualifying the portion of the statement referring to Deputy
Chief Cote conﬁrming himself ).
76
The Individual Ofﬁcers attempt to qualify paragraph 289
of the PSAMF by stating that “Cote did not testify that pretending
to be the victim is a more traditional method than leaving a voice
mail. Rather, he apparently testiﬁed that it was more traditional
than asking a victim to make a pretextual phone call.” DRPSAMF
¶ 289. The Court reviewed the cited portion of Deputy Chief
Cote’s deposition, as well as the surrounding context, and disagrees with the proffered interpretations of both the Plaintiffs and
the Individual Ofﬁcers. Deputy Chief Cote’s statement, that pretending to be a victim “would be a much more traditional method
that we use,” Dep. of Cote at 36:06-13, refers back to his earlier
conversation with the Plaintiffs’ counsel in which he states that
the MSP likely would not allow a victim “to meet with the perpetrator provided that there was police nearby. . . .” Id. at 34:18-24.
Deputy Chief Cote goes on to say “[w]e have other ways that we
would do that with like pretext phone call,” and then, after a discussion of pretext phone calls, lays out the second option of pretending to be a victim. Id. at 34:25-36:13. Based on this context,
the Court concludes that the comparative in Deputy Chief Cote’s
statement that pretending to be a victim is a “more traditional
method” refers neither to leaving a voicemail nor to a pretext

App. 73
John Paul Cote, the MSP’s 30(b)(6) designee and
Deputy Chief of the MSP, later testiﬁed that the MSP
does not know why none of these other contact procedures was attempted by Perkins or Fowler. PSAMF
¶ 290; DRPSAMF ¶ 290. Sergeant Crane agreed with
Deputy Chief Cote in his later testimony that there are
three other options MSP ofﬁcers can use to make contact with suspects: (1) ﬁnd the person ﬁrst, before the
suspect is notiﬁed of any allegation against them; (2)
have the victim make a pretext phone call to the suspect in an effort to elicit a confession; and (3) use the
victim’s phone and pretend to be the victim. PSAMF
¶ 291; DRPSAMF ¶ 291. Sergeant Crane also stated
that if there is a real risk of violence in the event of
making a phone call to a suspect, one would take that
into consideration when planning how to ﬁnd the suspect, and he did not know why any of these alternatives were not used in Mr. Lord’s case. PSAMF ¶¶ 29293; DRPSAMF ¶¶ 292-93. Detectives Perkins and
Fowler both testiﬁed that the best time to contact a
suspect is at the end of an investigation with all the
facts in order. PSAMF ¶¶ 276-77; DRPSAMF ¶¶ 27677.
H. Brittany Irish’s Return to MSP
At 6:30 p.m. on July 16, 2015, Brittany Irish returned to the MSP to give Detectives Perkins and
phone call, but rather to allowing a victim to meet with the perpetrator in the presence of police. The Court alters paragraph 289
of the PSAMF to more accurately reﬂect the record.

App. 74
Fowler the clothes she had been wearing at the time
she was sexually assaulted.77 DSMF ¶ 74; PRDSMF
¶ 74. Brittany Irish met Detective Fowler in the MSP
parking lot and reiterated that she was afraid Mr. Lord
would hurt her if he knew she had gone to the police.78
DSMF ¶ 75; PRDSMF ¶ 75; PSAMF ¶ 196; DRPSAMF
¶ 196. Sergeant Crane later testiﬁed that Detectives
Perkins and Fowler did not tell him that Brittany Irish
had informed them that Mr. Lord had threatened her
and her children with violence if she reported her
77

Paragraph 74 of the DSMF refers to Mr. Lord’s assault of
Brittany Irish as “alleged.” DSMF ¶ 74. As discussed in footnote
13, supra, the Court takes Brittany Irish’s allegations of sexual
assault as true for the purpose of resolving this motion for summary judgment and alters paragraph 74 accordingly.
The Plaintiffs’ attempt to qualify paragraph 74 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 74, and as in footnote 34, supra, the Court rejects it.
78
The Individual Ofﬁcers request that the Court strike a portion of paragraph 196 of the PSAMF which states that Brittany
Irish “was told a casual voicemail had already been left with
Lord,” PSAMF ¶ 196, due to a lack of record support. DRPSAMF
¶ 196. The Court agrees and strikes this portion of paragraph
196.
The Individual Ofﬁcers also request that the Court strike a
portion of paragraph 196 of the PSAMF which states that “Brittany Irish was ‘reiterating’ her fear of retaliation. . . .” DRPSAMF
¶ 196. The Court addressed this issue at footnote 30, supra, and
applies the same logic here. Because the Court infers, for purposes of resolving this summary judgment motion, that Brittany
Irish did indeed report her fears of retaliation to Detectives Perkins and Fowler prior to the meeting described in paragraph 196
of the PSAMF, the Court denies the Individual Ofﬁcers’ request
to strike. For this reason, the Court also strikes paragraph 76 of
the DSMF.

App. 75
abduction and rapes. PSAMF ¶ 197; DRPSAMF ¶ 197.
Detectives Perkins and Fowler did not take further
action to protect Brittany Irish based on the threat
of retaliation from Mr. Lord.79 PSAMF ¶¶ 198-99;
DRPSAMF ¶ 198-99.
While Brittany Irish waited in her car, Dep. of Brittany Irish at 270:07-22, Detectives Perkins and Fowler
conducted a recorded interview of Mr. Hewitt in the
MSP ofﬁces beginning at approximately 6:45 p.m.80
DSMF ¶ 77; PRDSMF ¶ 77; PSAMF ¶ 200; DRPSAMF
¶ 200. During this interview, Detectives Perkins and
Fowler reviewed texts from Brittany Irish to Mr.
79

The Individual Ofﬁcers request that the Court strike paragraphs 198 and 199 of the PSAMF as not supported by the cited
portions of the record. DRPSAMF ¶¶ 198-99. The Court reviewed
those portions of the record and agrees they do not provide support for paragraphs 198 and 199 of the PSAMF. However, the
Court also reviewed the statements of fact submitted by both parties and ﬁnds that the record as a whole supports an inference
that the Individual Ofﬁcers did not take any action based on what
Brittany Irish told them about Mr. Lord’s threats to her, and nowhere in the DSMF or DRPSAMF do the Individual Ofﬁcers offer
any statement which rebuts this inference. The Court alters paragraphs 198 and 199 of the PSAMF to more accurately reﬂect the
record.
80
The Individual Ofﬁcers request that the Court strike a portion of paragraph 200 of the PSAMF which states that Detectives
Perkins and Fowler conducted interviews “in which they sought
information about Brittany Irish’s credibility,” PSAMF ¶ 200, due
to a lack of record support. DRPSAMF ¶ 200. The Court agrees
and strikes this portion of paragraph 200.
The Plaintiffs’ attempt to qualify paragraph 77 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 77, and as in footnote 34, supra, the Court rejects it.

App. 76
Hewitt that said “not safe”; “call police?”; “not safe”;
and “don’t text back.” PSAMF ¶ 201; DRPSAMF ¶ 201.
Mr. Hewitt told them that while he and Brittany Irish
were together, Brittany Irish had lied to him about her
relationship with Mr. Lord.81 DSMF ¶ 78; PRDSMF
¶ 78; DRPSAMF ¶ 78.
At 7:28 p.m., after concluding their interview of
Mr. Hewitt, Detectives Perkins and Fowler began an
interview of Kimberly Shahan, who was at the time
one of Brittany Irish’s best friends.82 DSMF ¶¶ 79-80;
81

The Plaintiffs object to paragraph 78 of the DSMF as inadmissible because it is irrelevant and hearsay and request that the
Court strike it. PRDSMF ¶ 78. The Individual Ofﬁcers argue that
this statement is being offered for its effect on Detectives Perkins
and Fowler, and that it is relevant because it reﬂects on the reasonableness of the investigative steps they took. DRPSAMF ¶ 78.
As in footnote 48, supra, the Court agrees with the Individual
Ofﬁcers and overrules the objection. The Court also views this as
a party-opponent statement, admissible under Federal Rule of
Evidence 801(d)(2)(A).
82
The Individual Ofﬁcers request that the Court strike the
reference to Kimberly Shahan as a “non-substantive witness” in
paragraph 202 of the PSAMF, PSAMF ¶ 202, as not supported by
the cited portion of the record. DRPSAMF ¶ 202. The Court reviewed the cited portion of the record and strikes this portion of
paragraph 202 of the PSAMF.
The Plaintiffs’ attempt to qualify paragraph 79 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 79, and as in footnote 34, supra, the Court rejects it.
The Plaintiffs object to paragraph 80 of the DSMF as inadmissible because it is irrelevant and request that the Court strike
it. PRDSMF ¶ 80. The Individual Ofﬁcers argue that this statement provides relevant context for the information Perkins and
Fowler gleaned from their interview of Ms. Shahan. DRPSAMF

App. 77
PRDSMF ¶¶ 79-80; PSAMF ¶ 202; DRPSAMF ¶ 202.
Ms. Shahan told Detectives Perkins and Fowler that it
would not be unusual for Brittany Irish to take off for
a night with Mr. Lord and expressed skepticism about
whether Brittany Irish was being truthful about her
sexual assault allegations, saying that “there were so
many things that aren’t adding up.”83 DSMF ¶ 81;
PRDSMF ¶ 81.
I.

The Benedicta Barn Fire

At 8:05 p.m. on July 16, 2015, Detective Perkins
received a telephone call from an MSP detective advising him that a barn was on ﬁre in Benedicta, which
Detective Fowler later testiﬁed that he saw as “possible suspicious.”84 DSMF ¶ 82; PRDSMF ¶ 82; PSAMF
¶ 80. As in footnote 48, supra, the Court agrees with the Individual Ofﬁcers and overrules the objection.
83
The Plaintiffs object to paragraph 81 of the DSMF as inadmissible hearsay and request that the Court strike it. PRDSMF
¶ 81. The Individual Ofﬁcers argue that this statement is being
offered for its effect on Detectives Perkins and Fowler. DRPSAMF
¶ 81. As in footnote 48, supra, the Court agrees with the Individual Ofﬁcers and overrules the objection.
84
The Plaintiffs’ attempt to deny paragraph 82 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 82, and as in footnote 34, supra, the Court rejects it.
The Individual Ofﬁcers attempt to qualify paragraph 203 of
the PSAMF by pointing out that Detective Fowler testiﬁed only
that the ﬁre was “possible suspicious,” but did not explicitly tie
this suspicion to Mr. Lord. DRPSAMF ¶ 203. The Court reviewed
the cited portion of the record and agrees with the Individual Ofﬁcers. The Court alters paragraph 203 of the PSAMF to more accurately reﬂect the record; however, the Court ﬁnds it implausible

App. 78
¶ 203; DRPSAMF ¶ 203. Detective Perkins was “concerned” enough as of this time that Mr. Lord was involved and might have lit the ﬁre that he and Detective
Fowler began driving to Benedicta from Bangor.85
DSMF ¶ 83; PRDSMF ¶ 83; PSAMF ¶ 204; DRPSAMF
¶ 204. At approximately 8:30 p.m., Brittany Irish’s father called to tell her that the barn at her mother Kimberly Irish’s house in Benedicta was on ﬁre, and shortly
after that call Brittany Irish began driving with Mr.
Hewitt from Bangor to her mother’s house in Benedicta. DSMF ¶¶ 84-85; PRDSMF ¶¶ 84-85.
At 9:10 p.m., while still driving with Detective
Fowler to Benedicta, Detective Perkins called Sergeant
Crane to tell him about the barn ﬁre, which Detective
Perkins thought was a signiﬁcant development in Brittany Irish’s case. PSAMF ¶ 205; DRPSAMF ¶ 205.
While en route, Detective Perkins also received a call
from the Benedicta ﬁre chief, who said that the ﬁre was
suspicious; at this point, Detective Perkins thought
that the human element of the ﬁre might be Mr. Lord.
PSAMF ¶ 206; DRPSAMF ¶ 206.

based on the totality of the record and Detective Fowler’s deposition testimony, Dep. of Fowler at 37:05-38:20, that Detective
Fowler did not make a connection between the ﬁre and Mr. Lord
at the time he heard of it, whether or not the connection was a
ﬁrm one, and the Court infers that he did.
85
The Plaintiffs’ attempt to qualify paragraph 83 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 83, and as in footnote 34, supra, the Court
rejects it.

App. 79
At 9:24 p.m., Brittany Irish called Detectives
Perkins and Fowler to inform them that: (1) it was
her parents’ barn that was on ﬁre and (2) that someone had heard Mr. Lord leave his uncle’s house that
evening saying “I am going to kill a fucker.”86 DSMF
¶ 86; PRDSMF ¶ 86; PSAMF ¶¶ 207, 212; DRPSAMF
¶¶ 207, 212. She also told Detectives Perkins and
Fowler that she was going to stay at her parents’ home
and that she was worried about her children’s safety;
Detective Perkins told her that he would be at her
parents’ home as well.87 PSAMF ¶¶ 207, 209-10;
DRPSAMF ¶¶ 207, 209-10. Brittany Irish’s call was exactly what Detective Perkins was worried about, and
in fact, Detectives Perkins and Fowler later acted on
some of Brittany Irish’s concerns by requesting a
safety check be performed on her children at 11:09 p.m.
on July 16, 2019. PSAMF ¶¶ 208, 211; DRPSAMF
¶¶ 208, 211.
Kimberly Irish knew R.J. Hartt, the man who reported Mr. Lord’s threat that he was “going to kill a
86

The Plaintiffs’ attempt to qualify paragraph 86 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 86, and as in footnote 34, supra, the Court
rejects it.
87
The Individual Ofﬁcers attempt to qualify paragraph 209
of the DSMF by stating that Detective Perkins testiﬁed that he
was “going to be going [to Brittany Irish’s parents’ home] as well.”
DRPSAMF ¶ 209 (some alterations in original). The Court does
not understand the distinction the Individual Ofﬁcers are making, as both wordings make clear that Detective Perkins would be
at Brittany Irish’s parents’ home at some future point while leaving open when he would be leaving. Therefore, the Court rejects
the qualiﬁcation.

App. 80
fucker,” and Mr. Hartt visited her at her home after
the barn was found burning to tell her what Mr. Lord
had said.88 PSAMF ¶ 333; DRPSAMF ¶ 333. Sergeant
Crane later described the rumor that Mr. Lord said he
was “going to kill a fucker” as a “threat of violence.”
PSAMF ¶ 213; DRPSAMF ¶ 213. Detective Perkins
also later agreed that this threat was concerning based
on what he knew of the barn ﬁre and the other threats
he knew Mr. Lord had made about torturing and injuring Mr. Hewitt and attacking Brittany Irish. PSAMF
¶ 214; DSMF ¶ 214.
During a call between Detective Perkins and Sergeant Crane at approximately 9:30 p.m., Detective
Perkins did not tell Sergeant Crane any of the information he had just been given by Brittany Irish, and
he did not tell Sergeant Crane about Mr. Lord’s most
recent threat that he was “going to kill a fucker” until

88

The Individual Ofﬁcers attempt to qualify paragraph 333
of the PSAMF by pointing out that Mr. Hartt did not go to the
Irish house until after the barn was found burning. DRPSAMF
¶ 333. The Court reviewed the cited portion of the record and,
though it does not see a contradiction between the Plaintiffs’
statement and the Individual Ofﬁcers’ clariﬁcation, the Court alters paragraph 333 of the PSAMF to be more speciﬁc.
Paragraph 325 of the PSAMF states that the Individual Ofﬁcers had the name of the person who heard Lord’s threat and the
location of the bar he heard it in but did not attempt to contact or
ﬁnd the person or the bar. PSAMF ¶ 325. The Individual Ofﬁcers
request that the Court strike paragraph 325 of the PSAMF as not
supported by the cited portion of the record. DRPSAMF ¶ 325.
The Court reviewed the cited portion of the record, agrees with
the Individual Ofﬁcers, and strikes paragraph 325 of the PSAMF.

App. 81
10:12 p.m.89 PSAMF ¶¶ 215-16; DRPSAMF ¶¶ 215-16.
During his 9:30 p.m. call with Sergeant Crane, Detective Perkins told Sergeant Crane for the ﬁrst time that
he and Detective Fowler had left Mr. Lord a voicemail
three hours earlier. PSAMF ¶ 218; DRPSAMF ¶ 218.
Also at approximately 9:30 p.m., Sergeant Crane called
an assistant district attorney and briefed him on some
of the information Detectives Perkins and Fowler had
gathered while investigating Brittany Irish’s allegations—though he may have excluded some relevant details—as well as the fact that Mr. Lord might be a
suspect in the barn ﬁre.90 DSMF ¶ 87; PRDSMF ¶ 87.
89

In paragraph 217 of the PSAMF, the Plaintiffs say that
Sergeant Crane contradicted Detective Perkins by testifying that
Detective Perkins did advise Sergeant Crane of Mr. Lord’s threat
at 9:30 p.m. PSAMF ¶ 217. The Individual Ofﬁcers request that
the Court strike this statement, as the record does not support it.
DRPSAMF ¶ 217. Sergeant Crane’s testimony was that he could
not remember whether Perkins communicated this threat to him
during the 9:30 p.m. phone call or after the call, Dep. of Crane at
24:07-18, which does not contradict Detective Perkins’ testimony.
The Court strikes paragraph 217 of the PSAMF in favor of the
other timeline offered by the Plaintiffs at paragraphs 215 and 216
of the PSAMF.
90
The Plaintiffs deny paragraph 87 of the DSMF, listing several pieces of information that the Plaintiffs say Sergeant Crane
did not give the assistant district attorney. PRDSMF ¶ 87. This
denial is argument outside the scope of the facts asserted in the
statement, DSMF ¶ 87, and as in footnote 34, supra, the Court
rejects it. However, the Court alters paragraph 87 of the DSMF
to make clear that it is unknown exactly what information Sergeant Crane gave to the assistant district attorney, and that he
may have left out some pertinent details.
The Plaintiffs also object to paragraph 88 of the DSMF,
PRDSMF ¶ 88, which states that “[t]he Assistant District Attorney told Crane that there was not probable cause to arrest Lord

App. 82
As an example of excluded details, there is no evidence
in the record that Sergeant Crane told the assistant
with respect to the kidnapping and sexual assault and that more
evidence would need to be gathered.” DSMF ¶ 88. The Plaintiffs
argue that this statement is “rank hearsay and not admissible”
and “[e]ven the identity of the declarant is unknown.” PRDSMF
¶ 88. The Individual Ofﬁcers counter that this statement is not
hearsay because “it is being offered to prove that the A.D.A. told
[Crane] that there was no probable cause,” rather than that
“there was not, in fact, probable cause. . . .” DRPSAMF ¶ 88. The
Individual Ofﬁcers quote the First Circuit’s opinion in Irish v.
Maine, in which the First Circuit stated, “[w]e do not know if the
ofﬁcers felt they had probable cause to arrest Lord but nonetheless chose only to leave the voice message and, if so, the reasons
for that decision,” 849 F.3d 521, 528 (1st Cir. 2017), arguing that
“the A.D.A.’s statement goes directly to the issue of whether [the
Individual Ofﬁcers] felt there was probable cause to arrest Lord.”
DRPSAMF ¶ 88.
The Court sustains the Plaintiffs’ objection. The Individual
Ofﬁcers’ purported rationale for introducing this statement rings
hollow in light of the fact that the assistant district attorney did
not tell Sergeant Crane that there was no probable cause to arrest
Mr. Lord for the kidnapping and assault until approximately
9:30 p.m., at least three hours after Detective Perkins left the
voicemail message for Mr. Lord. Therefore, the A.D.A.’s statement cannot have any bearing on the issue identiﬁed by the First
Circuit in the portion of its opinion quoted by the Individual Ofﬁcers. Additionally, at 10:05 p.m., Detective Perkins requested
that the Houlton Regional Communications Center issue a “stop
and hold” of Mr. Lord, DSMF ¶ 91, indicating that, at around this
time, the Individual Ofﬁcers did believe it was proper to detain
Mr. Lord in some manner and controverting the Individual Ofﬁcers’ suggestion that the A.D.A.’s statement provides insight into
their contemporaneous views of the unfolding investigation.
Given this sequence of events, it seems far more likely that the
Individual Ofﬁcers are attempting to introduce this statement for
its truth—that there was not sufﬁcient probable cause to arrest
Mr. Lord. This is improper, and the Court strikes paragraph 88
of the DSMF.

App. 83
district attorney about either of the two camps which
had been found based on Brittany Irish’s description of
the places where she had been raped and which
showed evidence of breaking and entering.91 PSAMF
¶ 230; DRPSAMF ¶ 230.
After his call with Detective Perkins, at approximately 10:00 p.m., Sergeant Crane left his residence
and began his role in the investigation, though he
did not ever go to Benedicta.92 DSMF ¶ 89; PRDSMF
¶ 89; PSAMF ¶¶ 220-21; DRPSAMF ¶¶ 220-21. Sergeant Crane instructed two MSP troopers to go to Mr.
Lord’s mother’s residence in Houlton, Maine, but they

91

The Individual Ofﬁcers attempt to qualify paragraph 230
of the PSAMF by pointing out that Detective Perkins did not testify that there was probable cause related to Mr. Lord breaking
and entering at the camp described by Brittany Irish as contained
in the Plaintiffs’ statement, but rather that there was evidence of
a breaking and entering. DRPSAMF ¶ 230. The Court reviewed
the cited portion of the record, agrees with the Individual Ofﬁcers,
and alters paragraph 230 of the PSAMF to more accurately reﬂect
the record.
92
The Plaintiffs deny paragraph 89 of the DSMF, stating
that Sergeant Crane could not have joined the search for Lord at
10:00 p.m. because “there was no search to join until 12:30 a.m.”
on July 17, 2015. PRDSMF ¶ 89. The Court reviewed the portions
of the record cited by the Plaintiffs for their denial and ﬁnds that
they do not offer support to the Plaintiffs’ position. The fact that
the Individual Ofﬁcers did not go to Lord’s uncle’s home until
12:30 a.m., PRDSMF ¶ 89, does not mean that there was no
search prior to that time. Additionally, the Plaintiffs state at paragraph 223 of the PSAMF that “the attempt to locate Lord
‘beg[a]n’ at 10:05 p.m. on July 16,” PSAMF ¶ 223, which undercuts the Plaintiffs’ denial.

App. 84
reported that no one answered the door.93 DSMF ¶ 90;
PRDSMF ¶ 90. At 10:05 p.m., Detective Perkins contacted the Houlton Regional Communications Center,
provided information regarding the vehicle Mr. Lord
was likely driving, requested that they issue a statewide teletype for a “stop and hold” of Mr. Lord, and instructed them to contact Detective Perkins if Mr. Lord
was located.94 DSMF ¶ 91; PRDSMF ¶ 91; PSAMF
¶ 222; DRPSAMF ¶ 222. Not long after, Detective Perkins added a “use caution” warning to this teletype.95
Dep. of Perkins at 48:16-25; PSAMF ¶ 223; DRPSAMF
¶ 223. This “use caution” warning meant that ofﬁcers
should use caution when pulling Mr. Lord over and
93

The Plaintiffs’ attempt to qualify paragraph 90 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 90, and as in footnote 34, supra, the Court
rejects it.
94
The Plaintiffs attempt to qualify paragraph 91 of the
DSMF by stating that Perkins may have done this at 11:00 p.m.,
but the Plaintiffs do not provide any record citation for this assertion. PRDSMF ¶ 91. Therefore, the Court rejects this aspect of the
Plaintiffs’ qualiﬁcation. The remainder of the Plaintiffs’ qualiﬁcation is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 91, and as in footnote 34, supra, the Court
rejects it.
The Individual Officers request that the Court strike the
second sentence of paragraph 222 of the PSAMF as lacking in
record support. DRPSAMF ¶ 222. The Court reviewed the cited
portion of the record, agrees with the Individual Ofﬁcers, and
strikes this sentence. The same logic applies to the second sentence of paragraph 223 of the PSAMF, which the Individual Ofﬁcers also request that the Court strike. DRPSAMF ¶ 223. The
Court strikes this sentence as well.
95
The Court sua sponte clariﬁes the ﬁrst sentence of paragraph 223 of the PSAMF to more accurately reﬂect the record.

App. 85
holding him for the sake of officer safety; Detective
Perkins believed it was necessary because he now believed Mr. Lord posed a sufﬁcient risk that armed police professionals would need this warning in order to
avoid harm. PSAMF ¶ 224; DRPSAMF ¶ 224.
After issuing this “use caution” order, Detective
Perkins called the Caribou, Maine, Police Department
and asked them to conduct safety checks on Brittany
Irish’s children. PSAMF ¶ 225; DRPSAMF ¶ 225. At
10:10 p.m. or thereabouts on July 16, Sergeant Crane
told Detective Perkins by phone that the assistant district attorney was not authorizing an arrest of Mr. Lord
at that time for the crimes of kidnapping or rape.96
DSMF ¶ 92; PRDSMF ¶ 92; PSAMF ¶ 226; DSMF
¶ 226. During this call, Detective Perkins did not inform Sergeant Crane of Mr. Lord’s criminal record, as
he and Detective Fowler still had neither requested
nor sought Mr. Lord’s criminal background. PSAMF
¶ 227; DRPSAMF ¶ 227. Detective Perkins did not
believe that Mr. Lord’s criminal history was important and had not computed an ODARA score for Mr.
Lord because of his belief that ODARA scores could
not be computed prior to an arrest.97 PSAMF ¶ 228;
96

The Plaintiffs’ attempt to qualify paragraph 92 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 92, and as in footnote 34, supra, the Court
rejects it. The Plaintiffs did not object to paragraph 92 of the
DSMF on hearsay grounds, and the Court considers this objection
waived.
97
The Individual Ofﬁcers qualify the second sentence of paragraph 228 of the PSAMF by pointing out that Detective Perkins
did not testify that an ODARA score was unimportant, but rather

App. 86
DRPSAMF ¶ 228. Detectives Perkins and Fowler also
did not pass on to Sergeant Crane the retaliatory
threat of violence made by Mr. Lord, of which they were
informed on two occasions by Brittany Irish.98 PSAMF
¶ 229; DRPSAMF ¶ 229.
Detectives Perkins and Fowler arrived at the scene
of the barn fire at 10:36 p.m. and Detective Perkins
immediately requested that a K9 unit be dispatched
to the scene to look for a track.99 DSMF ¶¶ 93-94;

that he did not compute a score for Mr. Lord because Mr. Lord
had not yet been arrested. DRPSAMF ¶ 228. The Court reviewed
the cited portions of the record, agrees with the Individual Ofﬁcers, and alters the second sentence of paragraph 228 of the
PSAMF to more accurately reﬂect the record.
98
The Individual Ofﬁcers request that the Court strike a portion of paragraph 229 of the PSAMF which states that Detectives
Perkins and Fowler did not pass on Mr. Lord’s ODARA score to
Sergeant Crane because it is not supported by the cited portion of
the record. DRPSAMF ¶ 229. The Court reviewed the cited portion of the record and agrees with the Individual Ofﬁcers that
there was no ODARA score at the time, and so Detectives Perkins
and Fowler could not have chosen not to pass it along to Sergeant
Crane. The Court strikes this portion of paragraph 229 of the
PSAMF.
The Individual Ofﬁcers also request that the Court strike a
portion of paragraph 229 of the PSAMF which states that Detectives Perkins and Fowler did not pass Mr. Lord’s retaliation
threat to Crane because Detectives Perkins and Fowler testiﬁed
that Brittany Irish never told them of this threat. DRPSAMF
¶ 229. The Court addressed this issue in footnotes 30 and 78, supra, and applies the same logic here. The Court rejects the Individual Ofﬁcers’ request to strike this portion of paragraph 229 of
the PSAMF.
99
The Plaintiffs’ attempt to qualify paragraphs 93 and 94 of
the DSMF is argument outside the scope of the facts asserted in

App. 87
PRDSMF ¶¶ 93-94; PSAMF ¶ 231; DRPSAMF ¶ 231.
When Detectives Perkins and Fowler were told the ﬁre
had a suspicious human element, Detective Perkins
“viewed the ﬁre as a potential escalation” by Mr. Lord
and believed Mr. Lord was most likely responsible
for the fire. PSAMF ¶ 232; see also PSAMF ¶ 233;
DRPSAMF ¶¶ 232-33. The barn, which had been two
stories and was close to Brittany Irish’s parents’ house,
was a total loss due to the ﬁre, and Detective Fowler
later testiﬁed that the ﬁre’s location at Brittany Irish’s
parents’ home and occurrence after Brittany Irish’s allegations of rape “absolutely” “heightened” his suspicion of Mr. Lord.100 Dep. of Fowler at 45:25-46:08;
PSAMF ¶¶ 234-35; DRPSAMF ¶¶ 234-35.
At 11:38 p.m. on July 16, Detective Perkins called
the MSP’s Regional Command Center in Houlton and
asked for a Triple I SBI of Mr. Lord, which is a full
criminal history check; from this he learned for the
ﬁrst time that Mr. Lord was on probation for domestic
violence and was a convicted felon, as well as the name
of Mr. Lord’s probation ofﬁcer. PSAMF ¶¶ 236-37, 240;
the statement, PSAMF ¶¶ 93-94, and as in footnote 34, supra, the
Court rejects it.
100
The Individual Ofﬁcers attempt to qualify paragraph 235
of the PSAMF by pointing out that Detective Fowler did not speciﬁcally testify that he was put on alert, but rather that his suspicion about Mr. Lord was heightened. DRPSAMF ¶ 235. The
Court reviewed the cited portion of the record, and while it does
not see a signiﬁcant amount of daylight between being “put on
alert” and having a “heightened” level of suspicion, it alters paragraph 235 of the PSAMF to hew more closely to Detective Fowler’s
deposition testimony.

App. 88
DRPSAMF ¶¶ 236-37, 240. At 11:49 p.m., Detective
Perkins spoke by phone with Mr. Lord’s probation ofﬁcer.101 DSMF ¶ 95; PRDSMF ¶ 95; PSAMF ¶ 238;
DRPSAMF ¶ 238. On this phone call, Detective Perkins
informed Mr. Lord’s probation ofﬁcer that a decision
had been made to arrest Mr. Lord for domestic assault.
PSAMF ¶ 241; DRPSAMF ¶ 241. Between 11:49 p.m.
and around 11:59 p.m., Mr. Lord’s probation ofﬁcer attempted to make contact with Mr. Lord, but when he
could not, he spoke again with Detective Perkins and
told Detective Perkins that Mr. Lord’s last known residency was a camper on his uncle’s property in Crystal,
Maine. DSMF ¶ 95; PRDSMF ¶ 95; PSAMF ¶ 239;
DRPSAMF ¶ 239.
J. Brittany and Kimberly Irish’s Requests
for Protection
At approximately midnight on July 17, 2015,
Brittany Irish called Detective Perkins and asked that
an MSP ofﬁcer provide security at her parents’ residence, where she was staying.102 DSMF ¶ 96; PRDSMF
101

The Plaintiffs’ attempt to qualify paragraph 95 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 95, and as in footnote 34, supra, the Court
rejects it.
102
The Plaintiffs’ attempt to qualify paragraph 96 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 96, and as in footnote 34, supra, the Court
rejects it.
The Court writes further to note that the Plaintiffs seem to
argue that Detective Perkins had previously promised Britany
Irish protection at 9:24 p.m. when he told her that he would be

App. 89
¶ 96; PSAMF ¶ 242; DRPSAMF ¶ 242. Detective Perkins inferred that Brittany Irish was afraid Mr. Lord
was going to come back to the premises, found that inference logical, and passed her request on to Crane.103
PSAMF ¶ 243; DRPSAMF ¶ 243. Brittany Irish did not
receive a response until 2:00 a.m. on July 17 when she
called Detective Perkins once again. PSAMF ¶ 244;
DRPSAMF ¶ 244.
One or more times during the evening of July 16
and early morning of July 17, Kimberly Irish asked
members of the MSP whether an ofﬁcer could stay at
going to her parents’ house. PRDSMF ¶ 96. The Court does not
believe that this is a reasonable inference. The record indicates
only that Detective Perkins told Brittany Irish that he would be
at her parents’ home at some unspeciﬁed future point for some
unspeciﬁed period of time. Dep. of Perkins at 110:12-111:14. The
record also shows that Detective Perkins followed through on this
statement, arriving at Brittany Irish’s parents’ home at 10:36
p.m. DSMF ¶ 93; PRDSMF ¶ 93; PSAMF ¶ 231; DRPSAMF
¶ 231. Even though the Court is required to view the facts in the
light most favorable to the Plaintiffs, the Plaintiffs’ attempt to reframe Detective Perkins’ general statement that he would be at
Brittany Irish’s parents’ home as a promise of protection is not a
proper inference for the Court to draw on this record. See Ziegler
[Zeigler] v. Rater, 939 F.3d 385, 397 (1st Cir. 2019) (stating that
courts “are not required to ‘draw unreasonable inferences . . . ’ in
adjudicating summary judgment motions” (quoting Theriault v.
Genesis HealthCare LLC, 890 F.3d 342, 348 (1st Cir. 2018))).
103
The Individual Ofﬁcers attempt to qualify paragraph 243
of the PSAMF by pointing out that Detective Perkins did not testify that Brittany Irish’s request was logical, but rather that he
inferred that she was fearful of Mr. Lord returning, which he believed was logical. DRPSAMF ¶ 243. The Court has reviewed the
cited portion of the record, agrees with the Individual Ofﬁcers,
and alters paragraph 243 of the PSAMF to more accurately reﬂect
the record.

App. 90
her house or a police car could be left outside; in response, she was told that the MSP did not have the
manpower to provide an ofﬁcer and was unable to
leave a car.104 JSF ¶¶ 18-19; PSAMF ¶ 265; DRPSAMF
¶ 265. At some point during the early morning of July
17, Kimberly Irish called the “800 number” for the
MSP and told either the person who picked up the
104

The Individual Ofﬁcers request that the Court strike paragraph 265 of the PSAMF on three grounds. DRPSAMF ¶ 265.
Paragraph 265 of the PSAMF says, “Kimberly Irish makes one or
more calls prompting members of the MSP, to make promises consistent with Defendants’ 9:24 p.m. promises.” PSAMF ¶ 265.
The ﬁrst ground for the request to strike is that Kimberly
Irish described only a single call with a single person in her testimony. DRPSAMF ¶ 265. The Court rejects this ground, however, as the Individual Ofﬁcers stipulated to the language that
Kimberly Irish made “one or more” calls. JSF ¶ 18.
Second, the Individual Ofﬁcers argue that Kimberly Irish did
not testify that any promises were made to her, but rather that
an unidentiﬁed person told her “the police would be in the vicinity, they would keep somebody in the vicinity.” DRPSAMF ¶ 265.
The Court rejects this ground as well. A promise is deﬁned as “a
declaration that one will do or refrain from doing something speciﬁed.” Promise, MERRIAM-WEBSTER’S COLLEGIATE DICTIONARY (11th
ed. 2003). Here, Kimberly Irish testiﬁed that an MSP ofﬁcer told
her “if you have any problems, just call us” and “we’ve got ofﬁcers
in the vicinity and . . . we’ll take care of it. . . .” PSAMF, Attach.
20 at 56:16-24 (Dep. of Kimberly Irish). The Court views this as a
promise by an MSP ofﬁcer that, should Kimberly Irish call, the
MSP would use ofﬁcers in the vicinity to take care of whatever
problem she was having.
Third, the Individual Ofﬁcers argue that there was no 9:24
p.m. promise on July 16, 2015. DRPSAMF ¶ 265. The Court has
already addressed this issue in footnote 102, supra, and strikes
the portion of paragraph 265 of the PSAMF that refers to a 9:24
p.m. promise. With the exception of this portion, however, the Individual Ofﬁcers’ request to strike is denied.

App. 91
phone or the person she was transferred to (who was
not Sergeant Crane, Detective Fowler, or Detective
Perkins) that she was going to bring her family down
to the police station and park in the parking lot. JSF
¶¶ 20-21; DSMF ¶ 103; PRDSMF ¶ 103. The person
with whom Kimberly Irish was speaking said that she
could not do this as “that would be a very dangerous
thing to do” and “leav[ing] the house . . . would be a
dangerous mistake,” and promised that if she had any
problems, she should call the MSP who had “ofﬁcers in
the vicinity” and would “take care of it. . . .” JSF ¶¶ 2223. While Kimberly Irish did not dare to take her eyes
off the area the entire night, she never saw a police
cruiser go by. PSAMF ¶ 334; DRPSAMF ¶ 334.
Deputy Chief Cote, the MSP’s 30(b)(6) designee,
later testiﬁed that “[i]t is appropriate for MSP ofﬁcers
to say, we’ll keep an eye on the place, we’ll be in the
vicinity, only if [they] were going to be able to do that,”
and that if one is not going to remain in the area, it
would not be appropriate to make promises that could
not be fulﬁlled. PSAMF ¶¶ 282-83; DRPSAMF ¶¶ 28283. Deputy Chief Cote also testiﬁed to his belief that
three MSP ofﬁcers were available from Troop F in
Houlton on the night of July 16 through the morning of July 17.105 PSAMF ¶ 284; DRPSAMF ¶ 284.
105

The Individual Ofﬁcers’ attempt to qualify paragraph 284
of the PSAMF is argument outside the scope of the facts asserted
in the statement, DRPSAMF ¶ 284, and as in footnote 34, supra,
the Court rejects it. Deputy Chief Cote’s testimony makes clear
that Troop F was based in Houlton, Dep. of Cote at 48:03-04, and
the Plaintiffs do not assert in paragraph 284 that the available
ofﬁcers were themselves in Houlton. PSAMF ¶ 284.

App. 92
Furthermore, Deputy Chief Cote testiﬁed that the
MSP does have the ability to call additional ofﬁcers
who are off duty in the event that becomes necessary.106
PSAMF ¶ 285; DRPSAMF ¶ 285. Sergeant Crane also
testiﬁed that it would not be proper for Detectives Perkins and Fowler to say that they would be in the vicinity for a particular time period and then not be there.107
PSAMF ¶ 271; DRPSAMF ¶ 271.
At 12:30 a.m. on July 17, Detective Perkins, Detective Fowler, Sergeant Crane, and an additional MSP
trooper went to Mr. Lord’s uncle’s house (which was Mr.
Lord’s registered address in the sex offender registry)
and were advised by Mr. Lord’s uncle that Mr. Lord
had been gone for at least two weeks.108 DSMF ¶ 97;
106

The Individual Ofﬁcers attempt to qualify paragraph 285
of the PSAMF by pointing out that Deputy Chief Cote did not testify that other MSP ofﬁcers were available, but rather that they
were off duty and would have needed to be called. DRPSAMF
¶ 285. The Court reviewed the cited portion of the record, agrees
with the Individual Ofﬁcers, and alters paragraph 285 of the
PSAMF to more accurately reﬂect the record.
107
The Individual Ofﬁcers attempt to qualify paragraph 271
of the PSAMF by stating that Sergeant Crane only testiﬁed that
it would not be proper for Detectives Perkins and Fowler to say
they would be in a place at a particular time and then not be there
during that time; he did not testify that saying they would be in
a particular place gave rise to an open-ended promise to be in that
place. DRPSAMF ¶ 271. The Court reviewed the cited portion of
the record, agrees with the Individual Ofﬁcers, and alters paragraph 271 of the PSAMF to more accurately reﬂect Sergeant
Crane’s deposition testimony.
108
The Plaintiffs’ attempt to qualify paragraph 97 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 97, and as in footnote 34, supra, the Court
rejects it.

App. 93
PRDSMF ¶ 97; PSAMF ¶¶ 245-46; DRPSAMF ¶¶ 24546. At around 1:00 a.m., Detective Perkins called the
BPD to conﬁrm that they had received the “stop and
hold” teletype about Mr. Lord and to request that
they send an officer to Acadia Hospital to determine
whether Mr. Lord had gone there. DSMF ¶ 99;
PRDSMF ¶ 99.
At about 1:00 a.m. or shortly before, Detectives
Perkins and Fowler met in person with Sergeant
Crane in Crystal and Detective Perkins told Sergeant
Crane about Brittany Irish’s request for overnight security.109 DSMF ¶ 98; PRDSMF ¶ 98; PSAMF ¶ 247;
DRPSAMF ¶ 247. Sergeant Crane informed Detective
Perkins that the MSP did not have the manpower to
provide the Irishes with overnight security.110 DSMF
¶ 98; PRDSMF ¶ 98; PSAMF ¶ 248; DRPSAMF ¶ 248.
At this time, in the area, there were the following MSP
109

The Plaintiffs refer to Brittany Irish’s request for security
as a “renewed” request. PSAMF ¶ 247. This is similar to the issue
discussed in footnote 102, supra, in that a review of the record
does not demonstrate that Brittany Irish made any request for
protection prior to her midnight call to Detective Perkins, and Detective Perkins’ statement that he would be at the Irish home cannot reasonably be interpreted as a promise to provide protection.
The Plaintiffs’ attempt to qualify paragraph 98 of the DSMF
is argument outside the scope of the facts asserted in the statement, PRDSMF ¶ 98, and as in footnote 34, supra, the Court rejects it.
110
The Individual Ofﬁcers attempt to qualify paragraph 248
of the PSAMF by pointing out that Detective Perkins testiﬁed he
could not remember Sergeant Crane’s words but that he in effect
said what was contained in paragraph 248 of the PSAMF.
DRPSAMF ¶ 248. Because the Court paraphrases paragraph 248
of the PSAMF, the Court views this qualiﬁcation as moot.

App. 94
resources, not counting off-duty MSP ofﬁcers or local
police:
1.

Sergeant Crane;

2.

Detective Perkins;

3.

Detective Fowler;

4.

the two MSP troopers who checked on the
residence of Mr. Lord’s mother in Houlton
(see DSMF ¶ 90);

5.

the MSP trooper who went with Sergeant
Crane, Detective Perkins, and Detective
Fowler to visit Mr. Lord’s uncle (see
DSMF ¶ 97);

6.

an MSP trooper and an MSP detective
who were collecting evidence at a gas station dumpster (see PSAMF ¶¶ 253-54);
and

7.

the K9 trooper and dog who Perkins ordered to the Benedicta barn ﬁre (see
DSMF ¶ 94).

PSAMF ¶ 249; DRPSAMF ¶ 249. When Sergeant Crane
informed Detective Perkins that he did not have the
manpower to provide the Irishes with overnight security, Detective Perkins did not advocate for this
overnight security. PSAMF ¶ 250; DRPSAMF ¶ 250.
Detective Perkins later testiﬁed that if security were
provided, the Irish residence in Benedicta was the
right place to do it. PSAMF ¶ 251; DRPSAMF ¶ 251.
At about 2:00 a.m. on July 17, having not heard
from Detective Perkins or Detective Fowler since

App. 95
midnight, Brittany Irish called Detective Perkins
again to request protection; Detective Perkins told her
that he had spoken with his supervisor about this request and the MSP did not have the manpower to provide overnight security. DSMF ¶ 100; PRDSMF ¶ 100;
PSAMF ¶¶ 252, 256-57; DRPSAMF ¶¶ 252, 256-57.
Detective Perkins told Brittany Irish that a security
detail would not be posted at her parent’s residence,
but that the MSP was still looking for Mr. Lord in the
area.111 DSMF ¶ 101; PRDSMF ¶ 101; PSAMF ¶ 258;
DRPSAMF ¶ 258. Detective Perkins later testified
that the MSP Incident Review Team report states that
Brittany Irish asked for protection twice in the early
morning hours of July 17. PSAMF ¶ 259; DRPSAMF
¶ 259.
Also at about 2:00 a.m., Detectives Perkins and
Fowler drove together to meet two additional MSP
members, Detective Jonah O’Rourke and Trooper
Corey Hafford, who were at a gas station in Sherman,
Maine, searching the dumpster for evidence of Mr.
Lord’s rape of Brittany Irish. PSAMF ¶¶ 253-54;
111

Paragraph 101 of the DSMF says that “Perkins made
clear to B[rittany] Irish that there would not be any overnight
security at her mother’s house.” DSMF ¶ 101. The Plaintiffs deny
paragraph 101 of the DMSF, stating that Detective Fowler testiﬁed that he heard Detective Perkins “tell Brittany Irish that [the
MSP was] still looking for Lord,” and that a factﬁnder “could infer
that while MSP would not be posted right at the residence, that
they would be nearby looking for Lord.” PRDSMF ¶ 101. While
the Court does not ﬁnd this to be a proper basis for a denial, the
Court reviewed the cited portions of the record and alters paragraph 101 of the DSMF to more accurately reﬂect the record and
the reasonable inference pointed out by the Plaintiffs.

App. 96
DRPSAMF ¶¶ 253-54. In later testimony, Detective
Perkins did not answer whether he agreed that protecting the victim of a crime is more important than
ﬁnding a piece of evidence from a crime, stating instead that it is “most productive in a paramilitary organization to do what you’re told in your assignment
and not freelance.”112 PSAMF ¶ 255; DRPSAMF ¶ 255.
Between approximately 2:00 a.m. and 3:00 a.m. on
July 17, after Detectives Perkins and Fowler left Detective O’Rourke and Trooper Hafford at the gas station dumpster to continue looking for evidence, the two
drove around in different places in the vicinity hoping
to ﬁnd something related to the case.113 DSMF ¶ 102;
112

Paragraph 255 of the PSAMF states that “Perkins disagrees that protecting a victim is more important than ﬁnding a
piece of evidence because what ‘is most productive in a paramilitary organization [is that you] do what you’re told in your assignment and not freelance.’ ” PSAMF ¶ 255 (alteration in original).
The Individual Ofﬁcers request that the Court strike paragraph
255, arguing that Detective Perkins “did not disagree that protecting a victim is more important than ﬁnding a piece of evidence,” but rather “testiﬁed that what is most productive is to do
what one is told.” DRPSAMF ¶ 255. If not stricken, the Individual
Ofﬁcers attempt to qualify the statement by stating that “[w]hile
Perkins testiﬁed that what is more productive is to do what one
is told, he did not disagree with the statement that protecting a
victim is more important than ﬁnding a piece of evidence.”
DRPSAMF ¶ 255. The Court reviewed the cited portion of the record and ﬁnds that there is no basis to strike this statement, as
there is record support for the quote attributed to Detective Perkins, but alters paragraph 255 of the PSAMF to more accurately
reﬂect the record.
113
The Plaintiffs deny paragraph 102 of the DSMF, arguing
that “[t]he record is absent of the whereabouts of Detective
Perkins and Fowler after the 12:30 a.m. check for Lord at Lord’s

App. 97
PRDSMF ¶ 102; PSAMF ¶ 260; DRPSAMF ¶ 260. At
3:00 a.m. on July 17, Detectives Perkins and Fowler
left the area of Sherman and Crystal for home. PSAMF
¶ 261; DRPSAMF ¶ 261. Detective Perkins arrived at
his home at 4:40 a.m. and Detective Fowler arrived
home at 5:05 a.m. PSAMF ¶¶ 261-62; DRPSAMF
¶¶ 261-62. Sergeant Crane had already left the Sherman and Crystal area to go home thirty minutes earlier, at 2:30 a.m. PSAMF ¶ 263; DRPSAMF ¶ 263.
Sergeant Crane, Detective Perkins, and Detective
Fowler did not communicate to the Irishes that they
were leaving the area.114 PSAMF ¶ 264; DRPSAMF
¶ 264. Around 3:00 a.m., Detective O’Rourke and
uncle’s house.” PRDSMF ¶ 102. However, the quote the Plaintiffs
use in their denial from Detective Fowler’s deposition testimony
refutes at least a portion of the denial, making clear that between
2:00 and 3:00 a.m., Detectives Perkins and Fowler were driving
around looking for evidence. PRDSMF ¶ 102. Additionally, paragraphs 247, 252, 253, and 254 of the PSAMF make clear that the
Plaintiffs can account for Detectives Perkins and Fowler’s whereabouts for a good portion of the period between 12:30 and 2:00
a.m. The Court therefore rejects the Plaintiffs’ denial of paragraph 102 of the DSMF.
114
The ﬁrst sentence of paragraph 264 of the PSAMF states
that the Individual Ofﬁcers “did not tell the Irishes that [they]
and MSP were leaving.” PSAMF ¶ 264. The Individual Ofﬁcers
request that the Court strike this sentence, arguing that this portion of paragraph 264 does not have record support. DRPSAMF
¶ 264. The Court has reviewed the cited portions of the record and
agrees that there is not explicit record support for this statement;
however, the Court will not strike this statement. Given the level
of documentation of other communications between the Individual Ofﬁcers and the Irishes, the lack of such documentation here
and the cited portions of the record give rise to a reasonable inference that the Individual Ofﬁcers did not communicate to the
Irishes that they were going home.

App. 98
Trooper Hafford also left the gas station dumpster to
return home. PSAMF ¶ 264; DRPSAMF ¶ 264. At the
time Detectives Perkins and Fowler left the area,
Sergeant Crane did not know what MSP resources
were in the vicinity of the Irish home. PSAMF ¶ 270;
DRPSAMF ¶ 270.
K. Anthony Lord’s Murderous Rampage
Between 4:00 and 4:40 a.m. on July 17, an individual named Kary Mayo reported to MSP that he had
been assaulted by Mr. Lord at his residence in Silver
Ridge, Maine, six miles and twelve minutes away from
the Irish home in Benedicta, and that Mr. Lord beat
him with a hammer and stole his truck and two guns.
PSAMF ¶¶ 266-67; DRPSAMF ¶¶ 266-67. Sergeant
Crane observed that the Mayo assault and theft took
place at about 4:00 a.m., prior to the shootings that
would take place at the Irish residence in Benedicta.115
PSAMF ¶ 268; DRPSAMF ¶ 268. MSP trooper Carmen
Lilley, who was on call, responded to the Mayo assault
and theft. PSAMF ¶ 269; DRPSAMF ¶ 269. He was
also the ﬁrst MSP ofﬁcer to respond to the Irish home
shootings. PSAMF ¶ 269; DRPSAMF ¶ 269.

115

The Individual Ofﬁcers attempt to qualify paragraph 268
of the PSAMF by stating that in the cited portion of Sergeant
Crane’s deposition, he did not state what time the incident occurred. DRPSAMF ¶ 268. The Court rejects this qualiﬁcation.
Sergeant Crane stated what time the incident occurred on the
page of his deposition prior to the page cited by the Plaintiffs.
Dep. of Crane at 42:08-10.

App. 99
In the early morning of July 17, Mr. Lord entered
the Irish house, shot and killed Kyle Hewitt, shot and
wounded Kimberly Irish, and abducted Brittany Irish.
JSF ¶ 24. After Mr. Lord ﬁnished his shootings and abducted Brittany Irish for a second time, the MSP called
several off-duty ofﬁcers to work.116 PSAMF ¶ 286;
DRPSAMF ¶ 286. Mr. Lord was arrested on the afternoon of July 17. JSF ¶ 25. At no time while Brittany
Irish was with Mr. Lord on July 16 or 17 did he express
anger over her having gone to the police; however,
Brittany Irish received a phone call from her brother
shortly after Detectives Perkins and Fowler arrived at
her parents’ home on July 16 in which her brother told
her that he had heard Mr. Lord was irate, and her understanding was that this was in reaction to the
voicemail message from Detective Perkins.117 DSMF
¶ 104; PRDSMF ¶ 104.

116

The Individual Ofﬁcers attempt to qualify paragraph 286
of the PSAMF by stating that Deputy Chief Cote did not refer to
Brittany Irish’s abduction as a “second abduction.” DRPSAMF
¶ 286. The Court addressed whether Brittany Irish was abducted
prior to this in footnotes 13 and 77, supra, and rejects this qualiﬁcation.
117
The Plaintiffs attempt to qualify paragraph 104 of the
DSMF by pointing out that, separate and apart from the time
Brittany Irish spent in Mr. Lord’s company, he was irate upon
receiving the voicemail message and knew that it was about his
rape of her. PSAMF ¶ 104. The Court has inferred that Mr. Lord
knew at some point that Detective Perkins’ voicemail was about
his rape of Brittany Irish. See footnote 68, supra. Additionally,
the Court reviewed the cited portions of the record, agrees with
the Plaintiffs regarding Mr. Lord having been irate, and alters
paragraph 104 of the DSMF to reﬂect the record.

App. 100
Detective Perkins later testiﬁed that he was skeptical of Brittany Irish as the investigation was unfolding. PSAMF ¶ 300; DRPSAMF ¶ 300. Detective Fowler
did not note in his police report that he thought Brittany
Irish was showing indicators that she was being deceptive or less than honest during her interview with Detectives Perkins and Fowler after creating her written
report.118 PSAMF ¶ 301; DRPSAMF ¶ 301. Sergeant
Crane knew that there were concerns about Brittany
Irish’s trustworthiness because of the interview Detectives Perkins and Fowler conducted with Ms. Adams
(though he did not know whether anyone inquired into
whether Adams had any motive to lie) and because
Detective Perkins had told Sergeant Crane that he
harbored concerns about Brittany Irish’s credibility.119
PSAMF ¶¶ 303-05; DRPSAMF ¶¶ 303-05.
118

The Individual Ofﬁcers’ attempt to qualify paragraph 301
of the PSAMF is argument outside the scope of the facts asserted
in the statement, DRPSAMF ¶ 301, and as in footnote 34, supra,
the Court rejects it.
119
Paragraph 302 of the PSAMF lists the four written statements and interviews done by Brittany Irish and refers to them
as “consistent.” PSAMF ¶ 302. The Individual Ofﬁcers request
that the Court strike this paragraph as lacking in record support.
DRPSAMF ¶ 302. The Court cannot determine, based on the record citations provided, whether the statements and interviews
were entirely consistent, and strikes this paragraph for failure to
comply with District of Maine Local Rule 56(b) and (f ).
The Individual Ofﬁcers request that the Court strike the portion of paragraph 305 of the PSAMF which says that the Individual Ofﬁcers had not gathered “most of the facts” for lack of record
support. DRPSAMF ¶ 305. The Court reviewed the cited portion
of the record, agrees with the Individual Ofﬁcers, and strikes this
portion of paragraph 305 of the PSAMF.

App. 101
Detective Perkins agreed, in his testimony, that
the MSP Incident Review Team concluded in writing
that beginning “on July 14 . . . Lord went on a four-day
crime spree [of ] murder, kidnapping, rape, aggravated
assault, arson, burglary, theft, and various other
crimes.”120 PSAMF ¶ 306 (alterations in original); see
also DRPSAMF ¶ 306. Detective Perkins did, however,
still challenge Brittany Irish’s credibility concerning
whether she was raped, stating “I . . . disagree that this
crime scene started necessarily on July 14, 2015. I
would say that is debatable . . . the events [of ] July 14
120

The Individual Ofﬁcers attempt to qualify the portion of
paragraph 306 of the PSAMF which states that the Incident Review Team “concluded” that Mr. Lord committed various crimes,
PSAMF ¶ 306, by stating that Detective Perkins did not testify
that this was a conclusion of the Incident Review Team and that
the quoted statement was part of the introduction to the report
by the Incident Review Team. DRPSAMF ¶ 306. In the Court’s
view, the Individual Ofﬁcers are taking an overly formalistic view
of the word “concluded.” The verb “conclude” is deﬁned as “to
reach as a logically necessary end by reasoning,” “infer on the
basis of evidence,” or “to make a decision about. . . .” Conclude,
MERRIAM-WEBSTER’S COLLEGIATE DICTIONARY (11th ed. 2003). A
conclusion, as used by the Plaintiffs, does not have to come at the
end of something and does not have to be prefaced by the phrase
“we conclude.” Rather, the record reﬂects that the Incident Review Team was tasked with determining “[t]he facts of the incident” related to Mr. Lord’s crime spree, and to “provide a
comprehensive review of the response and performance by Maine
State Police Ofﬁcers.” PSAMF, Attach. 5 at 2 (MSP Incident Review). That the Incident Review Team made the statement quoted
by the Plaintiffs in the declarative (i.e. “On July 14, 2015, thirtyﬁve-year-old Anthony Lord went on a four-day crime spree,” id.)
would allow a reasonable factﬁnder to infer that this was a conclusion of the Incident Review Team. On this motion for summary
judgment, the Court infers this was a conclusion of the Incident
Review Team.

App. 102
and July 15 are in question.” PSAMF ¶ 307 (alterations in original); see also DRPSAMF ¶ 307. Corroborating Brittany Irish, Mr. Lord later admitted to the
MSP after his July 17 arrest that he had tied up
Brittany Irish on July 14 into July 15.121 PSAMF ¶ 308;
DRPSAMF ¶ 308. Detective Perkins stated to the Incident Review Team and at his deposition that he still
believed Brittany Irish was not the victim. PSAMF
¶ 309; DRPSAMF ¶ 309. In written comments to the
MSP Incident Review Team (to which Detective Fowler
never objected), Sergeant Crane wrote, “In conclusion,
it weighs heavy knowing that one of our investigations
in Section 6 [a geographic area of MSP coverage], as it
was ongoing, led to the tragic events that took the lives
of two people and hurt so many others.” PSAMF
121

The Individual Ofﬁcers request that the Court strike paragraph 308 of the PSAMF which states, “Corroborating [Brittany]
Irish, and rebutting Detective Perkins, Lord later admitted to the
MSP after July 17 that he had tied up [Brittany] Irish on July 14
into July 15, just as [Brittany] Irish had described to Defendants,”
PSAMF ¶ 308, as not supported by the cited portion of the record.
DRPSAMF ¶ 308. The Individual Ofﬁcers state that Detective
Perkins could not remember when Mr. Lord stated that he tied
up Brittany Irish but that it was around when the Plaintiffs said
and that there is no support in the cited portion of the record
for the statement that Mr. Lord tied Brittany Irish up “just as
[Brittany] Irish had described.” DRPSAMF ¶ 308. The Court reviewed the cited portion of the record and strikes the portion of
paragraph 308 of the PSAMF which states that Mr. Lord tied
Brittany Irish up “just as [Brittany] Irish had described” as lacking in record support but does not strike the reference to the date
after which Mr. Lord made this statement. Mr. Lord was not arrested until July 17, and Detectives Perkins and Fowler did not
have any contact with him prior to this date. Therefore, a reasonable factﬁnder could infer that Mr. Lord made this statement on
or after July 17.

App. 103
¶¶ 129-30; DRPSAMF ¶¶ 129-30. Deputy Chief Cote,
the MSP’s 30(b)(6) designee, testiﬁed that it was appropriate for the MSP to not bring its full resources to
bear in the Brittany Irish investigation prior to the
Benedicta barn fire.122 PSAMF ¶ 131; DRPSAMF
¶ 131. The MSP did not believe Brittany Irish and so
Detectives Perkins and Fowler did not consider her report a domestic violence complaint, but rather a false
report. PSAMF ¶ 132; DRPSAMF ¶ 132.
After July 17, once Mr. Lord was in custody, an
MSP K9 ofﬁcer and dog were placed at the Irish house
twenty-four hours a day for two days to protect the
crime scene, and Mr. Lord’s other girlfriend was given
safe house protection, even though Mr. Lord was already in custody.123 PSAMF ¶ 335; DRPSAMF ¶ 335.

122

The Individual Ofﬁcers attempt to qualify paragraph 131
of the PSAMF insofar as it does not make clear that Deputy Chief
Cote’s testimony about appropriate resource allocation was temporally limited to the period prior to the barn ﬁre. DRPSAMF
¶ 131. The Court reviewed the cited portion of the record, agrees
with the Individual Ofﬁcers, and alters paragraph 131 of the
PSAMF to more accurately reﬂect the record.
123
The Individual Ofﬁcers request that the Court strike the
statement in paragraph 335 of the PSAMF that Mr. Lord’s other
girlfriend received safe house protection as unsupported by the
cited portion of the record. DRPSAMF ¶ 335. The Court has reviewed the cited portion of the record and the surrounding portion
of the record and ﬁnds that there is record support for this statement, Dep. of Kimberly Irish at 96:03-25; therefore, the Court
denies the Individual Ofﬁcers’ request to strike. The Individual
Ofﬁcers state that if the statement is not stricken, they admit it.
DRPSAMF ¶ 335.

App. 104
At his guilty plea, Mr. Lord admitted that he knew
Brittany Irish reported his July 14 and July 15 crimes
to MSP, and he did not dispute the evidentiary support
for the facts that his six-month-old son had died two
months prior to the events in issue and that prior to
the events in issue, Brittany Irish had reported criminal conduct by Mr. Lord toward her.124 PSAMF ¶ 336;
DRPSAMF ¶ 336.
L. Policies of the Maine State Police
1. Policies Related to Contacting Suspects
Depending on circumstances, it may or may not be
acceptable to call a suspect on the phone and ask him to
come meet with police.125 DSMF ¶ 105; PRDSMF ¶ 105.
There is no standard of care, MSP policy or protocol, or
standard promulgated by the International Associations
of Chiefs of Police speciﬁcally addressing when a phone
call should or should not be used to contact a suspect.126
124

The Individual Ofﬁcers’ attempt to qualify paragraph 336
of the PSAMF is argument outside the scope of the facts asserted
in the statement, DRPSAMF ¶ 336, and as in footnote 34, supra,
the Court rejects it.
125
The Plaintiffs’ attempt to qualify paragraph 105 of the
DSMF is argument outside the scope of the facts asserted in the
statement, PRDSMF ¶ 105; however, the Court alters paragraph
105 of the DSMF to reﬂect the Plaintiffs’ point that if something
is acceptable only some of the time, it logically must be unacceptable other times. Id.
126
The Plaintiffs’ denial of paragraph 106 and attempt to
qualify paragraph 108 of the DSMF is argument outside the scope
of the facts asserted in the statements, PRDSMF ¶¶ 106, 108, and
as in footnote 34, supra, the Court rejects them.

App. 105
DSMF ¶¶ 106-08; PRDSMF ¶¶ 106-08. The known violent nature of a suspect and the nature of threats by
a suspect against a victim (such as threats to harm her
or her children) could be factors in deciding whether to
leave a phone call or physically locate a suspect.127
PSAMF ¶¶ 311-12; DRPSAMF ¶¶ 311-12. Conducting
a criminal background check on a suspect should be
the ﬁrst thing an ofﬁcer does because it allows the ofﬁcer to learn whether the suspect is on probation and
it is important to know as much as one can about a
suspect. PSAMF ¶ 332; DRPSAMF ¶ 332. Allowing
Brittany Irish to have worn a wire to meet with Lord
would have put her at risk. DSMF ¶ 111; PRDSMF
¶ 111.
The Maine Criminal Justice Academy (MCJA)
trains MSP ofﬁcers to be reasonable. PSAMF ¶ 294;
DRPSAMF ¶ 294. The Plaintiffs’ expert witness, D.P.
Van Blaricom, testiﬁed that the standard of care for
the Individual Ofﬁcers was that “the ﬁrst priority is
the victim’s safety and you would do nothing that
would put her safety at risk, and contacting the suspect and leaving a phone message is the last thing I
The Plaintiffs’ attempt to qualify paragraph 107 of the DSMF
is unsupported by the cited portion of the record, and the Court
rejects it as violative of District of Maine Local Rule 56(c).
127
The Individual Ofﬁcers attempt to qualify paragraphs 311
and 312 of the PSAMF by pointing out that the cited portions of
the record establish only that these “could” be factors, not that
they are factors. DRPSAMF ¶¶ 311-12. The Court reviewed the
cited portions of the record, agrees with the Individual Ofﬁcers,
and alters paragraphs 311 and 312 of the PSAMF to more accurately reﬂect the record.

App. 106
would consider doing,” “[y]ou’d have to take into account the consideration of the safety of the victim,” and
“if you’re trying to safeguard the victim, you don’t tip
off the suspect when she’s already said he’d threaten
her”; he also testiﬁed that he does not know of any
standard of care speciﬁcally addressing when a phone
call should be used to contact a suspect as opposed to
contacting the suspect in person.128 PSAMF ¶ 313;
DRPSAMF ¶ 313. Detective Fowler testified that
safety of the victim is important and should be assured
before there is ﬁrst contact with a suspect. PSAMF
¶ 117; DRPSAMF ¶ 117.
The Director of the MCJA testiﬁed that if a victim
of a rape fears for her safety or has said that the suspect told her that he will kill her or her children, he
was not sure he would tell the suspect right off; rather,
he would try to ﬁnd the suspect and get him to a neutral place because one has to go ﬁnd a domestic violence suspect. PSAMF ¶¶ 295, 310; DRPSAMF ¶¶ 295,
310. He also testiﬁed that at the very minimum, once
MSP contacts a suspect, it has an obligation under domestic violence policies to explain to the victim how to
obtain a protection from abuse order.129 PSAMF ¶ 314;
128

The Individual Ofﬁcers attempt to qualify paragraph 313
of the PSAMF by making clear that when Van Blaricom was discussing a standard of care, he was not referring speciﬁcally to an
existing standard of care for when to contact a suspect by phone.
DRPSAMF ¶ 313. The Court reviewed the cited portions of the
record, agrees with the Individual Ofﬁcers, and alters paragraph
313 of the PSAMF to more accurately reﬂect the record.
129
The Individual Ofﬁcers request that the Court strike the
portion of paragraph 314 of the PSAMF which says that the Individual Ofﬁcers did not explain to Brittany Irish how to obtain a

App. 107
DRPSAMF ¶ 314. Detective Fowler did not attempt to
learn whether Brittany Irish had obtained a protection
from abuse order against Mr. Lord in the past, though
he has obtained this information in prior cases.
PSAMF ¶ 321; DRPSAMF ¶ 321.
2. Policies on Protecting and Assessing
the Credibility of a Purported Domestic Violence Victim
Findings made by the MSP Incident Review team
showed the Brittany Irish case was both a rape claim
and a domestic violence situation because of such details as Mr. Lord’s strangulation of Brittany Irish with
a seat belt and because she was an intimate partner of
Mr. Lord’s, which placed her within the household and
family deﬁnition of domestic violence assault. PSAMF
¶ 121; DRPSAMF ¶ 121. Detective Perkins deﬁnes domestic violence to mean “violence that occurs between
intimate partners[ and] household family members,”
which can include intimate partners or former sexual
partners who do not live in the same household.
PSAMF ¶ 122; DRPSAMF ¶ 122. A member of MSP
leadership, Lieutenant Walter Grzyb, also testiﬁed
that the barn burning could be considered an act of

protection from abuse order as unsupported by the record.
DRPSAMF ¶ 314. The Court agrees and strikes this portion of
paragraph 314 of the PSAMF but notes that it infers from the
DSMF and PSAMF that the Individual Ofﬁcers did not tell Brittany Irish how to obtain a protection from abuse order, as nothing
in the record contradicts this inference.

App. 108
domestic violence, though he would not classify it that
way.130 PSAMF ¶ 123; DRPSAMF ¶ 123.
According to Deputy Chief Cote, the MSP’s
30(b)(6) designee, MSP ofﬁcers are “always going to
give the victim the beneﬁt of the doubt.” PSAMF ¶ 296;
DRPSAMF ¶ 296. Detective Perkins testiﬁed that he
does not remember the MSP domestic violence training which states that the credibility of a witness is
never a factor in assessing whether or not a domestic
violence event took place; however, when shown a
state-mandated sexual assault investigation training
presentation from the Maine Coalition Against Sexual
Assault, he recalled that he had attended that training. PSAMF ¶¶ 297-98, 320; DRPSAMF ¶¶ 297-98,
320. This training states that “[p]rematurely judging
the validity of a report may have detrimental consequences”; additionally, Detective Perkins testiﬁed that
ofﬁcers are trained to be careful of their skepticism
about what a victim tells them because they may not
be able to gather all the information they need.131
130

The Individual Ofﬁcers attempt to qualify paragraph 123
of the PSAMF, pointing out that while Lieutenant Grzyb did testify that one could argue the barn burning was an act of domestic
violence, he would not. DRPSAMF ¶ 123. The Court reviewed the
cited portion of the record, agrees with the Individual Ofﬁcers,
and alters paragraph 123 of the PSAMF to more accurately reﬂect
the record.
131
The Individual Ofﬁcers attempt to qualify the portion of
paragraph 299 of the PSAMF which says that detectives “must
not prematurely judge the validity of a rape report,” PSAMF
¶ 299, because neither the cited training material nor Detective
Perkins said that detectives “must not” do anything. DRPSAMF
¶ 299. The Court reviewed the cited portions of the record, agrees

App. 109
PSAMF, Attach. 9 at 8 (MCASA Training Program); see
also PSAMF ¶¶ 299, 320; DRPSAMF ¶¶ 299, 320. D.P.
Van Blaricom testiﬁed that he did not know of any
MSP or International Association of Chiefs of Police
policy speciﬁcally addressing the extent to which police
ofﬁcers should provide protection for people.132 DSMF
¶¶ 109-10; PRDSMF ¶¶ 109-10.
3. Maine State Police General Order M-4
M-4 is an MSP general order that is a policy for
domestic violence and response to it, including investigations; it is applicable to road troopers, detectives,
and all other members of the MSP. PSAMF ¶¶ 113-14;
DRPSAMF ¶¶ 113-14. Though compliance with M-4 is
not discretionary, members of the major crimes unit at
MSP do not really abide by M-4 word for word or allow

with the Individual Ofﬁcers, and alters paragraph 299 of the
PSAMF to more accurately reﬂect the record.
132
Paragraph 109 of the DSMF states that “[t]here is no MSP
policy addressing the extent to which police ofﬁcers should provide protection for people.” DSMF ¶ 109. The Plaintiffs attempt
to deny this paragraph, pointing out that D.P. Van Blaricom did
not testify to this, as asserted by the Individual Ofﬁcers, but rather said that he did not know of such policies. PRDSMF ¶ 109.
The Court reviewed the cited portion of the record, agrees with
the Plaintiffs, and alters paragraph 109 of the DSMF to more accurately reﬂect the record. Paragraph 110 of the DSMF poses the
same problem, and the Court alters it as well.
The Plaintiffs’ qualiﬁcation of paragraph 110 of the DSMF is
argument outside the scope of the facts asserted in the statement,
PRDSMF ¶ 110, and as in footnote 34, supra, the Court rejects
them.

App. 110
it to dictate their investigations.133 PSAMF ¶ 115;
DRPSAMF ¶ 115. Detective Fowler received all mandatory training for the M-4 policy and acknowledged
that if he is at the scene of a domestic violence incident,
then he has to follow the steps in the M-4 protocol and
make sure that the victim feels safe; he also will stay
with a victim of domestic violence at the scene of
an incident if necessary.134 PSAMF ¶¶ 116, 118-19;
DRPSAMF ¶ 116, 118-19. Detective Perkins began receiving MSP training in M-4 in January 2008, and he
has received continuing training on it since then; in
fact, domestic violence and domestic abuse are predominant subject matters that Detective Perkins has
studied as part of his training in the MSP.135 PSAMF

133

The Individual Ofﬁcers attempt to qualify paragraph 115
of the PSAMF with additional context related to the way major
crimes unit ofﬁcers apply M-4. DRPSAMF ¶ 115. The Court reviewed the additional context provided by the Individual Ofﬁcers,
which consists of portions of Deputy Chief Cote’s deposition in and
around the portion cited by the Plaintiffs, and adds context to paragraph 115 of the PSAMF to more accurately reﬂect the record.
134
The Individual Ofﬁcers attempt to qualify paragraph 119
of the PSAMF with the fact that Fowler testiﬁed “he will stay with
a victim at the scene of the incident if necessary,” DRPSAMF
¶ 119 (emphasis omitted), as opposed to the more general statement contained in paragraph 119 of the PSAMF, which says he
“knows to stay with a [domestic violence] victim if necessary.”
PSAMF ¶ 119. The Court reviewed the cited portions of the record, agrees with the Individual Ofﬁcers, and alters paragraph 119
of the PSAMF to more accurately reﬂect the record.
135
The Individual Ofﬁcers attempt to qualify paragraph 316
of the PSAMF by stating that it is domestic violence and domestic
abuse—not M-4 speciﬁcally—that have been predominant subject
matters Detective Perkins has studied. DRPSAMF ¶ 316. The
Court reviewed the cited portion of the record, agrees with the

App. 111
¶ 316; DRPSAMF ¶ 316. In his report on Brittany
Irish’s allegations, Detective Perkins noted the reported crime as both a rape and a domestic violence
crime. PSAMF ¶ 120; DRPSAMF ¶ 120.
Brittany Irish did exactly what M-4 suggests a domestic violence victim should do by going to stay with
family after learning of the ﬁre in Benedicta, though
both she and her mother, Kimberly Irish, made requests for protection indicating that they did not feel
safe where they were.136 PSAMF ¶ 322; DRPSAMF
¶ 322. Detective Fowler disagrees with the MSP Incident Review Team, who observed that the fact other
resources for offering protection to the Irishes were
not examined might be a deﬁciency. PSAMF ¶ 323;
DRPSAMF ¶ 323.
M-4 says that “one of the means to prevent further
abuse is by remaining at the scene of a [domestic violence] incident for as long as the ofﬁcer reasonably believes that there would be an imminent danger to the
Individual Ofﬁcers, and alters paragraph 316 of the PSAMF to
more accurately reﬂect the record.
136
The Individual Ofﬁcers request that the Court strike the
portion of paragraph 322 of the PSAMF which states that “Irish
and her mother were both reporting that they didn’t feel safe” at
Kimberly Irish’s home, PSAMF ¶ 322, as unsupported by the
cited portion of the record, as in his testimony, Detective Perkins
denied that the Irish family reported not feeling safe. DRPSAMF
¶ 322. The Court reviewed the cited portion of the record and
ﬁnds that it demonstrates that Brittany and Kimberly Irish made
requests for protection which, to a reasonable factﬁnder, could
lead to the inference that they did not feel safe where they were,
at least without protection. Dep. of Perkins at 66:02-67:13. The
Court denies the Individual Ofﬁcers’ request to strike.

App. 112
safety and well-being of any person if the ofﬁcer” left
the scene.137 Dep. of Perkins at 23:18-24. M-4 does not
say that the MSP ofﬁcers must protect domestic violence victims only if the MSP ofﬁcers are at the actual
ﬁrst scene where the abuse occurred. PSAMF ¶ 329;
DRPSAMF ¶ 329. Detectives Perkins and Fowler differ
on the deﬁnition of “scene” in M-4, which is undeﬁned.138 PSAMF ¶ 327; DRPSAMF ¶ 327. While Detective Fowler uses a commonsense deﬁnition of “scene,”
Detective Perkins views a domestic violence scene as
more dynamic and believes it can move from one place
to another or that there can be more than one scene,
should incidents occur in more than one place. PSAMF
¶¶ 327-28, 330; DRPSAMF ¶ 327-28, 330. Deputy
Chief Cote, the MSP’s 30(b)(6) designee, testiﬁed that
Brittany Irish alleged she was kidnapped and raped
multiple times in a series of separate incidents and in
several locations on July 14 and 15; that Brittany Irish
reported these incidents to BPD on July 15; that BPD
referred the allegations to MSP on July 15 because
of jurisdictional issues; and that the MSP began

137

Neither party includes this fact in their statements of
facts; however, the Court ﬁnds that the inclusion of this fact is
necessary to provide context to paragraphs 327 through 331 of the
PSAMF.
138
The Individual Ofﬁcers attempt to qualify paragraph 327
of the PSAMF by asserting that there is no record support for the
Plaintiffs’ claim that Perkins and Fowler interpret the word
“scene” “subjectively.” DRPSAMF ¶ 327. The Court reviewed the
cited portion of the record, agrees with the Individual Ofﬁcers,
and alters paragraph 327 of the PSAMF to more accurately reﬂect
the record.

App. 113
investigating Brittany Irish’s allegations that same
day. PSAMF ¶ 331; DRPSAMF ¶ 331.
Despite Detective Perkins’ testimony that M-4 and
a related statute use the words “shall,” which Detective
Perkins understands to mean “mandatory,” and “immediately,” which Detective Perkins interprets as meaning “without delay,” he challenged the applicability of
M-4 to Brittany Irish. PSAMF ¶ 124; DRPSAMF ¶ 124.
Detective Perkins further testiﬁed that in his application of M-4, he “stay[s] with [victims] as long as it’s reasonably practical to conduct [his] investigation, as it
serves the purpose of furthering [his] criminal investigation. But yes, [he] could stay with that person for a
period of time.”139 PSAMF ¶ 125; DRPSAMF ¶ 125. Detective Perkins believes that protecting the safety of a
victim is important, but only situationally so. PSAMF
¶ 126; DRPSAMF ¶ 126. Detective Perkins wrote to
the MSP Incident Review Team, through an email sent
to Sergeant Crane, that he and Detective Fowler had
worked eighteen-hour days on July 15 and twenty-onehour days on July 16 and then asked “to what end is
139

The Individual Ofﬁcers attempt to qualify paragraph 125
of the PSAMF insofar as it asserts that Detective Perkins is testifying as to his interpretation of M-4. DRPSAMF ¶ 125. The
Court reviewed the cited portion of the record and rejects the Individual Ofﬁcers’ qualiﬁcation. It seems clear that Detective Perkins is testifying to the manner in which he applies M-4 in his
career. Dep. of Perkins at 28:06-16. “Interpretation” is deﬁned as
“the act or the result of interpreting,” Interpretation, MerriamWebster’s Collegiate Dictionary (11th ed. 2003), and “interpret” is
deﬁned as “to explain or tell the meaning of.” Interpret, MerriamWebster’s Collegiate Dictionary (11th ed. 2003). The manner in
which an ofﬁcer applies a particular policy is necessarily an interpretation of that policy.

App. 114
an ofﬁcer(s) beholden to Subsection E, paragraph 2” of
M-4, which states that an ofﬁcer shall stay with a victim in order to protect them. PSAMF ¶ 127; DRPSAMF
¶ 127.
Lieutenant Grzyb testiﬁed that the MSP Incident
Review Team was comprised of four individuals: an
MSP Lieutenant, an MSP sergeant, a local police chief,
and a civilian stakeholder, and that in its recommendations, it noted possible deﬁciencies by the Individual
Ofﬁcers in the application of M-4. PSAMF ¶ 133;
DRPSAMF ¶ 133. One of the possible deﬁciencies
noted was the requirement that if an ofﬁcer had reason
to believe that a family or household member has been
or is being abused, the ofﬁcer shall immediately use all
reasonable means to prevent further abuse and assist
the victim.140 PSAMF ¶ 134; DRPSAMF ¶ 134. The
Incident Review Team recommended that MSP personnel in the major crimes unit should receive training
to emphasize this requirement of M-4 so that it is considered in the strategy of investigating crimes and
wanted to ensure that the unit got a refresher on M-4
as applied to situations that involved both gross sexual assault and domestic violence. PSAMF ¶¶ 135-36;
DRPSAMF ¶¶ 135-36.

140

The Individual Ofﬁcers attempt to qualify paragraph 134
of the PSAMF insofar as it does not make clear that the Incident
Review Team identiﬁed this as a possible deﬁciency rather than
a deﬁnite one. DRPSAMF ¶ 134. The Court reviewed the cited
portion of the record, agrees with the Individual Ofﬁcers, and alters paragraph 134 of the PSAMF to more accurately reﬂect the
record.

App. 115
In the view of D.P. Van Blaricom, the Individual
Ofﬁcers violated M-4 because they did not take reasonable means to protect the victim, Brittany Irish, as
required by the policy.141 PSAMF ¶ 128; DRPSAMF
¶ 128. Mr. Van Blaricom also expressed the views that
the Individual Ofﬁcers (1) did not exercise a reasonable standard of care in investigating Brittany Irish’s
allegations and (2) assumed a special duty of protection to her (which they did not fulfill) because they
had reason to believe Lord had burned the Irish barn
and was still in the area, but they left her unprotected
despite promises to the contrary.142 PSAMF ¶ 324;
DRPSAMF ¶ 324.

141

The Individual Ofﬁcers request that the Court strike paragraph 128 of the PSAMF because they view as contradictory D.P.
Van Blaricom’s testimony on whether the Individual Ofﬁcers violated M-4. DRPSAMF ¶ 128. The Court reviewed the cited portions of the record and rejects the Individual Ofﬁcers’ request. The
Individual Officers’ request to strike is predicated on objections
to Mr. Van Blaricom’s credibility and reliability very similar to
objections the Court previously rejected. As the Court stated in
its March 13, 2019, order on the Individual Ofﬁcers’ Motion to
Exclude D.P. Van Blaricom, “the Court sees [the Individual Ofﬁcers’] objection[ ] to Mr. Van Blaricom’s selective use of facts . . . [as
a] matter[ ] for cross-examination, not for wholesale exclusion.”
Order on Mot. to Exclude D.P. Van Blaricom at 17 (ECF No. 68).
The Court includes the Plaintiffs’ paragraph 128 because it is required to view disputed facts in the light most favorable to the
non-movants.
142
The Individual Ofﬁcers’ attempt to qualify paragraph 324
of the PSAMF is argument outside the scope of the facts asserted
in the statement, DRPSAMF ¶ 324, and as in footnote 34, supra,
the Court rejects it.

App. 116
4. The Ontario Domestic Assault Risk
Assessment
The MSP trains its ofﬁcers that ODARA risk assessments are to be used only after an arrest has been
made and that the purpose of the assessment is to
assist bail commissioners and other ofﬁcials with bail
determinations by providing an assessment of the risk
that the person will reoffend if released; however, nothing in the ODARA tool explicitly requires that it be
used only after an arrest.143 DSMF ¶ 112; PRDSMF
143

Plaintiffs deny paragraph 112 of the DSMF:
The purpose of risk assessment exists independent of
[ODARA] and MSP ofﬁcers are trained to assess propensity for recidivism and future harm of a victim using four factors. There is nothing in ODARA that says
it cannot be used to assess how much victim protection
may be needed in order to comply with M-4. Finally,
ODARA is designed to be used “at the scene” to convey
the “first-hand information and impressions” of the
responding ofﬁcer and to “enhance[ ] victim safety.” Responding ofﬁcers were required to make a good faith
effort to use ODARA as of January 1, 2015 and had the
“additional [Law Enforcement Ofﬁcer] duty” to report
the results to bail commissioners and the District Attorney.
PRDSMF ¶ 112 (some alterations in original) (emphasis omitted)
(citations omitted). The Court notes ﬁrst that the Plaintiffs do not
deny that MSP teaches its troopers that ODARA may only be used
after an arrest, as the Individual Ofﬁcers state; in fact, the portion of the deposition of John B. Rogers, the 30(b)(6) designee for
the MCJA, cited by the Plaintiffs in their denial states, in response to the question “what are students at the [MCJA] taught
about contact with high-risk ODARA individuals following up on
a sexual assault,” that ODARA “is designed to come up with information to give to a bail commissioner. . . . after the arrest is
made. . . .” PRDSMF, Attach. 17 at 14:11-24 (Dep. of Rogers). The

App. 117
¶ 112. Detective Fowler believes the purpose of the
ODARA risk assessment is for post-arrest uses such as
bail and should preferably be completed at the scene of
an incident and early in an investigation.144 PSAMF
¶ 315; DRPSAMF ¶ 315. Detective Perkins received
training in ODARA on December 1, 2014, about nine
months before Brittany Irish’s allegations against
Mr. Lord. Dep. of Perkins at 36:18-21; PSAMF ¶ 318;
DRPSAMF ¶ 318.
Separate from ODARA, in a pre-arrest domestic
violence situation, MSP ofﬁcers are trained to do the
following: (1) obtain a prior history to see whether or
not there may have been any prior incidents; (2) assess
the scene; and (3) simultaneously conduct the development stage of probable cause to see whether or not
there is enough evidence to arrest or charge someone
Court therefore rejects the Plaintiffs’ denial insofar as they are
denying what MSP teaches its troopers about ODARA. The Court
also reviewed the other portions of the record cited by the Plaintiffs and agrees that “[t]here is nothing in ODARA that says it
cannot be used to assess how much victim protection may be
needed in order to comply with M-4,” PRDSMF ¶ 112, and alters
paragraph 112 of the DSMF to reﬂect that nothing in ODARA requires that it only be used post-arrest.
144
The Individual Ofﬁcers’ qualiﬁcation of paragraph 315 of
the PSAMF is argument outside the scope of the facts asserted in
the statement, DRPSAMF ¶ 315, and as in footnote 34, supra, the
Court rejects it; however, in reviewing the portions of the record
cited by the Plaintiffs and the Individual Ofﬁcers, the Court determines that a qualiﬁcation was appropriate to make clear that
Detective Fowler did not testify that ODARA should always be
performed at the scene and early in an investigation, but rather
that that was preferable. The Court alters paragraph 315 of the
PSAMF to more accurately reﬂect the record.

App. 118
with a particular crime.145 PSAMF ¶ 319; DRPSAMF
¶ 319.
5. The Reasonableness Standard
In addition to M-4, the MCJA trains ofﬁcers that
all decisions and actions are governed by reasonableness, and that when there is no speciﬁc MSP protocol,
that is the standard they are to apply. PSAMF ¶¶ 27273; DRPSAMF ¶¶ 272-73. John B. Rogers, the MCJA’s
30(b)(6) designee and Director of the MCJA, testiﬁed
that the following conditions are factors in assessing
the reasonableness of an ofﬁcer’s actions when a victim
of domestic violence has alleged that she has been
threatened with violence if she told the police about
her abuse: (1) the severity of the underlying rape; (2)
whether the suspect had made threats against the life
of the victim, her children, or both; and (3) whether
the suspect had a prior criminal or violent history.146
PSAMF ¶ 274; DRPSAMF ¶ 274. Detective Perkins
145

The Individual Ofﬁcers’ attempt to qualify the portion of
paragraph 319 of the PSAMF which states that ofﬁcers are
trained to take certain steps to “assess a suspect’s propensity for
harming a victim,” PSAMF ¶ 319, as lacking in record support.
DRPSAMF ¶ 319. The Court reviewed the cited portions of the
record, agrees with the Individual Ofﬁcers, and alters paragraph
319 of the PSAMF to more accurately reﬂect the record.
146
The Individual Ofﬁcers attempt to qualify paragraph 274
of the PSAMF insofar as it says that the listed factors are “MSP
training factors,” PSAMF ¶ 274, as Director Rogers did not testify
that MSP trains ofﬁcers to consider these factors. DRPSAMF
¶ 274. The Court reviewed the cited portion of the record, agrees
with the Individual Ofﬁcers, and alters paragraph 274 of the
PSAMF to more accurately reﬂect the record.

App. 119
receives training in legal updates from the First Circuit Court of Appeals. PSAMF ¶ 317; DRPSAMF ¶ 317.
III. THE PARTIES’ POSITIONS
A. The Individual Ofﬁcers’ Motion for Summary Judgment
The Individual Ofﬁcers frame the Plaintiffs’ Complaint as an allegation that “under principles of substantive due process, three members of the Maine
State Police are responsible for the harm caused by
Lord and are liable pursuant to 42 U.S.C. § 1983” because “they allegedly promised to protect the plaintiffs
from Lord and because they provoked Lord by supposedly leaving him a voice mail message advising him
that B[rittany] Irish was accusing him of kidnapping
and sexual[ ] assault.” Defs.’ Mot. at 1. The Individual
Ofﬁcers argue that with discovery complete, “the undisputed facts demonstrate that defendants are entitled to summary judgment” because “[d]iscovery has
revealed that many of [the Plaintiffs’] allegations are
demonstrably false.” Id. at 2. Before moving to their arguments, the Individual Ofﬁcers next state their view
of what they term the “[u]ndisputed [f ]acts.” Id. at 313 (emphasis omitted). The Individual Ofﬁcers then
address each of the Plaintiffs’ two arguments for liability—that the Individual Ofﬁcers owed a special duty
because they promised to protect the Plaintiffs and
that the Individual Ofﬁcers created the harm posed by
Mr. Lord—as well as their views that the Individual
Ofﬁcers’ activity did not rise to the level of conscienceshocking behavior and that the Individual Ofﬁcers are

App. 120
entitled to qualiﬁed immunity on the Plaintiffs’ claims.
Id. at 13-25.
1. The Individual Ofﬁcers Did Not Owe
the Plaintiffs a Special Duty
The Individual Ofﬁcers assert that “[i]t is undisputed that no defendant ever made a promise to protect the [P]laintiffs.” Id. at 14. Even if an unidentiﬁed
MSP trooper told Kimberly Irish that MSP would take
care of any trouble in the area, “it is impossible to see
how such a vague statement constitutes a promise”
in light of the Individual Ofﬁcers’ express statements
that they could not provide overnight security to the
Irishes. Id. at 14-15. Additionally, the Individual Ofﬁcers point out that whoever made this statement, he or
she is not one of the defendants in this case, and there
is no evidence in the record that any of the Individual
Ofﬁcers knew this statement had been made. Id. at 15.
“More fundamentally,” in the Individual Ofﬁcers’
opinion, “promises to protect do not give rise to a constitutional duty to protect.” Id. The Individual Ofﬁcers
cite DeShaney v. Winnebago County Department of Social Services, 489 U.S. 189, 197-201 (1989), for the
proposition that the Supreme Court has rejected the
argument that “a ‘special relationship’ is created when
the State is aware that a person is in danger and proclaims its intent to protect the person.” Defs.’ Mot. at
15. Additionally, the Individual Ofﬁcers cite Rivera v.
Rhode Island, 402 F.3d 27, 37-38 (1st Cir. 2005), as
foreclosing liability in the First Circuit “when state

App. 121
actors are aware of a private danger to a person, promise to protect the person, the person relies on the promise, and the state actors fail to keep the promise,
resulting in the person’s death.” Defs.’ Mot. at 15.
2. The Individual Officers Are Not Liable
Under a State-Created Danger Theory
The Individual Ofﬁcers begin by noting that the
First Circuit has discussed the possible existence of the
state-created danger theory, though it has never found
it applicable to a particular set of facts. Id. at 16 (citing
Irish, 849 F.3d at 526). While assuming that “the First
Circuit is prepared to recognize the state-created danger theory,” the Individual Ofﬁcers assert that “it applies only if, among other things, state actors have
taken afﬁrmative acts to create or exacerbate the danger posed by third parties.” Id. (citing Ramos-Piñero v.
Puerto Rico, 453 F.3d 48, 55 n.9 (1st Cir. 2006) and
Rivera, 402 F.3d at 35). Here, “the only possible afﬁrmative act is the voice mail message Perkins left for Lord
on July 16, 2015. . . .” Id.
In the Individual Ofﬁcers’ view, there “is no evidence in the record upon which a trier of fact could reasonably conclude that the message [from Perkins] was
the trigger” for Lord’s violent acts, id.; however, even if
this were not the case, the message is “not the kind of
afﬁrmative action that can form the basis of a statecreated danger claim” because “police do not violate
principles of substantive due process when they . . .
proceed with their investigations” despite the fact that

App. 122
a victim or witness might face some risk, and leaving
the voicemail message was merely a step in Perkins’
and Fowler’s investigation. Id. at 17-18. In light of this,
the Individual Ofﬁcers state that “[t]he basis for the
First Circuit’s conclusion [in Irish v. Maine] that further facts [were] needed to determine [whether the
state-created danger theory applies] is not clear,”
though it may be that the First Circuit “determined
that whether a law enforcement tool can form the basis
for a state-created danger claim depends to some extent on whether the tool was reasonably used.” Id. at
18. The Individual Ofﬁcers state that they “do not
agree with that proposition, [but] the undisputed facts
demonstrate that it was entirely reasonable for the
[D]efendants to leave a message for Lord,” id., and then
go through the ways in which the discovery process has
shown that the Individual Ofﬁcers acted reasonably
and that various of the First Circuit’s questions in
Irish have been answered. Id. at 18-21.
3. The Individual Ofﬁcers Did Not Engage in Conscience-Shocking Behavior
The Individual Ofﬁcers state that “[a]ssuming for
the sake of argument that the voice mail message
could form the basis for a substantive due process
claim, plaintiffs still must show that the defendants’
conduct was ‘so egregious as to shock the conscience.’ ”
Id. at 22 (quoting Pagán v. Calderón, 448 F.3d 16, 32
(1st Cir. 2006)). In the Individual Ofﬁcers’ view, “[t]here
is no evidence in the record from which a factﬁnder
could reasonably ﬁnd that defendants’ conduct shocks

App. 123
the conscience,” as “[t]he burden to show state conduct
that ‘shocks the conscience’ is extremely high. . . .”
Id. (quoting J.R. v. Gloria, 593 F.3d 73, 80 (1st Cir.
2010)).
According to the Individual Ofﬁcers, while “it
might shock the conscience if a police ofﬁcer contacted
a suspect and advised him that a speciﬁc person had
made criminal allegations against him after the accuser had told the ofﬁcer to not contact the suspect because it might result in harm to the accuser or her
children. . . . those are not the facts here.” Id. at 22-23.
Additionally, the Individual Ofﬁcers argue they had no
duty to provide protection to Brittany Irish, so their
declination of her request for protection cannot be conscience-shocking. Id. at 23.
4. The Individual Officers Are Entitled
to Qualified Immunity
Lastly, the Individual Officers argue that “[e]ven
if [the P]laintiffs could establish a substantive due
process claim, the defendants would be entitled to
qualiﬁed immunity.” Id. They say that “if there was a
violation [of the Plaintiffs’ substantive due process
rights], the law was not clearly established, and the
defendants are thus entitled to qualiﬁed immunity” because “neither the Supreme Court nor the First Circuit
has ever applied the state-created danger theory or
held that promises of protection give rise to a constitutional duty.” Id. at 24-25.

App. 124
B. The Plaintiffs’ Opposition
The Plaintiffs assert that the Individual Ofﬁcers
have not met their burden on a summary judgment
motion, as the Plaintiffs “submit admissible evidence
of disputed material facts concerning promises, false
statements, and knowing violations of [MSP] policy
and training” by the Individual Ofﬁcers. Pls.’ Opp’n at
1. The Plaintiffs allege that the Individual Ofﬁcers
“created and exacerbated the danger” posed by Mr.
Lord “under a state-created danger theory” and point
out that the Plaintiffs “deny twenty-two of [the statements in the DSMF]; qualify another ﬁfty-two, and
submit evidence creating genuine disputes as to twentytwo of the points of interest raised by the First Circuit. . . .” Id. The Plaintiffs state that the Individual
Ofﬁcers “made both signiﬁcant material omissions and
admissions” and “incorporated rank hearsay” in the
DSMF. Id. at 2. The remainder of the Plaintiffs’ brief is
split into a “Fact Argument” section and a “Legal Argument” section.
1. Fact Argument
a. New Developments
The Plaintiffs draw the Court’s attention to State
v. Lord, 2019 ME 82, 208 A.3d 781, an opinion in which
the Law Court “re-states the facts to which [Lord]
agreed when he plead[ed] guilty to ‘two murders and a
dozen other crimes.’ ” Pls.’ Opp’n at 3 (quoting Lord,
2019 ME 89 ¶ 1, 209 A.3d 109). The Plaintiffs quote the
Law Court’s statement that “prior to the events in

App. 125
issue, Lord’s former girlfriend had reported criminal
conduct by Lord toward her.” Id. (emphasis omitted)
(quoting Lord, 2019 ME 89 ¶ 4, 209 A.3d 109). Therefore, the Plaintiffs view the question of whether Mr.
Lord knew of Brittany Irish’s report prior to committing his various crimes on the evening of July 16 and
morning of July 17 as a genuine issue of material fact.
Id. at 3-4.
b. The Individual Ofﬁcers Created
or Exacerbated the Danger Posed
by Anthony Lord in Two Independent Ways
The Plaintiffs make two arguments that the Individual Ofﬁcers created or exacerbated the danger
posed by Mr. Lord: ﬁrst, through the voicemail Detective Perkins left for Mr. Lord, and second, through violations of MSP policy, standards, and training. Id. at 4.
i. Anthony Lord Knew Micah
Perkins’ Voicemail Related to
Brittany Irish, and That Voicemail Caused His Violence
The Plaintiffs assert that at least four facts
“show that Lord knew [Perkins’] voicemail was about
[Brittany] Irish; that [the Individual Ofﬁcers] could
foresee this; that, as soon as Lord received [Perkins’]
voicemail, he made a threat that someone was going to
die;” and that Brittany Irish’s request for protection
was proven to be logical by Mr. Lord’s subsequent

App. 126
violent actions. Id. at 4-5. According to the Plaintiffs,
these facts create genuine disputes over issues of material fact. Id. at 4.
ii. The Individual Officers Violated Maine State Police Policy,
Training, and Standards
The Plaintiffs argue that even if the Individual Ofﬁcers “could establish that Lord thought [Perkins’]
voicemail was not about [Brittany] Irish,” the Individual Ofﬁcers still “independently caused or exacerbated
the danger that Lord posed . . . through [their] violations of MSP policy, MSP training, and MSP standards.” Id. at 5. The Plaintiffs then outline the various
ways in which they believe the Individual Ofﬁcers violated policy, training, and standards of the MSP.
I.

Violations of M-4 and the
Related Statute

The Plaintiffs quote section 4012(6) of Title 19-A
of the Maine Revised Statutes, which requires that “a
law enforcement ofﬁcer [who] has reason to believe
that a family or household member has been abused
. . . shall immediately use all reasonable means to prevent further abuse” through various methods, a nonexclusive list of which follows in subsections. Id. at 5-6
(emphasis omitted) (quoting 19-A M.R.S. § 4012(6)).
The Plaintiffs then assert that the MSP created M-4 in
response to this statute and they outline the policy. Id.
at 6. The Plaintiffs say that the evidence establishes

App. 127
that the Individual Ofﬁcers knew of section 4012(6),
M-4, and the overarching rule of reasonableness that
applies to ofﬁcers’ actions and acted to disregard them.
Id. at 7-8.
II. Manner of Contacting Anthony Lord
The Plaintiffs make three separate but related arguments about the voicemail Detective Perkins left for
Mr. Lord. The ﬁrst is that the voicemail was a premature step in the investigation, as the Individual Ofﬁcers knew that “the best time to contact a suspect is
when the investigation is at its end, with all facts in
order,” yet “multiple investigative facts were not in order” at the time Detective Perkins left a voicemail for
Mr. Lord. Id. at 8. The Plaintiffs argue that this step
constituted a violation by the Individual Ofﬁcers of
their training and the MSP’s rule of reasonableness.
Id.
The second argument is that MSP trains its ofﬁcers that four options for contacting suspects exist and
that the proper option is based on an evaluation of several factors, and yet the Individual Ofﬁcers did not conduct this analysis but rather chose to call Mr. Lord for
reasons of “efﬁciency.” Id. at 10. In the Plaintiffs’ view,
this was a violation of MSP training and the rule of
reasonableness and created “an independent path to
state-created danger, separate from the path created
by the totality of the other dozens of violations [the

App. 128
Individual Ofﬁcers] ma[de] with deliberate indifference.” Id. at 10-11.
The third argument the Plaintiffs make related to
the voicemail is that the Individual Ofﬁcers, “by training and [the rule of reasonableness], knew they had to
go ﬁnd Lord, but [they] repeatedly decided not to do
this required act.” Id. at 11. The Plaintiffs argue that
these decisions were a violation of MSP training and
the rule of reasonableness because “[e]ventually an
ofﬁcer may reach out by phone, but only if the phone is
an ofﬁcer’s only avenue.” Id.
III. Promises and Related False
Statements
The Plaintiffs contend that the Individual Ofﬁcers
“by law, training, and [the rule of reasonableness],
knew not to make promises or false statements to
Brittany Irish or Kimberly Irish,” and yet made statements and took actions that both implicitly and explicitly led the Irishes to the false impression that they
had been promised protection. Id. at 9-10. Additionally,
the Plaintiffs assert that the Individual Ofﬁcers’ statement to Brittany Irish that “there was no manpower
available” was false. Id. at 9.
IV. Failure to Ascertain Suspect Risk and Propensity
for Recidivism
The Plaintiffs assert that, whether or not required
to use the ODARA tool, the Individual Ofﬁcers knew,

App. 129
based on MSP policy and training, that “they had to
determine Lord’s danger to [Brittany] Irish and others
. . . but they repeatedly decided not to do this required
act.” Id. at 11. Even assuming ODARA was not the
proper tool, the Individual Ofﬁcers “knew how to assess risk and recidivism from other MSP training, and
[they] knew that they still had to do it.” Id. at 12. The
Plaintiffs argue that the Individual Ofﬁcers’ failure to
conduct such an assessment constituted a violation of
MSP training and policy. Id.
V.

Failure to Believe Brittany
Irish

The Plaintiffs represent that, based on MSP training and policy, the Individual Ofﬁcers “knew they were
required to believe [Brittany] Irish, as a rape and domestic violence . . . victim for investigative purposes,
but . . . repeatedly decided to violate this requirement.”
Id. The Individual Ofﬁcers “quickly and subjectively
judged [Brittany] Irish as not credible” despite the fact
that “[Brittany] Irish was providing [them] with objectively credible and corroborated facts. . . .” Id. The
Plaintiffs argue “[i]t is a reasonable inference from the
above facts that [the Individual Ofﬁcers] decided, early
on, to focus on proving that [Brittany] Irish was not
credible, rather than investigating Lord, or his danger
potential, or dedicating resources to ﬁnding him,” and
this was a violation of MSP policy and training. Id. at
12-13.

App. 130
VI. Failure to Help Brittany
Irish Obtain Protection from
Abuse Order
The Plaintiffs state that “at the very minimum,”
according to Director Rogers, the MCJA’s 30(b)(6) designee, an MSP ofﬁcer who contacts a suspect then has
an obligation under domestic violence policies to explain to the victim how to obtain a protection from
abuse order. Id. at 13. The Plaintiffs assert that the Individual Ofﬁcers “ignored this requirement. . . .” Id.
VII. Failure to Respond Reasonably to Investigation
Information
The Plaintiffs argue that the Individual Ofﬁcers
knew, due to MSP training and policy, that “they had
to respond reasonably as the forty-one hour investigation developed” but “repeatedly decided to ignore this
basic MSP requirement.” Id. These failures to respond
reasonably, in the Plaintiffs’ view, include the Individual Ofﬁcers’ repeated decisions not to run a criminal
background check or look into Mr. Lord’s probation status, id. at 13-14, their repeated decisions to ignore evidence of serious threats by Mr. Lord, id. at 14-15, and
their decision to interview non-eyewitnesses to focus
their investigation on Brittany Irish rather than Mr.
Lord. Id. at 15-16.

App. 131
VIII. Decisions Not to Actively
Develop Probable Cause
The Plaintiffs contend that the Individual Ofﬁcers
are “required [by MSP policy and training] to actively
develop probable cause in domestic violence scenes and
investigations; yet, they did not do this for several
crimes relating to Lord. . . .” Id. at 16. According to the
Plaintiffs, the Individual Ofﬁcers “did not relay the
conﬁrmed evidence of breaking and entering at the
ﬁrst camp [in Benedicta] . . . up the MSP chain of command, causing that arrest opportunity to be squandered” and “did not develop probable cause as to the
‘plethora’ of [domestic violence] crimes” that can be
charged in domestic violence cases. Id. “Separately . . . ,
when [the Individual Ofﬁcers] left the voicemail for
Lord, [they] still had not devoted investigative efforts
to developing probable cause as to [Brittany] Irish’s allegations of kidnapping, strangulation, and gross sexual assault, because Defendants had not yet tried to
develop multiple facts, leads, and crime scenes.” Id.
2. Legal Argument
The Plaintiffs organize their legal argument into
three subparts: (1) that the elements for a state-created danger are met; (2) that the Individual Ofﬁcers’
actions shocked the conscience; and (3) that the Individual Ofﬁcers are not entitled to qualiﬁed immunity.

App. 132
a. The Elements of a State-Created
Danger Theory Are Met
The Plaintiffs analyze four elements of a statecreated danger theory which they suggest should guide
the Court’s analysis, noting that “[w]hile it is an open
question in this Circuit, other circuits have used four
elements, some with multiple prongs, to analyze statecreated danger.” Id. at 16-17. The Plaintiffs state that
they conduct their analysis “in light of both (1) [the
Individual Ofﬁcers’] voicemail to Lord, and (2) the totality of [the Individual Ofﬁcers’] other multiple violations of the [domestic violence] protection statute and
M-4[,] many of them knowingly and repeatedly made.”
Id. at 17.
The first factor is that the “harm ultimately
caused was foreseeable and fairly direct.” Id. The
Plaintiffs suggest that this prong has been met because “[Brittany] Irish had communicated to [the Individual Ofﬁcers] in writing and orally, at least four
times prior to and immediately after” the voicemail
message to Mr. Lord, “that Lord had made nine
threats,” including multiple death, torture, and abduction threats against Brittany Irish, her children, and
Hewitt, as well as a retaliation threat. Id. Within hours
of receiving Detective Perkins’ voicemail, Mr. Lord followed through on these threats. Id. Therefore, the
Plaintiffs believe that Mr. Lord’s violent acts were
fairly directly precipitated by the voicemail and also a
foreseeable result. Id.

App. 133
The second factor the Plaintiffs identify is that a
state actor acted with a degree of culpability that
shocks the conscience. Id. at 18. The Plaintiffs argue
that “the sheer volume and repetition of the violations,
combined with . . . the uniformly deliberately indifferent manner in which Defendants made them (slowly,
purposefully, knowingly, and in collaboration with each
other, over forty-one hours) constitutes more than just
culpability; it does shock the conscience.” Id. The Plaintiffs further assert that it is shocking to the conscience
that “instead of investigating Lord, and ascertaining
and containing his danger, and instead of protecting
[Brittany] Irish as required by the mandatory M-4 policy, Defendants were trying to delay action on Lord in
order to build a ‘false report’ case against [Brittany]
Irish. . . .” Id. (emphasis omitted). Additionally, the
Plaintiffs argue it shocks the conscience that “the indifference shown by [the Individual Ofﬁcers] . . . continued even as the evidence of danger to [Brittany]
Irish became more obvious,” and that the Individual
Ofﬁcers made “false statements about manpower” “and
misle[d] the Irishes.” Id.
The third factor raised by the Plaintiffs is “[a] relationship between the state and plaintiff, so plaintiff
was a foreseeable victim of the defendant[s’] acts, not
a member of the public in general.” Id. at 19. The Plaintiffs argue this relationship exists here because the Individual Ofﬁcers “had an ongoing mandatory duty
under the MSP M-4 policy, to protect [Brittany] Irish.”
Id. “In addition to violating their legal requirement
to [Brittany] Irish . . . , [the Individual Officers]

App. 134
afﬁrmatively put [Brittany] Irish in a far worse place”
through the voicemail message to Lord. Id.
The fourth and ﬁnal factor suggested by the Plaintiffs is that “[a] state actor afﬁrmatively used authority
in a way that created a danger to the citizen or that
rendered the citizen more in danger than had the state
not acted.” Id. The Plaintiffs assert that this prong is
met because the Individual Ofﬁcers “favor[ed] Lord
and disfavor[ed Brittany] Irish through their dozens of
investigative violations,” provoked him by leaving the
voicemail message, “enabl[ed] him” by not using law
enforcement tools against Lord for forty-one hours, and
then “abandoned the Irishes” because of a false claim
that the MSP had no manpower to provide security. Id.
at 19-20. The Plaintiffs assert that the Individual Ofﬁcers acknowledged that their investigation led to the
events that culminated in Lord’s violent acts. Id. at 20.
The Plaintiffs also engage in an alternative analysis of this fourth factor “focused more heavily on the
cumulative totality of [the Individual Officers’] violations, rather than just [the Individual Officers’]
voicemail,” arguing that by failing to act on probable
cause that the Individual Ofﬁcers were aware of or
learn about Lord’s criminal history or probation status,
and instead “afﬁrmatively” delaying the investigation
and making promises to the Irishes which kept them
in the “danger zone,” the Individual Ofﬁcers “committed multiple violations of law, policy and training,
many of them knowingly and ﬂagrantly, establishing
culpability and shocking the conscience.” Id. at 21-22.
The Plaintiffs contend that the Individual Ofﬁcers

App. 135
“misapprehend Rivera,” by “claiming, in their brief,
that necessary law enforcement tools cannot impose
constitutional liability on the state.” Id. at 22. In the
Plaintiffs’ view, this is incorrect, and the manner and
timing of these tools’ deployment can create liability.
Id.
b. Shocking the Conscience/Deliberate
Indifference
The Plaintiffs note that deliberately indifferent
behavior may satisfy the “shock the conscience” standard. Id. at 22-23. They next assert that, having offered
“over ﬁfty violations of law, policy, training, and the
reasonableness default rule of the MSP,” it is clear
from the “sheer volume and repetition of violations
that occurred, and [the Individual Ofﬁcers’] manifest
unwillingness to revisit or mitigate any of them, and
the number of hours that [they] had available to them,
but misused,” the Plaintiffs have satisﬁed the deliberate indifference standard. Id. at 23. The Plaintiffs argue that “the law of the First Circuit and the roadmap
provided by that Court in Irish v. State clearly disfavors summary judgment given the multiple issues of
material fact that have been exposed in this response,”
and that “[a] jury should be allowed to evaluate the Defendants’ conduct. . . .” Id. at 24.
c. Qualified Immunity
The Plaintiffs emphasize their allegation that
the Individual Ofﬁcers “violated their Fourteenth

App. 136
Amendment right to substantive due process by placing them in a known danger with deliberate indifference to their personal physical safety,” arguing that
the state-created danger theory falls within the “well
established” idea that “the Constitution protects a citizen’s liberty interest in his/her own bodily security.”
Id. at 24. The Plaintiffs point out that M-4 has “existed
since November 2003 and its most recent iteration was
adopted January 6, 2014, i.e., eighteen months before
the Lord rampage.” Id. at 25. “Likewise, the latest version of 19-A M.R.S.A. sec. 4012 was adopted in 2011.”
Id. The Plaintiffs represent that “ofﬁcer decisions and
acts that violate protocol and/or training may be sufﬁcient to deny qualiﬁed immunity to ofﬁcers.” Id. (citing
Irish, 849 F.3d at 527). The Plaintiffs state that “[n]o
reasonable ofﬁcer in the position of Defendants, knowing what they knew and what they must be charged
with knowing, would have placed [Brittany] Irish in
such obvious danger.” Pls.’ Opp’n at 25-26.
C. The Individual Officers’ Reply
The Individual Officers argue that many of the
denials and qualiﬁcations made by the Plaintiffs are
improper, and that “the material facts about which
there is no legitimate dispute demonstrate that [the
Individual Ofﬁcers] are entitled to summary judgment.” Defs.’ Reply at 1 (emphasis omitted). The Individual Ofﬁcers list and explain many of what they
term the “unnecessary complications caused by plaintiffs’ improper denials and qualiﬁcations of the defendants’ facts,” asserting that “the Court should deem

App. 137
admitted all of [the Individual Ofﬁcers’] statements
that [the P]laintiffs have improperly denied or qualiﬁed.” Id. at 3-14.
The remainder of the Individual Ofﬁcers’ reply
lays out the ways in which, “while there are some
disputed facts, none of them is material and [the Individual Ofﬁcers] are entitled to summary judgment.” Id.
at 14. With respect to when Brittany Irish reported
Mr. Lord’s retaliation threat to Detectives Perkins
and Fowler, the Individual Ofﬁcers argue that she is
attempting to “muddy the waters” through (1) mischaracterizations of her deposition testimony and (2) a
later-submitted affidavit that contradicts her deposition testimony. Id. at 14-15. However, in the Individual Officers’ view, “[e]ven if [her] statements were
considered, it would not matter” because Brittany Irish
“did not ask Perkins and Fowler to refrain from contacting Lord until after Perkins left a voicemail message for Lord.” Id. at 16. The Individual Ofﬁcers also
argue that leaving a voicemail message did not violate
training, standards, or policies of the MSP. Id. at 17.
They state that even if the best time to contact a suspect is at the end of an investigation, this is not a
requirement, and the Plaintiffs are “blatantly misrepresenting the record” when they assert that contacting
a suspect before the end of an investigation is a policy
or training violation. Id.
The Individual Ofﬁcers then contend that the
Plaintiffs are incorrect that M-4 and section 4012 give
rise to a constitutional duty to protect, arguing that
“not even plaintiffs’ expert appears to believe that the

App. 138
M-4 policy required defendants to provide protection
at the Irish house,” and that even if the Individual Ofﬁcers did violate M-4 or section 4012, “[s]ection 1983
applies only to violations of rights secured by federal
law.” Id. at 18-19. According to the Individual Ofﬁcers,
“[i]n the absence of a violation of federal law, plaintiffs
cannot premise their Section 1983 claim on the theory
that defendants violated state law or policy.” Id. at 19.
Furthermore, the Individual Ofﬁcers suggest that “the
violation of state law or policy” would not “deprive the
[Individual Ofﬁcers] of qualiﬁed immunity or form the
basis for a state-created danger claim,” discussing the
First Circuit’s decision in Soto v. Flores, 103 F.3d 1056
(1st Cir. 1997). Defs.’ Reply at 19-21. Soto is relevant,
in the Individual Ofﬁcers’ view, because “it conﬁrms
that whether defendants violated the M-4 policy or
state law is not relevant to the qualiﬁed immunity
analysis” and “it supports application of qualiﬁed immunity to state-created danger cases in this circuit.”
Id. at 22. The Individual Ofﬁcers reiterate that the
First Circuit has never found the state-created danger
theory applicable to “any speciﬁc set of facts.” Id. (quoting Irish, 849 F.3d at 526).
The Individual Ofﬁcers refute the Plaintiffs’ claim
that they “were required by policy and training to conduct an ODARA assessment of Lord” by stating that
“[t]he uncontroverted evidence in the record is that an
ODARA assessment is conducted only after an arrest
decision is made.” Id. The Individual Ofﬁcers state that
the Plaintiffs are wrong to allege that the Individual
Officers were required to believe Brittany Irish,

App. 139
arguing that the record “supports only the proposition
that ofﬁcers are trained to be ‘careful’ of being skeptical of what a victim says. . . .” Id. at 23. Even if this
were not the case, according to the Individual Ofﬁcers,
“a negligent investigation does not give rise to a substantive due process claim.” Id. The Individual Ofﬁcers
also believe that there is no record support for the
Plaintiffs’ claim that training or policy suggests the Individual Ofﬁcers should have run a criminal background check or discovered Mr. Lord’s probation status
earlier, and they make the same objection to the Plaintiffs’ claim that the Individual Ofﬁcers should not have
taken so many steps to investigate Brittany Irish’s
credibility. Id. Moreover, in the Individual Ofﬁcers’
view, they “conducted the investigation under the assumption that what B[rittany] Irish said was true.” Id.
The Individual Ofﬁcers conclude by stating that
“[i]n vacating dismissal of this case, the First Circuit’s
primary concern was apparently about the extent to
which defendants violated ‘established police protocol
or training’ when they decided to contact Lord by telephone.” Id. at 24. This concern, the Individual Ofﬁcers
believe, has been addressed through discovery, which
has shown that “leaving a voicemail message for Lord
did not violate any established police protocol or training,” and “in any event, the undisputed facts demonstrate that it was not unreasonable for defendants to
contact Lord by phone.” Id. Additionally, while “[n]either policy nor law required defendants to post a guard
at the Irish’s house,” it would not matter even if this
were not the case because “[t]here is no constitutional

App. 140
duty to protect a person from private harm, and such
a duty cannot be created by a state law or policy,” “[n]or
do promises of protection create a duty, and, in any
event, no defendant ever made such a promise.” Id. at
25.
IV. LEGAL STANDARD
A grant of summary judgment is proper when “the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). “Genuine
issues of fact are those that a factﬁnder could resolve
in favor of the nonmovant, while material facts are
those whose ‘existence or nonexistence has the potential to change the outcome of the suit.’ ” Green Mountain Realty Corp. v. Leonard, 750 F.3d 30, 38 (1st Cir.
2014) (quoting Tropigas de Puerto Rico, Inc. v. Certain
Underwriters at Lloyd’s of London, 637 F.3d 53, 56 (1st
Cir. 2011)).
Once the moving party “has made a preliminary
showing that there is no genuine issue of material fact,
the nonmovant must ‘produce speciﬁc facts, in suitable
evidentiary form, to . . . establish the presence of a
trialworthy issue.’ ” McCarthy v. City of Newburyport,
252 Fed. App’x 328, 332 (1st Cir. 2007) (alteration in
original) (quoting Triangle Trading Co. v. Robroy Indus., Inc., 200 F.3d 1, 2 (1st Cir. 1999)). The nonmoving
party must show “ ‘enough competent evidence’ to enable a factﬁnder to decide in its favor on the disputed
claims.” Carroll v. Xerox Corp., 294 F.3d 231, 237 (1st

App. 141
Cir. 2002) (quoting Goldman v. First Nat’l Bank of Bos.,
985 F.2d 1113, 1116 (1st Cir. 1993)). The Court then
“views the facts and draws all reasonable inferences in
favor of the nonmoving party,” Ophthalmic Surgeons,
Ltd. v. Paychex, Inc., 632 F.3d 31, 35 (1st Cir. 2011),
while disregarding “[c]onclusory allegations, improbable inferences, acrimonious invective, or rank speculation.” Mancini, 909 F.3d at 38 (1st Cir. 2018) (quoting
Ahern v. Shinseki, 629 F.3d 49, 54 (1st Cir. 2010)).
V.

DISCUSSION

The Court views this motion for summary judgment as turning on: (1) whether the Plaintiffs suffered
a substantive due process violation due to the actions
of the Individual Ofﬁcers; (2) “whether a rational jury
could say” that the Individual Ofﬁcers’ actions were
“conscience-shocking,” Boveri v. Town of Saugus, 113
F.3d 4, 7 (1st Cir. 1997); see also McConkie v. Nichols,
446 F.3d 258, 259 (1st Cir. 2006) (afﬁrming the district
court “on the ground that no reasonable factﬁnder
could ﬁnd that [the defendant’s] conduct was conscience-shocking”); and (3) whether the Individual
Ofﬁcers are entitled to qualiﬁed immunity on the
Plaintiffs’ claims. The Court addresses each in turn.
A. Substantive Due Process
“The due process guarantees of the Fourteenth
Amendment forbid the State itself from depriving a
person of life, liberty, or property, without due process
of laws.” Rivera, 402 F.3d at 33. “In order to establish a

App. 142
substantive due process claim, the plaintiff must ﬁrst
show a deprivation of a protected interest in life, liberty, or property.” Id. at 33-34. “Second, the plaintiff
must show that the deprivation of this protected right
was caused by governmental conduct. That is easily
met when a government actor causes the injury, such
as when police ofﬁcers act under color of law.” Id. at 34.
However, “[i]t is much more difﬁcult when the person
who inﬂicts the injury is a private person,” though
“there are possible scenarios of government involvement with a private individual which amount to government conduct. . . .” Id.
“[A]s a general matter, ‘a State’s failure to protect
an individual against private violence simply does not
constitute a violation of the Due Process Clause.’ ” Id.
(quoting DeShaney, 489 U.S. at 197). This principle is
not absolute: “[I]n situations in which there is a ‘special
relationship,’ an afﬁrmative, constitutional duty to
protect may arise when the state ‘so restrains an individual’s liberty that it renders him unable to care for
himself, and at the same time fails to provide for his
basic human needs.’ ” Id. (quoting DeShaney, 489 U.S.
at 200). “The Supreme Court also suggested, but never
expressly recognized, the possibility that when the
state creates the danger to an individual, an afﬁrmative duty to protect might arise. . . .” Id. at 34-35.
The threshold question, therefore, is whether the
Plaintiffs have shown a deprivation of a constitutionally protected interest. While the Individual Ofﬁcers
have not challenged the idea that the Plaintiffs suffered such a deprivation, the answer, at least at the

App. 143
summary judgment stage, is a clear yes. Mr. Lord
killed Kyle Hewitt, shot Kimberly Irish, and abducted
Brittany Irish. The First Circuit has indicated that loss
of life is a protected interest. Id. at 34 (“The complaint
alleges that Jennifer was caused to be deprived of her
life, a protected interest”). Personal injury, similarly,
may constitute a deprivation of a liberty interest. See
Bordanaro v. McLeod, 871 F.2d 1151, 1155 n.4 (1st Cir.
1989) (“This circuit has recognized that the use of
excessive or unreasonable force or violence by law
enforcement personnel resulting in personal injury
deprives a person of liberty without due process of
law in violation of the fourteenth amendment”) (citing
Voutour v. Vitale, 761 F.2d 812, 818 (1st Cir. 1985)).147
Lastly, although there is no First Circuit law directly
on point, abduction would seem an obvious deprivation
of liberty.
The second question, then, is whether “the deprivation of this protected right was caused by governmental conduct.” Rivera, 402 F.3d at 34. The Court
views the Plaintiffs as having laid out two theories for
connecting the actions of the Individual Ofﬁcers to the
deprivation of these rights: ﬁrst, that the voicemail the
Individual Ofﬁcers left for Mr. Lord exacerbated the
danger faced by the Plaintiffs; and second, that various
147

The Court regards the state-created danger claim here as
roughly paralleling an excessive force claim. The Plaintiffs are alleging that they were subjected to injury by the actions of the Individual Ofﬁcers, and neither the Plaintiffs nor the Individual
Ofﬁcers allege that there is any countervailing governmental interest that the Court must weigh against the Plaintiffs’ injury in
determining whether they suffered a violation of their rights.

App. 144
violations of training and policy by the Individual Ofﬁcers (including the voicemail) in the aggregate exacerbated the danger faced by the Plaintiffs. Pls.’ Opp’n
at 4-5. Both theories are founded on the doctrine of
state-created danger.148

148

The First Circuit has not yet adopted or set out a test for
a state-created danger theory, so the Court evaluates the tests
put forward by its sister circuits. As the Plaintiffs note, the elements of a state-created danger claim in the Third Circuit are:
(1) the harm ultimately caused was foreseeable and
fairly direct;
(2) a state actor acted with a degree of culpability that
shocks the conscience;
(3) a relationship between the state and the plaintiff
existed such that the plaintiff was a foreseeable victim
of the defendant’s acts, or a member of a discrete class
of persons subjected to the potential harm brought
about by the state’s actions, as opposed to a member of
the public in general; and
(4) a state actor afﬁrmatively used his or her authority in a way that created a danger to the citizen or that
rendered the citizen more vulnerable to danger than
had the state not acted at all.
Sanford v. Stiles, 456 F.3d 298, 304-05 (3d Cir. 2006); see also
Pls.’ Opp’n at 17-20.
This test is similar to the one used by the Sixth Circuit, which
requires that a plaintiff seeking application of the theory establish:
(1) afﬁrmative acts by the state that “create or increase the risk that an individual will be exposed to
private acts of violence;”
(2) that the state’s actions placed the victim “speciﬁcally at risk, as distinguished from a risk that affects
the public at large;” and

App. 145

(3) that the state knew or “clearly should have known
that its actions speciﬁcally endangered an individual.”
Estate of Barnwell by S.C.B. v. Grigsby, 681 Fed. App’x 435, 443
(6th Cir. 2017) (quoting Peete v. Metro. Gov’t of Nashville and
Davidson Cty., 486 F.3d 217, 223 (6th Cir. 2007)).
In the Seventh Circuit, a plaintiff must show three things:
(1) that the state . . . by its afﬁrmative acts, created
or increased a danger that [the victim] faced;
(2) that [the state’s] failure to protect [the victim]
from danger was the proximate cause of her injury; and
(3) that [the state’s] failure to protect [the victim]
shocks the conscience.
D.S. v. E. Porter Cty. Sch. Corp., 799 F.3d 793, 798 (7th Cir. 2015).
The Tenth Circuit requires a plaintiff to “meet all elements
of a six-part test”:
(1) the charged state entity and the charged individual actors created the danger or increased plaintiff ’s
vulnerability to the danger in some way;
(2) plaintiff was a member of a limited and speciﬁcally deﬁnable group;
(3) defendant[‘s] conduct put plaintiff at substantial
risk of serious, immediate, and proximate harm;
(4) the risk was obvious or known;
(5) defendants acted recklessly in conscious disregard
of that risk; and
(6) such conduct, when viewed in total, is conscience
shocking.
Estate of B.I.C. v. Gillen, 710 F.3d 1168, 1173 (10th Cir. 2013)
(quoting Christiansen v. City of Tulsa, 332 F.3d 1270, 1281 (10th
Cir. 2003)).
The Eighth and Ninth Circuits are also in general accord. See
Hernandez v. City of San Jose, 897 F.3d 1125, 1133 (9th Cir. 2018)
(requiring a plaintiff seeking to apply the state-created danger
theory to show that a government employee “afﬁrmatively
place[d] the plaintiff in a position of danger” through an afﬁrmative act which “create[d] an actual, particularized danger, and the

App. 146

ultimate injury to the plaintiffs must be foreseeable,” in addition
to showing that “[t]he employees . . . acted with deliberate indifference to a known or obvious danger” (internal citations omitted)
(internal quotation marks omitted)); Fields v. Abbott, 652 F.3d
886, 891 (8th Cir. 2011) (stating that to succeed on a state-created
danger theory, a plaintiff “must prove (1) that she was a member
of ‘a limited, precisely deﬁnable group,’ (2) that the municipality’s
conduct put her at a ‘signiﬁcant risk of serious, immediate, and
proximate harm,’ (3) that the risk was ‘obvious or known’ to the
municipality, (4) that the municipality ‘acted recklessly in conscious disregard of the risk,’ and (5) that in total, the municipality’s conduct ‘shocks the conscience’ ” (quoting Hart v. City of
Little Rock, 432 F.3d 801, 805 (8th Cir. 2005))).
The Second, Fourth, and D.C. Circuits appear to view the
theory somewhat differently. In the Second Circuit, liability will
lie on a state-created danger theory where the state has “afﬁrmatively created or enhanced the danger of private violence”
through either afﬁrmative conduct that encourages violence or
“repeated, sustained inaction by government ofﬁcials, in the fact
of potential acts of violence . . . rising to the level of an afﬁrmative
condoning of private violence, even if there is no explicit approval
or encouragement” of violence by the perpetrator. Okin v. Vill. of
Cornwall-on-Hudson Police Dep’t, 577 F.3d 415, 428 (2d Cir.
2009). In the Fourth Circuit, “a plaintiff must show that the state
actor created or increased the risk of private danger, and did so
directly through afﬁrmative acts, not merely through inaction or
omission.” Doe v. Rosa, 795 F.3d 429, 439 (4th Cir. 2015). In the
District of Columbia, the analysis is in two parts: “(1) has there
been an afﬁrmative act by Defendants to create or increase the
danger that resulted in harm to Plaintiffs and, if so, (2) does that
act shock the conscience?” Briscoe v. Potter, 355 F. Supp. 2d 30,
43 (D.D.C. 2004) (stating the test for “the theory of State Endangerment” “in light of ” Butera v. District of Columbia, 235 F.3d 637
(D.C. Cir. 2001)).
The Second Circuit test appears to be an outlier in requiring
condonation of violence—whether implicit or explicit—by the
state before liability arises. The most common test, in the Court’s
analysis and as the Plaintiffs assert, Pls.’ Opp’n at 17, appears
to be variations of the elements laid out by the Third Circuit.

App. 147
1. The Voicemail
The Plaintiffs’ argument on this issue can be summarized as follows: Before the Individual Ofﬁcers left
a voicemail for Mr. Lord, Brittany Irish informed them
that Mr. Lord had threatened her and her children
with violence if she went to the police about his rape of
her. PSAMF ¶¶ 153, 159; see also footnote 30, supra.
Knowing of these threats, the Individual Officers
called and left a voicemail message for Mr. Lord anyway. DSMF ¶ 64; PSAMF ¶ 189. Whether immediately
or soon thereafter, Mr. Lord ﬁgured out that the
voicemail message was related to Brittany Irish and
ﬂew into a rage, stating that someone was going to die
that night, assumedly by his hand. DSMF ¶¶ 67-68, 86;
PSAMF ¶¶ 207, 212; see also footnote 68, supra. Informed of this renewed threat, the Individual Ofﬁcers
refused Brittany Irish’s request for protection. Pls.’
Opp’n at 4-5, 20. Following this refusal, Mr. Lord carried out his threat, inﬂicting signiﬁcant harm on the
Plaintiffs. Id. at 4.
Under the Third Circuit’s test, the Court agrees
with the Plaintiffs that this theory presents triable issues of fact as to whether Detective Perkins’ voicemail
to Mr. Lord created or exacerbated the danger faced by
the Plaintiffs. With regard to foreseeability and directness, Brittany Irish had warned the Individual Ofﬁcers
that Mr. Lord had threatened her and her children
Therefore, for the purposes of evaluating the Plaintiffs’ state-created danger theory on this motion for summary judgment, the
Court adopts the Third Circuit’s test. The Court separately discusses the “shocks the conscience” element of this test.

App. 148
with violence if she went to the police. Additionally, Detective Perkins himself testiﬁed that it is logical (and
therefore foreseeable) for a suspect who committed a
rape to connect the dots between that crime and a call
received from the MSP the next day. PSAMF ¶ 193. Mr.
Lord’s statement that he was going to “kill a fucker,”
made within hours of his receiving the voicemail from
Detective Perkins, id. ¶ 212, gives rise to a powerful
inference that the link between Mr. Lord’s receipt of
the voicemail and his later violence was direct.
Regarding the element of a “relationship between
the state and the plaintiff,” Sanford, 456 F.3d at 304,
the Plaintiffs argue that “the required relationship existed under state statute and MSP policy,” as the Individual Ofﬁcers “had an ongoing mandatory duty under
the MSP M-4 policy[ ] to protect [Brittany] Irish.” Pls.’
Opp’n at 19. They also argue that the Individual Ofﬁcers “afﬁrmatively put [Brittany] Irish in a far worse
place” by leaving the voicemail for Mr. Lord, making
her “a foreseeable victim,” and that the Individual Ofﬁcers “admi[tted] that [Brittany] Irish was in fact worthy of special protection.” Id. The Individual Ofﬁcers
counter that they did not violate M-4 or a state statute,
but that even if they had, a “violation of state law or
policy [cannot] . . . form the basis for a state-created
danger claim.” Defs.’ Reply at 19. For this latter point,
the Individual Ofﬁcers cite the First Circuit’s decision
in Soto, a case decided on qualiﬁed immunity grounds.
Id. at 21-22 (citing Soto, 103 F.3d at 1065).
The Individual Officers misconstrue this element of the state-created danger theory by focusing

App. 149
on whether M-4 or state law “[g]ive [r]ise to a [c]onstitutional [d]uty to [p]rotect.” Def.’s Reply at 18 (emphasis omitted). They are not wrong that neither M-4 nor
state law creates a constitutional duty to protect, but
the focus of the inquiry here is not on a relationship
created by state law. Rather, this element requires only
that “some sort of relationship exist between the state
actor and the plaintiff such that the plaintiff was a
foreseeable victim of the state actor’s conduct,” and not
“a ‘special relationship,’ ” which is a component of “an
entirely separate theory on which to base a substantive due process claim. . . .” L.R. v. Sch. Dist. of Phila.,
836 F.3d 235, 247 and n.57 (3d Cir. 2016). The element
is satisﬁed here because the Individual Ofﬁcers knew
Mr. Lord had threatened Brittany Irish with violence,
knew that Mr. Lord had threatened Kyle Hewitt,
PSAMF ¶¶ 182, 184, and should have known that if
Mr. Lord became violent, close family or friends of Brittany Irish (such as her mother, Kimberly Irish) might
be with her when Mr. Lord found her or could themselves be targets.
The fourth element, an afﬁrmative act that created or exacerbated a danger to the Plaintiffs, Sanford,
456 F.3d at 305, is also met. Leaving the voicemail constituted an afﬁrmative act by Detective Perkins, at
least arguably with Detective Fowler’s assent, and as
the Court has discussed, there is a clear issue of fact as
to whether receipt of the voicemail led to Mr. Lord’s violence. The Individual Ofﬁcers argue that “[s]eeking to
interview an alleged perpetrator of a sexual assault is
. . . a ‘necessary law enforcement tool,’ ” Defs.’ Mot. at

App. 150
18, and that as with taking the witness statement in
Rivera, it “cannot be the basis to impose constitutional
liability on the state.” Id. at 17 (quoting Rivera, 402
F.3d at 37); see also id. at 18 (stating that the Individual Ofﬁcers do not agree that “whether a law enforcement tool can form the basis for a state-created danger
claim[ ] depends to some extent on whether the tool
was reasonably used”).
The Court disagrees with the Individual Ofﬁcers’
broad reading of Rivera as imposing an absolute bar
on imposition of constitutional liability based on law
enforcement tools used in the course of an investigation. It is true that, as in Rivera, the mere fact that the
Individual Ofﬁcers wanted to interview Mr. Lord cannot be the basis for liability, but that is not an accurate
interpretation of the Plaintiffs’ argument. The Plaintiffs seek to impose liability for the act of choosing to
contact Mr. Lord in a particular time, manner, and
context. Pls.’ Opp’n at 22. In Rivera, by contrast, the
plaintiff sought to impose liability for “the state’s two
actions in identifying [the plaintiff ] as a witness and
taking her witness statement in the course of investigating a murder. . . .” 402 F.3d at 37. There, the
plaintiff complained of the use of an investigative
tool; here, the Plaintiffs complain of the manner in
which such a tool was used. The two situations are not
comparable, particularly in light of the First Circuit’s
statement in Irish that the Individual Officers’ similar argument at the motion to dismiss stage “fail[ed]
to take into account the manner in which the officers
tried to interview the suspect—at the very outset of the

App. 151
investigation, before any other precautions had been
taken, and despite being warned by the complainant
about the suspect’s violent tendencies.” 849 F.3d at 526
(emphasis added).
2. Other Violations of MSP Policy,
Training, and Standards
The Plaintiffs argue in the alternative that, “assuming arguendo that [the Individual Ofﬁcers] could
establish that Lord thought [their] voicemail was not
about [Brittany] Irish, [they] independently caused or
exacerbated the danger that Lord posed, speciﬁcally
through” their violations of MSP policy, training, and
standards. Pls.’ Opp’n at 5. Because the Court agrees
with the Plaintiffs that the voicemail alone creates a
triable issue of fact on a state-created danger theory,
the Court need not reach this alternative theory; however, for the sake of completeness, the Court includes a
brief discussion.
The Individual Ofﬁcers’ violations asserted by the
Plaintiffs are: (1) violations of M-4 and state law related to not “us[ing] all reasonable means to prevent
further abuse”; (2) calling Mr. Lord on the phone early
in the investigation without analyzing the relevant
factors or physically searching for Mr. Lord ﬁrst; (3)
promising protection to the Irishes; (4) not using the
ODARA tool or otherwise assessing the risk posed by
Mr. Lord; (5) not believing Brittany Irish; (6) not helping Brittany Irish obtain a protection from abuse order; (7) not responding reasonably to new information

App. 152
received during their investigation; and (8) not actively
developing probable cause to arrest Mr. Lord. Pls.’
Opp’n at 5-16. With the exception of promises of protection allegedly made to the Irishes and the voicemail,
which the Court has discussed, none of these violations
constitutes an afﬁrmative act that could give rise to liability under a state-created danger theory. Based on
the Court’s analysis, all the circuits that have adopted
the state-created danger theory require an afﬁrmative
act or a degree and pattern of inaction that rises to the
level of an afﬁrmative act. See footnote 148, supra.
There does not appear to be such a pattern here.149 The
record makes clear that the Individual Ofﬁcers conducted an investigation and, once it became reasonably
clear that Mr. Lord was acting violently, took actions to
ﬁnd him, including using dogs and putting out a
statewide teletype.
This does not mean that there are no circumstances
when law enforcement promises of protection—if made
in combination with other danger-creating acts—could
149

As the Court concludes that the Individual Ofﬁcers’ afﬁrmative acts in placing the voicemail message and making
promises of protection are sufﬁcient to ﬁt within the state-created
danger doctrine, it is not technically necessary to rule on whether
the Plaintiffs have demonstrated a pattern of inaction that would
also ﬁt within the doctrine. As noted further on, this evidence is
in any event relevant to the shocks the conscience standard. Further, the Court resolves this dispositive motion on qualiﬁed immunity grounds. If this case returns to the First Circuit and if the
First Circuit overrules the Court on qualiﬁed immunity, it should
be clear that the Court is not ruling that the pattern of inaction
theory would be disallowed at trial or that evidence of inaction
would be inadmissible for other purposes.

App. 153
provide support for a ﬁnding of liability under a statecreated danger theory if the promises increased the
risk that a plaintiff would be harmed, such as by causing a person to stay in a place dangerous to them. See
Kennedy v. City of Ridgeﬁeld, 439 F.3d 1055, 1063 (9th
Cir. 2006) (noting that a promise made by a police ofﬁcer to a victim that police would patrol the neighborhood made the victim more vulnerable to danger that
the ofﬁcer had already created by making it more
likely she would stay home); see also Rivera, 402 F.3d
at 37 (noting that promises of protection from the state
may induce a victim “into a false sense of security, into
thinking she had some degree of protection from the
risk,” but that “merely rendering a person more vulnerable to risk does not create a constitutional duty to protect” (emphasis added)); but see Gray v. Univ. of Colo.
Hosp. Auth., 672 F.3d 909, 925 (10th Cir. 2012) (arguing
that “DeShaney’s facts stalwartly suggest assurances
of protection from the State do not constitute afﬁrmative conduct sufﬁcient to invoke the state-created danger theory of constitutional liability”).
However, the Individual Ofﬁcers made no such
promises here. The Court has discussed the lack of record evidence for any claim by the Plaintiffs that the
Individual Ofﬁcers made a promise of protection to
Brittany or Kimberly Irish. See footnotes 102 and 104
supra. Though someone from MSP did make a promise
of protection to Kimberly Irish, albeit a very general
one, see footnote 104, supra, the Plaintiffs do not allege
either that this person was one of the Individual

App. 154
Ofﬁcers or that the Individual Ofﬁcers knew such a
promise had been made.
While these examples of inaction by the Individual
Officers do not independently give rise to a statecreated danger theory of liability, they are relevant to
the Court’s consideration of the “shocks the conscience”
standard. See Irish, 849 F.3d at 528 (stating that “[i]f
discovery reveals that the ofﬁcers’ actions violated accepted norms of police procedure,” this may “directly
speak to whether the ofﬁcers acted in deliberate indifference to [Brittany] Irish’s safety, so much so that
their conduct shocks the conscience”).
B. Shocking to the Conscience
For a substantive due process violation to exist under a state-created danger theory, the actions of the
state actor “must shock the conscience of the court.”
Rivera, 402 F.3d at 35. “The burden to show state
conduct that ‘shocks the conscience’ is extremely
high, requiring ‘stunning’ evidence of ‘arbitrariness
and caprice’ that extends beyond ‘[m]ere violations of
state law . . . ’ to ‘something more egregious and more
extreme.’ ” Gloria, 593 F.3d at 80 (some alterations in
original) (quoting DePoutot v. Raffaelly, 424 F.3d 112,
119 (1st Cir. 2005)). “[C]onduct intended to injure in
some way unjustiﬁable by any government interest is
the sort of ofﬁcial action most likely to rise to the conscience-shocking level.” Rivera, 402 F.3d at 36 (alteration in original) (quoting Cty. of Sacramento v. Lewis,
523 U.S. 833, 849 (1998)). However, “whether behavior

App. 155
is conscience shocking varies with regard to the circumstances of the case,” and “[i]n situations where actors have an opportunity to reﬂect and make reasoned
and rational decisions, deliberately indifferent behavior may sufﬁce to ‘shock the conscience.’ ” Id. The First
Circuit suggested that in this case, deliberate indifference may sufﬁce to show conscience-shocking behavior;
therefore, that is the standard the Court will use.150
Irish, 849 F.3d at 528 (“If discovery reveals that the ofﬁcers’ actions violated accepted norms of police procedure or that they acted despite foreseeing the harm to
Irish, it may strengthen the plaintiffs’ argument that
the ofﬁcers exacerbated the danger that Lord posed. It
may also directly speak to whether the ofﬁcers acted
in deliberate indifference to Irish’s safety, so much so
that their conduct shocks the conscience”).
The level of deliberate indifference required to
shock the conscience is speciﬁc to the circumstances of
a case. See Lewis, 523 U.S. at 850 (stating that “[d]eliberate indifference that shocks in one environment may
not be so patently egregious in another”). In the Third
Circuit, where the state-created danger doctrine is established, caselaw has identiﬁed “three potential levels
150

The Court also independently believes deliberate indifference to be the proper standard. Whatever level of exigency the
Individual Ofﬁcers might have been operating under once Mr.
Lord was implicitly notiﬁed of the MSP’s investigation, there was
no such urgency before the Individual Ofﬁcers left a voicemail
message for Mr. Lord. It would beg the question to argue that allegedly deliberately indifferent acts taken by state actors created
an emergency which rendered application of the deliberate indifference standard improper.

App. 156
of culpability,” Kedra v. Schroeter, 876 F.3d 424, 437
(3d Cir. 2017), required for a ﬁnding that state action
shocks the conscience: (1) in “ ‘hyperpressurized environment[s] requiring a snap judgment,’ an ofﬁcial
must actually intend to cause harm in order to be liable,” id. (alternation in original) (quoting Vargas v. City
of Phila., 783 F.3d 962, 973 (3d Cir. 2015)); “[i]n situations in which the state actor is required to act ‘in a
matter of hours or minutes,’ ” the Third Circuit requires “that the state actor ‘disregard a great risk of
serious harm,’ ” id. (quoting Sanford, 456 F.3d at 310);
“[a]nd where the actor has time to make an ‘unhurried
judgment[ ],’ a plaintiff need only allege facts supporting an inference that the ofﬁcial acted with a mental
state of ‘deliberate indifference.’ ” Id. (some alterations
in original) (quoting Sanford, 456 F.3d at 309).
The Court ﬁnds that a reasonable jury could ﬁnd
that Detective Perkins and Detective Fowler’s (but not
Sergeant Crane’s) action in leaving a voicemail for Mr.
Lord was deliberately indifferent to the point of being
conscience-shocking in light of the actions they took
before and after leaving a voicemail for Mr. Lord. In so
ﬁnding, the Court is aware of the First Circuit’s admonition in Gloria that “[t]his circuit has never found
on the facts of a case that deliberately indifferent behavior was sufﬁciently conscience-shocking to violate
a plaintiff ’s substantive due process rights.” 593 F.3d
at 80 n.4.
The facts of this case, however, are different from
those in the prior cases of the First Circuit discussing
the state-created danger theory, and the Court regards

App. 157
these facts as more egregious. In Rivera, the afﬁrmative acts alleged by the plaintiff were that the defendants encouraged or required her to testify as a witness
and then promised her protection, which they did not
deliver, and she was shot and killed by the half-brother
of the person against whom she was to testify. 402 F.3d
at 32, 37. The defendants knew that the plaintiff was
receiving threats, id. at 31, but they did not afﬁrmatively make clear to the person or people threatening
her that she would testify. Rather, the deceased’s status as a witness would have been discovered by the
person against whom she was testifying in the normal
course of his criminal prosecution. See id. at 38 n.11
(noting that “the danger to [the plaintiff ], in the absence of these false assurances, would still have been
evident” and that “[s]he would still have been identiﬁed by the police department as a witness to the murder; she would still have given a statement to the police
about what she saw; she would still have, at the request of the deceased’s family, given a second statement and identiﬁed [the person against whom she was
to testify]; and the state would have still issued a subpoena for her to testify before the grand jury and at the
trial”). The danger, in other words, was inherent in the
deceased’s position as a state’s witness and existed regardless of the actions taken by the defendants. By
contrast, had Detectives Perkins and Fowler waited to
contact Mr. Lord or chosen another means to make that
contact, the danger created by the voicemail message
would not have existed.

App. 158
Two other First Circuit cases analyzing the
“shocks the conscience” standard in the context of a
state-created danger theory are equally differentiable.
Vélez-Díaz v. Vega-Irizarry, 421 F.3d 71 (1st Cir. 2005),
for instance, deals with a cooperating witness who was
working with the defendants to set up transactions of
controlled substances and ﬁrearms when he was killed.
Id. at 73-74. The First Circuit, while leaving open
whether actions taken by the state as to cooperating
witnesses might ever shock the conscience, ruled that
there was not a conscience-shocking afﬁrmative act in
the situation where state actors merely do not provide
sufﬁcient protection to a cooperating witness, stating
that “[t]here are risks inherent in being a cooperating
witness, but the state does not create those dangers,
others do, and the witness voluntarily assumes those
risks.” Id. at 81.
In Lockhart-Bembery v. Sauro, 498 F.3d 69 (1st Cir.
2007), the plaintiff “alleged a violation of her Fourteenth Amendment substantive due process rights on
a state-created danger theory” when an ofﬁcer “instructed her to move her car or it would be towed, she
did so, and she was injured.” Id. at 71. The First Circuit
found that the plaintiff could not show that the ofﬁcer’s
actions created the danger, stating that “[t]he location
of plaintiff ’s car posed a risk to others; it had to be
moved. She recognized the risk herself. She had the
choice of moving it herself or having the police tow it.
She chose to move it herself. . . .” Id. at 77. Because
the Circuit found the officer’s actions reasonable, it
also stated that the plaintiff “fail[ed] to meet the

App. 159
shock-the-conscience test.” Id. at 78. Both of these
cases lack the sort of afﬁrmative act at issue here,
where an ofﬁcer did not merely sit back as the Plaintiffs experienced danger, but actually caused that danger independent of decisions made by the Plaintiffs.
The facts here are closer to those in Soto. In Soto,
a woman suffering abuse from her husband reported
his abuse to the police despite his past threats to “kill
her and other members of her family if she went to the
police.” 103 F.3d at 1059. She communicated those
threats to the police, who proceeded to tell her husband
that she had reported him. Id. at 1060-61. The next
day, her husband killed both of their children and himself. Id. at 1061. The First Circuit “cho[ ]se not to reach”
the question of “[t]he scope of any permissible section
1983 action based on a state-created danger theory,”
resolving the case instead on qualiﬁed immunity
grounds. Id. at 1064. Soto, the First Circuit case presenting the most factual overlap with the instant case,
is a notable outlier: a case in which the First Circuit
speciﬁcally did not hold that state actions did not rise
to the level of a state-created danger or did not shock
the conscience.
The Individual Ofﬁcers state that “[a]rguably, it
might shock the conscience if a police ofﬁcer contacted
a suspect and advised him that a speciﬁc person had
made criminal allegations against him after the accuser had told the ofﬁcer to not contact the suspect because it might result in harm to the accuser or her
children.” Defs.’ Mot. at 22-23. The Individual Ofﬁcers
contend that “the Court does not need to decide this

App. 160
issue because those are not the facts here,” id. at 23,
and insofar as they are pointing out factual dissimilarities from their own hypothetical, they are correct that
those are not the facts.
However, the dissimilarities are, in the Court’s
view, small and beside the point. It is true that Detective Perkins did not tell Mr. Lord that Brittany Irish
had made criminal allegations against him in the
voicemail; but as Detective Perkins himself agreed in
his testimony, it is logical that someone who had committed a rape the day before receiving a phone call
from the MSP would connect the dots between the rape
and the law enforcement voicemail. PSAMF ¶ 193.
The proposition that Mr. Lord thought that the
voicemail was about a law enforcement investigation
into his son’s death is beside the point. At the very
least, what Mr. Lord thought about the voicemail presents a genuine issue of material fact which must be
resolved by a jury. The voicemail was not from Detective Pickering, the detective assigned the investigation
into Mr. Lord’s son’s death, but from a new detective.
Moreover, Mr. Lord proceeded on his criminal rampage
not against the individual under investigation for his
son’s death, but against Brittany Irish, her boyfriend,
and her mother. If Mr. Lord’s reaction to the voicemail
breaks the chain of causation between the voicemail
and the Plaintiffs’ injuries and death, Detectives Perkins and Fowler must make that case to a jury. For purposes of this analysis, the Court views the record in the
light most favorable to the non-movants, which includes the proposition that the voicemail alerted Mr.

App. 161
Lord that Brittany Irish had complained about his
rape to the MSP.
Additionally, even if Mr. Lord were unable to connect these dots due to the ongoing investigation into
his son’s death (a proposition the Court ﬁnds doubtful,
see footnote 68, supra), there is no evidence in this record that either Detective Perkins or Detective Fowler
knew about a MSP investigation into the death of Mr.
Lord’s son when they left the voicemail message. Based
on this record, this is not a fact Detectives Perkins and
Fowler could have known, as up to that point they had
sought no background information on Mr. Lord, and
thus it does not affect the analysis of whether their actions were conscience-shocking. What they did know
when Detective Perkins left the voicemail is that
Brittany Irish had alleged that she had been raped by
Mr. Lord the previous evening; that Mr. Lord had
threatened Brittany Irish and her children with violence if she reported him to the police and had made
more general threats against Kyle Hewitt; and that to
the extent their investigation had yielded concrete results, those results were consistent with Brittany
Irish’s allegations; yet Detective Perkins, with Detective Fowler’s acquiescence, went ahead with leaving a
voicemail for Mr. Lord that as good as let him know
Brittany Irish had indeed gone to the police, despite
his threat.
The other dissimilarity from the Individual Officers’ hypothetical is that Brittany Irish did not tell
Detectives Perkins and Fowler not to leave a voicemail message prior to Detective Perkins leaving the

App. 162
message, and only stated the concern that Mr. Lord
might not answer his phone. DSMF ¶ 58. However, it
strikes the Court that it was not Brittany Irish’s responsibility to anticipate the danger a call to Mr. Lord
might create, but rather Detectives Perkins and
Fowler’s duty. Crime victims are not experts in proper
law enforcement investigative techniques; state police
detectives are. Viewing the facts in the light most favorable to the Plaintiffs, Brittany Irish had suffered an
excruciating and traumatic twenty-four hours; she
was being interviewed at MSP ofﬁces by MSP ofﬁcers
whom she had known for only a short period of time
and who were asking her for Mr. Lord’s cellphone number. The Individual Ofﬁcers cannot successfully argue,
on a motion for summary judgment, that her lack of
objection at this time and in this context amounted to
considered acquiescence to Detective Perkins calling
Mr. Lord and leaving a voicemail message, alerting
him to her criminal complaint.
It is true that Detectives Perkins and Fowler had
reasons to question Brittany Irish, from her text messages to Mr. Lord to their interview with Ms. Adams;
however, it is also true that, at the point Detective Perkins left the voicemail, Detectives Perkins and Fowler
had already discovered at least one of the Benedicta
camps Brittany Irish described and had confirmed
that there had been a break-in, presenting powerful
evidence that Brittany Irish was indeed being truthful. Regardless, doubts—even reasonable ones—about
a victim’s credibility cannot absolve an ofﬁcer from
the responsibility at least to consider the likely

App. 163
consequences of his actions if those doubts later prove
unfounded.151 There is no evidence that Detectives Perkins and Fowler did so here.
To the contrary, again viewing the facts in the light
most favorable to the Plaintiffs, Detectives Perkins
and Fowler allowed their skepticism of Brittany Irish’s
credibility to affect their investigation and their later
responses to her pleas for protection. Assuming that
Mr. Lord had not committed crimes against Brittany
Irish, there may have been no harm in leaving a
voicemail message for him to contact the state police.
But to draw this conclusion discounts Brittany Irish’s
allegations of criminal conduct against Mr. Lord and
her concerns about his potential violence. It also runs
hard against multiple law enforcement policies that
strongly caution the state police to believe and protect
the accuser immediately after a complaint.
Law enforcement investigation into alleged sexual
assaults is a sensitive and fraught business. Having
experienced trauma, sexual assault victims may misremember details, may improperly blame themselves
for the attack, and, as may be the case here, even after
the attack may have conﬂicting feelings about the attacker. If the victim has given law enforcement a reasonable basis to conclude that the attacker is violent
and represents a present and imminent threat of
physical harm against her and her family, law enforcement should take this risk into account in its
151

Perkins had in fact received training to this effect. See
PSAMF ¶¶ 296-99.

App. 164
approach to the alleged attacker. As just noted, what
may well have occurred here is that the Detectives allowed their skepticism about Brittany Irish’s truthfulness (a truthfulness that seems later to have been
largely corroborated) to affect their approach to Mr.
Lord. For a sexual assault victim, the price of being
traumatized by the assault and thus less than wholly
and entirely consistent cannot be that law enforcement
invites retribution.152
The deliberate indifference exhibited by Detectives Perkins and Fowler in leaving the voicemail is
further underscored by their subsequent actions. Once
Brittany Irish called to tell them the Irishes’ barn was
burning down, PSAMF ¶ 207, Detectives Perkins and
Fowler were on notice that Mr. Lord was following
through on his threat of violence and that the Irishes
were the object of his wrath. That they did not take
even basic steps to protect the Plaintiffs at least suggests that they simply were not concerned about the
Plaintiffs’ safety—a degree of indifference that, given
the circumstances, was reckless, callous, or both. That
152

The Court is also troubled by the notion that if Brittany
Irish was deemed not credible in her complaint against Anthony
Lord, she somehow forfeited protection from his threatened violence. The notion that police protection against a future crime depends upon law enforcement’s assessment of the credibility of the
complaint of a past one strikes the Court as a non-sequitur. In
fact, if law enforcement concluded that the complaint was false,
informed the alleged perpetrator of the false complaint, and knew
that the alleged perpetrator had a violent temper, it would seem
the complainant would be in greater danger, having registered a
non-credible complaint of a criminal act against a violent, but innocent, party.

App. 165
they presented Brittany Irish’s request for protection
to Sergeant Crane and he turned down the request
does not insulate them; there were many other steps
they could have taken to assure the Plaintiffs’ safety
without any expenditure of MSP resources. Even suggesting that the Plaintiffs spend the night out of
harm’s way, such as in a motel or with a family friend,
might have prevented the tragedy.
Instead, Detectives Perkins and Fowler chose not
to ask Sergeant Crane about Brittany Irish’s request
for an hour after she made it and did not communicate
to her that the request had been denied until an hour
after the denial, when she called them. While the government “must perform a triage among competing demands,” even “where [it] is aware of speciﬁc dangers,”
Ramos-Piñero, 453 F.3d at 54, even the most generous
assessment of Detectives Perkins’ and Fowler’s actions
would suggest that, knowing about the threat posed by
Mr. Lord, they would do something—anything—to mitigate that threat. They did not do so, in at least arguable violation of section 4012(6) and M-4’s requirement
that they take reasonable steps to prevent further
abuse.
The bar for ﬁnding that action shocks the conscience is high but not insurmountable. In Doe 1 v. Bos.
Pub. Sch., No. 17-cv-11653-ADB, 2019 WL 1005498 (D.
Mass. Mar. 1, 2019), a district court case applying the
“shocks the conscience” test on a post-Irish motion to
dismiss, two female students were sexually assaulted
by another student at their school, despite the school
having known he had assaulted two fellow students

App. 166
earlier that year, and then were left in the same classroom with him, despite the female students having reported his assaults and threats of violence to the
school. Id. at *1-2. A teacher who sought to report one
of the assaults was discouraged from doing so and retaliated against when she did. Id. at *5. One of the students was later re-assaulted by the same student. Id.
at *2. The district court found that the alleged actions
of the defendants were sufﬁciently conscience-shocking to survive a motion to dismiss on a state-created
danger theory because the assaults the school knew
about were “not sudden or isolated and school staff had
an opportunity to reﬂect and make reasoned and rational decisions in response. . . .” Id. at *5. The district
court cautioned that “afﬁrmative action (rather than
inaction) by school ofﬁcials [was] essential to its holding,” and stated that if following discovery there was
no evidence of the afﬁrmative acts alleged by the plaintiffs, the court would “revisit this ﬁnding on summary
judgment.” Id. Here, discovery has revealed evidence
of the afﬁrmative act alleged by the Plaintiffs—
namely, that Detectives Perkins and Fowler left a
voicemail message for Mr. Lord implicitly informing
him that Brittany Irish had gone to the police, despite
being aware he had threatened her if she did so.
Similarly, in Okin, the Second Circuit, ruling on an
appeal from a grant of summary judgment, found that
the plaintiff “raise[d] a genuine issue of material fact
as to whether the defendants’ afﬁrmative creation or
enhancement of the risk of violence to [the plaintiff ]
shock[ed] the conscience.” 577 F.3d at 431. The plaintiff

App. 167
in Okin reported multiple violent assaults by her boyfriend to the police, who did not arrest him or interview
him at any length despite her requests that he be arrested. Id. at 420-26. The plaintiff ﬁled a claim, alleging that, “[b]y failing to arrest or even interview” her
boyfriend, the defendants “endangered her by emboldening” her boyfriend. Id. at 426. The Second Circuit
found that “a reasonable view of the evidence” that police implicitly encouraged the plaintiff ’s boyfriend’s
domestic violence supported the inference that this
conduct “r[o]se to the level of afﬁrmative conduct that
created or increased the risk of violence to the victim.”
Id. at 430. Moreover, the Second Circuit found the
defendants’ actions sufﬁciently conscience-shocking to
survive summary judgment because as “domestic violence is a known danger that the ofﬁcers were prepared to address upon the expected occurrence of
incidents, the ofﬁcers who responded to [the plaintiff ]’s
complaints had ample time for reﬂection and for deciding what course of action to take in response to domestic violence.” Id. at 432. The same consideration applies
here: Detectives Perkins and Fowler were in the midst
of an investigation of rape by an intimate partner and
had ample time to consider the risks to Brittany Irish
posed by leaving a voicemail for Mr. Lord.153
153

The resolution of Kennedy, 439 F.3d 1055, also supports a
ﬁnding that the Plaintiffs have sufﬁciently alleged conscienceshocking behavior to survive summary judgment. In Kennedy, the
Ninth Circuit afﬁrmed a denial of summary judgment to the defendant, stating that, “[v]iewing the facts in the light most favorable to [the plaintiff ], we ﬁnd that, if accepted as true, they are
sufﬁcient to establish that [the defendant] acted deliberately and

App. 168
Furthermore, the First Circuit’s language in Irish
supports a ﬁnding that this conduct shocks the conscience: the Circuit stated that “[i]f discovery reveals
that the ofﬁcers[ ] . . . acted despite foreseeing the
harm to [Brittany] Irish, it may strengthen the plaintiffs’ argument that the ofﬁcers exacerbated the danger that Lord posed” and “may also directly speak to
whether the ofﬁcers acted in deliberate indifference to
[Brittany] Irish’s safety, so much so that their conduct
shocks the conscience.” 849 F.3d at 528. The First Circuit also focused in on the timing of the decision to
leave the voicemail, noting that Detectives Perkins and
Fowler acted “despite the fact that they were at the
very outset of an investigation into allegations of violent assault, rape, and threats to kill.” Raymond v. Me.
Sch. Admin. Dist. 6, No. 2:18-cv-00379-JAW, 2019 WL
2110498, at *8 (D. Me. May 14, 2019) (quoting Irish,
849 F.3d at 527).154 Discovery has shown that

indifferently to the danger he was creating” where the plaintiff
repeatedly warned the defendant about a third party who later
harmed her and asked that she be contacted before the defendant
contacted the third party, after which the defendant notiﬁed the
third party ﬁrst, promised protection to the plaintiff, and then did
not provide that protection. Id. at 1065.
154
The importance of this timing point is underscored by the
deposition testimony of both Detective Perkins and Detective
Fowler, who both agreed that the best time to contact an offender
is at the end of an investigation, once all the facts are in order.
PSAMF ¶¶ 276-77; DRPSAMF ¶¶ 276-77. The facts here were not
all in order. At the point they left the voicemail, Detectives Perkins and Fowler were not even aware that Mr. Lord was on probation—a fact that could have been quickly ascertained and
which would have provided the detectives with new tools to aid in

App. 169
Detectives Perkins and Fowler did indeed act despite
being aware of the potential for harm to Brittany Irish
and despite acting quite early in the investigative process, and in light of the First Circuit’s language on
these points, the Court cannot grant summary judgment on the ground that Perkins’ and Fowler’s actions
did not shock the conscience.
While the Court ﬁnds that the Plaintiffs have
made out a sufﬁcient case that Detectives Perkins and
Fowler’s actions were conscience-shocking, they have
not done so as to Sergeant Crane. There is no allegation that Sergeant Crane knew about the voicemail before it was left for Mr. Lord; in fact, the record suggests
he did not learn about it until approximately three
hours later. PASMF ¶ 218. It is not conscience-shocking for a superior ofﬁcer to entrust an investigation to
his subordinates and rely on their updates.
C. Qualified Immunity
“[T]he qualiﬁed immunity inquiry is a two-part
test. A court must decide: (1) whether the facts alleged
or shown by the plaintiff make out a violation of a constitutional right; and (2) if so, whether the right was
‘clearly established’ at the time of the defendant’s alleged violation.” Maldonado v. Fontanes, 568 F.3d 263,
268-69 (1st Cir. 2009) (citing Pearson v. Callahan, 555
U.S. 223, 232 (2009)). “[T]he second, ‘clearly established’ step of the qualiﬁed immunity analysis . . . , in
their investigation, such as the advice of Mr. Lord’s probation ofﬁcer and a lower standard for detention of Mr. Lord.

App. 170
turn, has two aspects.” Id. at 269. First, “[t]he contours
of the right must be sufﬁciently clear that a reasonable
ofﬁcial would understand that what he is doing violates that right,” id. (alteration in original) (quoting
Anderson v. Creighton, 483 U.S. 635, 640 (1987)); second, the Court must ask “whether a reasonable defendant would have understood that his conduct violated
the plaintiffs’ constitutional rights.” Id.
1. Settled Law Within the First Circuit
The Court begins with the premise that neither
the Supreme Court nor the First Circuit has adopted
the state-created danger theory as “clearly settled law.”
Soto, 103 F.3d at 1064. In 1989, the United States Supreme Court held in DeShaney that “a state’s failure to
protect an individual against private violence generally does not constitute a violation of the Due Process
Clause, because the Clause imposes no duty on the
state to provide members of the general public with adequate protective services.” Ramos-Pinero, 453 F.3d at
52 n.6 (characterizing DeShaney, 489 U.S. at 194-97).
In Irish, the First Circuit reiterated that DeShaney
“suggested, but never expressly recognized, the possibility that when the state creates the danger to an individual, an afﬁrmative duty to protect might arise.”
849 F.3d at 525 (quoting Rivera, 402 F.3d at 34-35).
Turning to the First Circuit, the Soto Court afﬁrmed that “in 1991 the First Circuit had not yet addressed the issue of state-created danger.” 103 F.3d at
1065. In its 1997 Soto opinion, the First Circuit wrote

App. 171
that “we cannot extract a clearly established right from
a somewhat confusing body of caselaw through the use
of hindsight, or ‘permit claims of qualiﬁed immunity to
turn on the eventual outcome of a hitherto problematic
constitutional analysis.’ ” Id. (quoting Martinez v. Colon, 54 F.3d 980, 989 (1st Cir. 1995)). The Soto Court
concluded that “in 1991, ‘the contours of the right were
[not] sufﬁciently plain that a reasonably prudent state
actor would have realized not merely that his conduct
might be wrong, but that it violated a particular constitutional right.’ ” Id. (quoting Martinez, 54 F.3d at
988).
Taking Soto as the benchmark for the state of the
law in the First Circuit as of 1991, the First Circuit has
not yet recognized state-created danger as a valid basis
to assert a constitutional violation against the government. See Gloria, 593 F.3d at 79 n.3; Ramos-Pinero,
453 F.3d at 55, n.9; Rivera, 402 F.3d at 37-38.155 Put
another way, as the First Circuit wrote in this case,
“[w]hile this circuit has discussed the possible existence of the state-created danger theory, we have never
found it applicable to any speciﬁc set of facts.” Id. at
526.

155

At oral argument, counsel for Plaintiffs mentioned the
case of Marrero-Rodríguez v. Municipality of San Juan, 677 F.3d
497 (1st Cir. 2012), asking why the First Circuit reversed the dismissal of a substantive due process claim in that case if the statecreated danger theory did not exist in the Circuit; however, Marrero-Rodriguez is not a state-created danger case and does not impact the Court’s qualiﬁed immunity inquiry.

App. 172
The clearest indication that the First Circuit may
be willing to formally adopt the state-created danger
theory is Irish itself. If the First Circuit had previously
resolved that it would not adopt state-created danger
as a viable constitutional theory, it could have afﬁrmed
this Court’s earlier dismissal of the complaint because
further action would be futile. Instead, the First Circuit suggested that law enforcement compliance with
department protocol might make it easier for the Individual Ofﬁcers to assert qualiﬁed immunity. Id. at 528.
The negative implication is that if the ofﬁcers had
failed to follow protocol, it might be more difﬁcult for
them to assert qualiﬁed immunity, which presupposes
the availability of the state-created danger theory.
But this Court can only go so far in reading tea
leaves from First Circuit opinions. Settled law requires
stronger stuff. If the law in the First Circuit is to
change, it is the First Circuit, not this Court, that must
change it.
2. Settled Law in the Absence of Supreme Court and First Circuit Authority
Law may be clearly established in the First Circuit
even in the absence of an opinion from the First Circuit
or the Supreme Court. See Wilson v. Layne, 526 U.S.
603, 617 (1999) (stating that a constitutional right is
clearly established if there are “cases of controlling authority in the[ ] jurisdiction at the time of the incident
which clearly established the rule” or if there is “a

App. 173
consensus of cases of persuasive authority such that a
reasonable ofﬁcer could not have believed that his actions were lawful”); McCue v. City of Bangor, 838 F.3d
55, 64 (1st Cir. 2016) (stating that the First Circuit has
“looked to the case law of sister circuits in determining
whether a right was clearly established”); Maldonado,
568 F.3d at 271 (“We reject the Mayor’s argument that
this law was not clearly established because this court
had not earlier addressed the questions of effects and
seizure. Against the widespread acceptance of these
points in the federal circuit courts, the Mayor’s argument fails. These are principles of law, and the law was
sufﬁciently recognized by courts to be clearly established”).
In the absence of a decision in the First Circuit,
however, it is hard to conclude that the doctrine of
state-created danger is clearly established given that
other circuits have considered and rejected it. See Cook
v. Hopkins, No. 19-10217, 2019 WL 5866683, at *5 (5th
Cir. Nov. 8, 2019) (stating that “this circuit does not recognize the state-created danger theory and we decline
to do so today”); Beltran v. City of El Paso, 367 F.3d 299,
307 (5th Cir. 2004) (“This court has consistently refused to recognize a ‘state-created danger’ theory of
§ 1983 liability even where the question of the theory’s
viability has been squarely presented”); Vaughn v. City
of Athens, 176 Fed. App’x 974, 976 n.1 (11th Cir. 2006)
(reiterating that “this Court has written that the ‘special relationship’ and ‘state created danger’ doctrines
no longer are valid”); White v. Lemacks, 183 F.3d 1253,
1257-59 (11th Cir. 1999).

App. 174
As earlier discussed, a signiﬁcant majority of circuit authority accepts the state-created danger theory.
See Hernandez, 897 F.3d at 1133 (9th Cir.); Estate of
Barnwell, 681 Fed. App’x at 443 (6th Cir.); E. Porter
Cty., 799 F.3d at 798 (7th Cir.); Doe, 795 F.3d at 439
(4th Cir.); Estate of B.I.C., 710 F.3d at 1173 (10th Cir.);
Fields, 652 F.3d at 891 (8th Cir.); Okin, 577 F.3d at 428
(2d Cir.); Sanford, 456 F.3d at 304-05 (3d Cir.); Butera,
235 F.3d at 637 (D.C. Cir.). But, in the absence of First
Circuit authority, it is not within this Court’s purview
to select between the majority and minority rules.
Moreover, if the Court were to adopt the majority view,
it raises the question of which majority view. As the
Second Circuit has written, “in various courts the term
‘state created danger’ can refer to a wide range of disparate fact patterns.” Pena v. DePrisco, 432 F.3d 98, 108
(2d Cir. 2005); see also footnote 148, supra (describing
the multiple circuit formulations). To extrapolate
whether the First Circuit will adopt the majority rule,
which among the majority formulations the First Circuit will adopt, and to apply the selected formulation
to the facts in this case is a bridge too far.
In short, while a “consensus . . . of persuasive authority,” Wilson, 526 U.S. at 617, requires something
less than the express agreement of every circuit, see
Maldonado, 568 F.3d at 271 (ﬁnding law clearly established where three other circuits had so found and no
circuit had held otherwise), the Court is unaware of a
circumstance where the First Circuit has found that a
constitutional right was clearly established despite
there being (1) no prior ruling on point within the First

App. 175
Circuit, and (2) a split on the issue among the remaining circuits. As the state-created danger doctrine was
not clearly established at the time of the acts by the
Individual Ofﬁcers, they are entitled to qualiﬁed immunity.156
The Plaintiffs argue that “it is well established
that the Constitution protects a citizen’s liberty interest in his/her own bodily security,” and that the statecreated danger theory is clearly established under this
principle. Pls.’ Opp’n at 24-25. This argument, however,
confuses the qualiﬁed immunity analysis. The Court is
compelled by Supreme Court precedent not to “deﬁne
clearly established law at a high level of generality,”
but rather to examine “whether the violative nature of
particular conduct is clearly established.” Mullenix v.
Luna, 136 S. Ct. 305, 308 (2015) (emphasis omitted)
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 742 (2011)).
It is true that the Constitution protects one’s interest
in one’s bodily integrity and security, but that is not
relevant to the more speciﬁc question of whether the
state-created danger doctrine—the vehicle the Plaintiffs use to bring their claim—was clearly established
during the Individual Ofﬁcers’ investigation.
3. Violation of State Law and Policy
The Plaintiffs have one more arrow in their quiver.
They argue that the Individual Ofﬁcers violated both
156

Because the Court grants the Individual Ofﬁcers qualiﬁed
immunity based on the ﬁrst subpart of the “clearly established”
inquiry, it does not reach the second subpart.

App. 176
state statute, 19-A M.R.S. § 4012, and state policy,
M-4. Pls.’ Opp’n at 5-8, 24-26. Section 4012 of title 19A requires that when a law enforcement ofﬁcer has
“reason to believe that a family or household member
has been abused, the ofﬁcer shall immediately use all
reasonable means to prevent further abuse,” including
“[a]rresting the abusing party. . . .” The Plaintiffs say
that in response to the statute, the MSP established
M-4, “a standing order entitled ‘Maine State Police Policy Regarding Response to an Investigation of Domestic Violence Incidents.” Pls.’ Opp’n at 6. This MSP
policy generally tracks section 4012 in requiring a
trooper to use “all reasonable means to prevent abuse.”
Id. (quoting M-4). The Plaintiffs contend that the Individual Defendants violated the spirit and speciﬁc provisions of section 4012 and M-4. Tying the asserted
violations of state law and policy to qualiﬁed immunity,
the Plaintiffs argue that “[t]he existence of M-4 is
highly relevant to the ‘sufﬁciently clear’ prong of this
qualiﬁed immunity claim,” as “ofﬁcer decisions and
acts that violate protocol and/or training may be sufﬁcient to deny qualiﬁed immunity to ofﬁcers.” Id. at 25
(citing Irish, 849 F.3d at 528).
This argument is not correct. As the Individual
Defendants point out, § 1983 “applies only to violations
of rights secured by federal law.” Defs.’ Reply at 19; 42
U.S.C. § 1983 (“deprivation of any rights, privileges, or
immunities secured by the Constitution and laws”).
“The ﬁrst inquiry in any § 1983 suit . . . is to isolate the
precise constitutional violation with which [the defendant] is charged.” Manuel v. City of Joliet, 137 S. Ct.

App. 177
911, 925 (2017) (quoting Baker v. McCollan, 443 U.S.
137, 140 (1979)). Thus, as the Supreme Court has explained, § 1983 “ ‘is not itself a source of substantive
rights,’ but merely provides ‘a method for vindicating
federal rights elsewhere conferred.’ ” Albright v. Oliver,
510 U.S. 266, 271 (1994) (quoting Baker, 443 U.S. at 144
n.3); see also Drumgold v. Callahan, 707 F.3d 28, 49
n.13 (1st Cir. 2013) (“The threshold question in a
§ 1983 suit is whether there has been a violation of a
federally secured right”). Even assuming the Individual Ofﬁcers violated a state statute, a state policy, or
both, the Plaintiffs must tie these state law violations
to the violation of a federally secured right and, absent
the Individual Ofﬁcers’ violation of a clearly established right, the Plaintiffs lack a precondition to a successful § 1983 claim.
The First Circuit’s opinion in Irish does not contradict this long-established limitation to § 1983 actions. The First Circuit in Irish states only that
“violation of protocol and training is relevant . . . to the
. . . qualiﬁed immunity inquir[y],” 849 F.3d at 528,
which is different from saying that such violations
would be sufﬁcient to ﬁnd that the Individual Ofﬁcers
were not entitled to qualiﬁed immunity. As the Individual Ofﬁcers point out, the First Circuit has indicated
in Soto that such violations are not, on their own, sufﬁcient to resolve the qualiﬁed immunity question. See
Defs.’ Reply at 20-21 (“First, the court rejected the
wife’s argument that the defendants were not entitled
to qualiﬁed immunity because they knew or reasonably should have known that they were violating Law

App. 178
54. Citing Davis [v. Scherer], 468 U.S. [183,] 193-95
[(1984)], the court held that even if defendants knowingly violated Law 54, that would ‘not resolve the qualiﬁed immunity question,’ and that instead the focus
is on ‘whether there is clearly settled law on the constitutional violation at issue’ ” (quoting Soto, 103 F.3d
at 1064)). The Individual Ofﬁcers are correct that
“whether [they] violated the M-4 policy or state law is
not relevant to the qualiﬁed immunity analysis,” Defs.’
Reply at 22, because “[o]fﬁcials sued for constitutional
violations do not lose their qualiﬁed immunity merely
because their conduct violates some statutory or administrative provision.” Soto, 103 F.3d at 1064 (quoting
Davis, 468 U.S. at 194).
D. Summary
The Court ﬁnds that, on the record before it, taking all inferences reasonably supported by that record
in favor of the non-moving parties, the Plaintiffs have
established genuine issues of material fact as to
whether, due to a danger created or exacerbated by
Detectives Perkins and Fowler but not Sergeant Crane,
they suffered violations of their rights to substantive
due process. However, the Court also concludes that
the state-created danger doctrine was not clearly established in the First Circuit and elsewhere at the time
of the alleged constitutional violations and grants

App. 179
summary judgment to all the Individual Ofﬁcers on
the basis of qualiﬁed immunity.157

157

The terrible circumstances of this case give the Court
pause as to whether the rationale underlying the doctrine of qualiﬁed immunity should be reexamined. Recently, qualiﬁed immunity has come under judicial and academic scrutiny. See, e.g.,
Zadeh v. Robinson, 928 F.3d 457, 474 (5th Cir. 2019) (Willett, J.,
concurring in part and dissenting in part) (reafﬁrming his
“broader conviction that the judge-made immunity regime ought
not to be immune from thoughtful reappraisal”); Russell v. Wayne
Cty. Sch. Dist., No. 3:17-CV-154-CWR-JCG, 2019 WL 3877741, at
*2 (S.D. Miss. Aug. 16, 2019); Ventura v. Rutledge, 398 F. Supp.
3d 682, 697 n.6 (E.D. Cal. 2019); Kong ex rel. Kong v. City of
Burnsville, No. 16-cv-03634 (SRN/HB), 2018 WL 6591229, at *17
n.17 (D. Minn. Dec. 14, 2018); Manzanares v. Roosevelt Cty. Adult
Det. Center, 331 F. Supp. 3d 1260, 1294 n.10 (D.N.M. 2018)
(“Moreover, in a day when police shootings and excessive force
cases are in the news, there should be a remedy when there is a
constitutional violation, and jury trials are the most democratic
expression of what police action is reasonable and what action is
excessive”); Thompson v. Clark, No. 14-CV-7349, 2018 WL
3128975, at *11 (E.D.N.Y. June 26, 2018) (“The Supreme Court’s
recent emphasis on shielding public ofﬁcials and federal and local
law enforcement means many individuals who suffer a constitutional deprivation will have no redress”); Joanna C. Schwartz,
How Qualiﬁed Immunity Fails, 127 Yale L.J. 2, 9-10, 26, 76
(2017); Judge Stephen R. Reinhardt, The Demise of Habeas Corpus and the Rise of Qualiﬁed Immunity, 113 Mich. L. Rev. 1219
(2015); Joanna C. Schwartz, Police Indemniﬁcation, 89 N.Y.U. L.
Rev. 885, 912-913 (2014).
As the facts in this case demonstrate, these issues are complicated. The primary culprit is Anthony Lord, not Detective Perkins, not Detective Fowler. Despite the Court’s conclusions about
some of the Detectives’ conduct, it is also true that Detectives Perkins and Fowler did not ignore Brittany Irish’s complaint and actively investigated her allegations into the very early hours of the
morning. Further, the Court acknowledges that members of the
public cannot expect the state or local police to act as a private

App. 180
Whatever the end result of this lawsuit, the Court
acknowledges that the Plaintiffs suffered a horriﬁc
tragedy at the hands of Anthony Lord—and the role of
security force, and there must be limits as to when upset citizens
may force ofﬁcers to trial because of something the ofﬁcers did or
did not do in the line of duty. Even if individual ofﬁcers rarely
personally pay damage awards, the ﬁling of a claim can have repercussions against the ofﬁcers’ careers and the prospect of a lawsuit may affect the willingness of ofﬁcers to take risks for public
safety that the public wants them to take.
Even so, the current law of qualiﬁed immunity—in the
Court’s mind—has it upside down, with the governmental entity
and supervisors rarely facing liability and the front-line, lowestlevel employees more directly exposed. This model contrasts with
the principles of tort law where the employer is generally responsible for the tortious actions of an employee performed within the
scope of employment. Using police as an example, the Court accepts as a premise that there will be an irreducible percentage of
law enforcement interactions with the public that will result in
potential claims with and without proper police work. Except
where the actions of the ofﬁcer were beyond the scope of employment, if the governmental entity, not the governmental employee,
were legally responsible, the risk of harm from governmental actions could be distributed among the public at large, as occurs for
privately insured employers, rather than placed on the individual
governmental employee. The solutions are not easy and may be
impossible given the current state of law at the federal level, particularly in light of the Eleventh Amendment; however, public
skepticism of the adequacy of internal discipline proceedings and
the need in cases of extreme untoward conduct to provide a mechanism for redress and individual deterrence suggest a new regime
is necessary, perhaps with state legislation.
The nub of the problem is that the summary disposition of
this case will deprive the Plaintiffs of their day in court and runs
counter to a fundamental and ancient precept of our legal system:
“[W]here there is a legal right, there is also a legal remedy.” Marbury v. Madison, 5 U.S. 137, 163 (1803) (quoting 3 WILLIAM BLACKSTONE, COMMENTARIES *23).

App. 181
Detectives Perkins and Fowler in setting in motion Mr.
Lord’s violent rampage is a genuine issue of material
fact that a factﬁnder would resolve, but for qualiﬁed
immunity. Mr. Lord shot and killed Kyle Hewitt, shot
and wounded Kimberly Irish, and abducted Brittany
Irish in exactly the circumstances that Brittany Irish
warned the Maine State Police against.
A result of this opinion may be to frame the issue
for appeal, if the Plaintiffs wish to return to the First
Circuit. The Court found that the Plaintiffs raised genuine issues of material fact as to whether Detectives
Perkins and Fowler acted with deliberate indifference
but can go no further in establishing that their actions
implicate a federally-recognized right. This is because
it is beyond the role of this trial court to announce a
breakthrough in First Circuit precedent. Whether the
First Circuit wishes to adopt the state-created danger
theory, whether the First Circuit deems this case an
appropriate one to do so, and whether the First Circuit
could or would make such a ruling retroactive to this
case are all questions beyond this Court’s reach.
VI. CONCLUSION
The Court GRANTS the Individual Ofﬁcers’ Motion for Summary Judgment (ECF No. 80) and orders
the Clerk to enter judgment in favor of the Defendants
and against the Plaintiffs’ Second Amended Complaint
(ECF No. 38).

App. 182
SO ORDERED.
/s/ John A. Woodcock, Jr.
JOHN A. WOODCOCK, JR.
UNITED STATES DISTRICT JUDGE
Dated this 3rd day of February, 2020

App. 183
United States Court of Appeals
For the First Circuit
-----------------------------------------------------------------------

No. 16-2173
BRITTANY IRISH, Individually and as
Personal Representative of the
Estate of KYLE HEWITT, and KIMBERLY IRISH,
Plaintiffs, Appellants,
v.
STATE OF MAINE; STATE POLICE OF THE
STATE OF MAINE; AND JOHN AND/OR
JANE DOES, STATE POLICE OFFICERS 1-10,
Defendants, Appellees,
-----------------------------------------------------------------------

APPEAL FROM THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MAINE
[Hon. John A. Woodcock, Jr., U.S. District Judge]
-----------------------------------------------------------------------

Before
Lynch, Thompson, and Barron,
Circuit Judges.
-----------------------------------------------------------------------

David J. Van Dyke, with whom Lynch & Van Dyke,
P.A., Lewiston, ME, was on brief, for appellants.
Christopher C. Taub, Assistant Attorney General,
with whom Janet T. Mills, Attorney General, was on
brief, for appellees.

App. 184
-----------------------------------------------------------------------

March 1, 2017
-----------------------------------------------------------------------

LYNCH, Circuit Judge. Plaintiffs Brittany and
Kimberly Irish (together, “the Irishes”) brought this 42
U.S.C. § 1983 action against Maine State Police ofﬁcers
after Anthony Lord, a former boyfriend of Brittany
Irish (“Irish”), broke into her parents’ home, fatally
shot her boyfriend (Kyle Hewitt), shot and grievously
wounded her mother (plaintiff Kimberly Irish), abducted her, and engaged in a shootout with Maine
State Police ofﬁcers during which another individual
was fatally shot.
The complaint alleges that Lord commenced this
violent rampage after and because a State Police ofﬁcer left Lord a voice message, which notiﬁed him that
Irish had made a complaint about Lord’s serious violent crimes against her earlier, and then did little more
than ask Lord to come to the local State Police barracks to be interviewed. The ofﬁcer left Lord this message despite Irish’s explicit request that the State
Police refrain from doing so out of her fear that this
action would incite further violence from Lord. The
timing of the events suggests that she was correct in
her fears. The complaint alleges that the Irishes’ losses
“ar[o]se out of failures by Defendants to protect them
from dangers which Defendants themselves created.”
On motion by the defendants, the district court
dismissed the Irishes’ complaint at the 12(b)(6) stage,
holding that their factual allegations did not amount

App. 185
to a state-created danger as would be necessary to
maintain a substantive due process claim on these
facts. The court heavily relied on Rivera v. Rhode Island, 402 F.3d 27 (1st Cir. 2005), to explain its decision.1 The court also found that qualiﬁed immunity
shielded from liability the ten unidentiﬁed State Police
ofﬁcers named as defendants.
We cannot conclude at this very early stage of the
proceedings that, in consequence of our decision in Rivera, the plaintiffs either failed to state a substantive
due process claim or that the defendants are entitled
to qualiﬁed immunity. All we have are a bare-bones
complaint and a 12(b)(6) motion. We have many questions to which we would prefer to have answers. While
both of these issues can certainly be decided at the motion to dismiss stage, see Wood v. Moss, 134 S. Ct. 2056,
2066 (2014); Rivera, 402 F.3d at 31, they are often
decided after some factual development or at summary
judgment, Plumhoff v. Rickard, 134 S. Ct. 2012, 2017
(2014); DeShaney v. Winnebago Cty. Dep’t of Soc.
1

In Rivera, ﬁfteen-year-old Jennifer Rivera was shot dead
the day before she was scheduled to testify as an eyewitness in a
murder trial. For months preceding the trial, Rivera continually
received threats that she would be killed if she testiﬁed. When
she notiﬁed the police of the death threats, they repeatedly “promised to protect her in order to secure her testimony.” Id. at 32.
Rivera’s estate brought suit against the police ofﬁcers, alleging
that they had violated her substantive due process right by creating the danger that she faced when they identiﬁed her as a witness and took her witness statement while investigating the
murder. Id. at 37. We afﬁrmed dismissal of this claim, noting that
“[b]oth are necessary law enforcement tools, and cannot be the
basis to impose constitutional liability on the state.” Id.

App. 186
Servs., 489 U.S. 189, 193 (1989). As to qualiﬁed immunity, we recognize the Supreme Court’s admonitions
that it is “an immunity from suit rather than a mere
defense to liability,” and should thus be decided early
in litigation. Plumhoff, 134 S. Ct. at 2019 (citation
omitted). But we are reluctant to make law in the absence of more facts. We thus send the case back to the
district court for some development of facts material to
those issues.
We vacate the district court’s ruling as to the individual defendants and remand the case with instructions that the parties be permitted to conduct
discovery on relevant facts. The discovery should include facts on whether there was any departure from
established police protocol or training on, inter alia,
the manner in which the police should notify the accused of allegations ﬁled against him or her; what exactly the State Police ofﬁcers knew about the risk that
Lord posed to Irish and when exactly they knew it; and
what message they left for Lord. Whether or not the
ofﬁcers followed proper procedure and how much they
knew about the attendant risks of leaving a casual
voice message, in turn, may bear on the questions of
whether Irish has a due process claim that can withstand a 12(b)(6) motion and whether the ofﬁcers are
entitled to qualiﬁed immunity.
I.
We recite the facts as alleged in the Irishes’ complaint but note where key information is left wanting.

App. 187
Irish and Lord met through a mutual friend and
carried on an on-again, off-again relationship. Lord
was a registered sex offender when the two met and, in
2011, Irish obtained a Protection from Abuse (“PFA”)
order against Lord for herself and for her son. That
two-year order expired in 2013. Although Irish had rekindled a friendship with Lord in March 2015, that relationship took a turn for the worse by the next month,
when Lord began to “threaten[ ] and harass[ ]” Irish
and send her “explicitly sexual communications.” Irish
notiﬁed the Bangor Police Department (“BPD”) of
Lord’s behavior, and the BPD advised her to obtain another PFA order against Lord. On or about July 6,
2015, Irish began the process of obtaining that second
order against Lord. In July 2015, Irish was living with
her boyfriend, Hewitt, with whom she had had a second son the previous year.
On July 14, 2015, Irish met with Lord at a local
food store in Bangor, from which Lord abducted Irish
and drove her to Aroostook County. There, he repeatedly raped her, strangled her with a seatbelt, and
threatened to kill her. He speciﬁcally threatened to kill
Irish if she reported the crime. The next day, on July
15, 2015, Irish submitted to a rape kit evaluation at
her local hospital and reported what had happened to
the BPD. The BPD referred her to the Maine State Police because the abduction and sexual assaults had
taken place in two different counties. The State Police
requested that Irish drop off a written statement the
next day. No copy of the statement was appended to the
complaint.

App. 188
On July 16, 2015, Lord contacted Irish and asked
her to meet with him to “talk about what had happened.” Irish advised the State Police of this request.
The complaint does not explain how much information
she provided to the State Police about her encounter
with Lord. During the same conversation with the
State Police, Irish also asked that she be permitted to
meet with Lord, in order to elicit a confession from him,
while wearing a wire or being monitored by a State Police ofﬁcer. The State Police refused, telling Irish that
“that’s not the way we do it.” The ofﬁcers instead told
her that they would call Lord, inform him of Irish’s accusations against him, and ask him to come to the local
State Police barracks to “give his side of the story.”
Irish asked the State Police to refrain from doing so,
pleading that “she was afraid that that would incite
Lord to terrible violence and that she would not thereupon be safe.” The complaint does not allege that Irish
withdrew her allegations.
Shortly thereafter, on the same day, unidentiﬁed
ofﬁcers of the State Police contacted Irish and informed her that they had left Lord a voice message advising him of Irish’s criminal complaint against him
and asking him to come to the local barracks. The record is silent on what exactly the message said.
Approximately two hours later, Irish learned from
her father that her family’s barn in Benedicta, Maine
was on ﬁre. Immediately suspecting that Lord had set
the ﬁre, Irish reported it to the State Police and began
traveling, with Hewitt, to her parents’ Benedicta home.
While meeting with two State Police ofﬁcers in

App. 189
Benedicta later that day, Irish received a phone call
from her brother’s friend. That friend informed Irish
that he was at a bar and had learned from Lord’s close
friend there that “Lord had received a voice mail from
the State Police, had become immediately incensed
and agitated and had indicated that ‘someone was going to die tonight.’ ”
After receiving this call, Irish asked the two ofﬁcers for a member of the State Police to be sent to protect her and her children overnight. The ofﬁcers
refused, saying that they could not spare the manpower but that they would “keep an eye on the situation.” Irish’s mother then asked if the ofﬁcers could
park an empty police car outside of the Benedicta home
overnight “because she felt that that ruse, at least,
would keep Lord away.” But the ofﬁcers said that they
also could not spare a car. Later that evening, “several
State Police cars were observed approximately eleven
miles away [from the Benedicta home] ‘dumpster diving,’ apparently looking for accelerant from the Benedicta ﬁre.”
In the early morning of July 17, 2015, Lord entered the Benedicta home while Irish, Hewitt, and
Kimberly Irish were present. Lord shot and killed
Hewitt, shot and grievously wounded Kimberly Irish,
and abducted Irish. With Irish in his car, Lord engaged
in a shootout with State Police and fatally shot another
person in the process. Lord was later apprehended.
On December 10, 2015, the plaintiffs brought suit
against the State of Maine, the State Police, and ten

App. 190
unidentiﬁed State Police ofﬁcers in the U.S. District
Court for the District of Maine. The complaint alleged
in relevant part that the defendants had violated the
plaintiffs’ substantive due process rights by failing to
protect them from Lord’s violence after having taken
afﬁrmative steps to increase the threat that Lord
posed to them.
The district court granted the defendants’ motion
to dismiss, noting that the failure to protect against
private violence is not a cognizable violation of due process. Irish v. Maine, 1:15-cv-00503-JAW, 2016 WL
4742233, at *8 (D. Me. Sept. 12, 2016). While the district court recognized the possible “state-created danger” exception to this principle, it found that the
Irishes’ complaint insufﬁciently alleged a state-created
danger under Rivera. Id. at *10-11. The court also
noted that the alleged conduct of the ofﬁcers did not
“shock the conscience,” id. at *11, and that the individual defendants were shielded by qualiﬁed immunity,
id. at *12.2
II.
The Fourteenth Amendment’s Due Process Clause
provides that “[n]o State shall . . . deprive any person
of life, liberty, or property, without due process of law.”
U.S. Const. amend. XIV, § 1. As a general matter, “a
State’s failure to protect an individual against private
2

The district court also dismissed all claims against the
State of Maine and the State Police on jurisdictional grounds. The
Irishes do not appeal these rulings.

App. 191
violence simply does not constitute a violation of the
Due Process Clause.” DeShaney, 489 U.S. at 197. But
some circuit courts have recognized the “state-created
danger” exception to this rule based on language in
DeShaney that “suggested, but never expressly recognized, the possibility that when the state creates the
danger to an individual, an afﬁrmative duty to protect
might arise.” Rivera, 402 F.3d at 34-35 (citing
DeShaney, 489 U.S. at 201).3 At least eight sister circuits have recognized the existence of the state-created
danger theory. See Kennedy v. City of Ridgeﬁeld, 439
F.3d 1055, 1061 n.1 (9th Cir. 2006) (collecting cases).
While this circuit has discussed the possible existence
of the state-created danger theory, we have never
found it applicable to any speciﬁc set of facts.
In addition to alleging a sufﬁcient state-created
danger, the plaintiff must meet “a further and onerous
requirement” to prove a substantive due process violation: “the state actions must shock the conscience of the
court.” Rivera, 402 F.3d at 35. To meet this standard,
the state actions must be “so egregious, so outrageous,
that it may fairly be said to shock the contemporary
conscience.” Cty. of Sacramento v. Lewis, 523 U.S. 833,
847 n.8 (1998). Although the circumstances of each
case impact whether the state action at issue meets
this standard, “where actors have an opportunity to
3

The Rivera opinion observed the lack of clarity on whether
DeShaney’s creation-of-danger language recognized a discrete
exception or whether that language was “simply in service of the
special relationship exception and provides a set of circumstances
where the state’s actions might create a ‘special relationship’ and
thus a duty to protect.” Rivera, 402 F.3d at 35 n.5.

App. 192
reﬂect and make reasoned and rational decisions, deliberately indifferent behavior may sufﬁce.” Rivera,
402 F.3d at 36 (citing Lewis, 523 U.S. at 851-52). Finally, we “may elect ﬁrst to address whether the governmental action at issue is sufﬁciently conscience
shocking” before considering the state-created danger
element. Id.
The Irishes argue that the ofﬁcers’ conduct in this
case both exacerbated the danger that Lord posed to
them and was sufﬁciently egregious to shock the conscience. Pointing to the voice message, the Irishes argue
that by contacting Lord over Irish’s objections and advising him of the allegations against him, the ofﬁcers
“speciﬁcally created the peril” to the Irishes with deliberate indifference for their safety.
Defendants respond by ﬁrst arguing that “trying
to interview a suspect who has been accused of a crime
is standard police practice,” and thus that Rivera must
control. See id. at 37. But this argument fails to take
into account the manner in which the ofﬁcers tried to
interview the suspect – at the very outset of the investigation, before any other precautions had been taken,
and despite being warned by the complainant about
the suspect’s violent tendencies.
Defendants further contend that even if the ofﬁcers’ actions violated Irish’s constitutional rights, they
must still be shielded by qualiﬁed immunity because
“[a]ny ofﬁcer who reads DeShaney and Rivera [wa]s
going to come away understanding that it [wa]s not a
clearly established violation of Ms. Irish’s due process

App. 193
rights to leave a voicemail message with the alleged
perpetrator.”
In our view, the bare-bones nature of the complaint and the record at this early stage of litigation
makes vacating the appropriate course. To be sure, our
concern is not that the State Police sought to interview
Lord for “his side of the story.” Nor is our concern that
they identiﬁed Irish as the complainant. After all, even
had they not identiﬁed her by name, her identity might
have been clear to Lord, given the one-on-one nature of
the crime of rape. What we do question, however, is
whether there are standard police protocols that were
violated when the ofﬁcers decided not to be present
when they alerted Lord to Irish’s allegations but instead opted to leave Lord a voice message on his phone
– notwithstanding Irish’s speciﬁc warning that such
notiﬁcation would “incite Lord to terrible violence.” Assuming the voice message was left on Lord’s cell phone,
it is likely that he received immediate notiﬁcation and
was left free to immediately do violence. And given the
timeline presented in Irish’s complaint, the police had
apparently not taken any prior steps to evaluate Irish’s
allegations or Lord’s propensity for violence before
leaving him the voice message. Or if they did, the actions are not documented in the record.
Neither party at oral argument could provide any
detail on acceptable police procedures or training, if
any, on how and when to notify the accused of the allegations that have been ﬁled against him or her under
similar circumstances. Our developing caselaw in this
area helps explain why we pause.

App. 194
In Stamps v. Town of Framingham, 813 F.3d 27
(1st Cir. 2016), we denied qualiﬁed immunity to a police ofﬁcer who had accidentally shot and killed an elderly civilian after “pointing his loaded assault riﬂe at
the head of a prone, non-resistant, innocent person
who present[ed] no danger, with the safety off and a
ﬁnger on the trigger.” Id. at 39-40. Concluding that a
reasonable ofﬁcer would have known that such conduct
constituted excessive force in violation of the Fourth
Amendment, we emphasized how the ofﬁcer’s decision
to keep his ﬁnger on the trigger, to keep his weapon “off
safe” at all times, and to point the weapon’s muzzle at
an innocent civilian’s head, rather than in a safe direction, all violated police rules, training, and basic ﬁrearm safety procedures. Id. at 32-33.
Likewise, the violation of standard police protocols
was pertinent to our analysis in Marrero-Rodríguez v.
Municipality of San Juan, 677 F.3d 497 (1st Cir. 2012),
a case in which we reversed in part a district court’s
12(b)(6) dismissal of a complaint alleging substantive
due process violations. Id. at 499. In that case, the estate of a deceased police sergeant, Carlos Lozada,
brought suit after he was shot to death during a police
training session that simulated the arrest of a suspect.
Id. at 500-01. While Lozada played the role of a subdued suspect, lying prone on the ground with another
ofﬁcer holding him down by his back, a lieutenant
walked into the simulation, declared that the training
was not being done “properly,” pulled out his weapon,
put the barrel to Lozada’s back, and pulled the trigger.
Id. at 500. Finding that the plaintiff ’s factual

App. 195
allegations were sufﬁcient to survive the motion to dismiss, we noted that the conduct of this lieutenant had
violated several protocols, which stated that all ofﬁcers
must discharge their weapons in a sandbox before entering the training area, that ofﬁcers must use only
“dummy guns” in the training facility, and that no ﬁrearms were to be used during this particular training
session. Id. at 500, 502.
The record here is devoid of any facts on whether
the State Police ofﬁcers’ decision to leave a voice message for Lord – despite Lord’s foreseeable violent reaction; despite the fact that they were at the very outset
of an investigation into allegations of violent assault,
rape, and threats to kill; and without any effort to calm
him down or prevent him from inﬂicting harm – was
in line with police protocol and training.4 More speciﬁcally, based on this record, we do not know the steps, if
any, that ofﬁcers should take when they have reason to
believe that an alleged perpetrator is violent and is
likely to retaliate against a victim who reports such serious crimes. And as Stamps and Marrero-Rodríguez
illustrate, violation of protocol and training is relevant
both to the substantive due process and qualiﬁed immunity inquiries.

4

Cf. Kennedy, 439 F.3d at 1063 & n.3 (denying qualiﬁed immunity to an ofﬁcer who had told the alleged perpetrator about
complaints of child molestation against him, where the record evidence made clear that ofﬁcers had received training that the best
time to contact an offender is “[a]t the end of the investigation”
with “all [the] facts in order”).

App. 196
Beyond the dearth of facts on police procedure and
training, the record also offers no facts on exactly what
the ofﬁcers knew about the veracity of the allegations
that Irish had made, about Lord’s propensity for violence, and about the risk that Lord would act on that
propensity to harm Irish. We do not know how much
time the ofﬁcers spent with Irish to go over her written
statement that Lord had strangled, raped, and repeatedly threatened to kill her. We do not know whether
the ofﬁcers contacted the local hospital for Irish’s rape
kit before alerting Lord about her accusations. We do
not know whether the State Police had prior experience with Lord. We do not know whether the ofﬁcers
ran Lord’s name through the system to check if he had
a criminal record. (In fact, the complaint alleges that
Lord is a registered sex offender.) We do not know
whether they reached out to the BPD, which had referred Irish’s case to the State Police. (If they had done
so, they might have learned that Irish had obtained a
PFA order against Lord and was in the process of obtaining another one.) We do not know whether the
voice message was left on Lord’s cell phone. We do not
know whether the ofﬁcers made any attempt to ﬁnd
Lord after Irish reported that her parents’ barn had
been set on ﬁre and that he had told his friend that
“someone was going to die tonight” after receiving the
ofﬁcers’ message. We do not know if the ofﬁcers felt
they had probable cause to arrest Lord but nonetheless
chose only to leave the voice message and, if so, the
reasons for that decision.

App. 197
All or some of the answers to these questions
may be pertinent to the substantive due process and
qualified immunity issues. If discovery reveals that
the officers’ actions violated accepted norms of police
procedure or that they acted despite foreseeing the
harm to Irish, it may strengthen the plaintiffs’ argument that the ofﬁcers exacerbated the danger that
Lord posed. It may also directly speak to whether the
ofﬁcers acted in deliberate indifference to Irish’s safety,
so much so that their conduct shocks the conscience.
By contrast, if discovery reveals that no protocols
were violated, then the plaintiffs may have a harder
time surviving a 12(b)(6) motion. While the fact that
the ofﬁcers did not take further discretionary steps to
ensure Irish’s safety may amount to negligence, mere
negligence would be insufﬁcient to maintain a claim of
substantive due process violation. See Cummings v.
McIntire, 271 F.3d 341, 344 (1st Cir. 2001) (“[N]egligent
conduct is ‘categorically beneath the threshold of constitutional due process. . . .’ ” (quoting Lewis, 523 U.S.
at 849)). Similarly, if no or few protocols were violated,
then the ofﬁcers’ chance of successfully asserting qualiﬁed immunity may increase, as a reasonable ofﬁcer
may not have known that acting in line with their own
standard procedures and training would violate a private citizen’s constitutional rights. See Mlodzinski v.
Lewis, 648 F.3d 24, 32 (1st Cir. 2011) (qualified immunity protects officers from liability “insofar as their
conduct does not violate clearly established . . . constitutional rights of which a reasonable person would
have known” (citation omitted)). But we cannot reach

App. 198
any of these conclusions without a fuller development
of the facts.
We vacate the district court’s ruling as to the individual defendants and remand the case with instructions for discovery not inconsistent with this opinion.
No costs are awarded.

App. 199
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
BRITTANY IRISH, individually and as personal representative of the estate of
KYLE HEWITT, deceased,
and KIMBERLY IRISH,

)
)
)
)
)
)
Plaintiffs,
)
v.
) 1:15-cv-00503-JAW
)
STATE OF MAINE, STATE
POLICE OF THE STATE OF )
MAINE, and JOHN AND/OR )
JANE DOES, STATE POLICE )
OFFICERS 1-10,
)
)
Defendants.
)
ORDER ON MOTION TO DISMISS
(Filed Sep. 12, 2016)
This case arises out of a terrible tragedy that took
place in Aroostook and Penobscot Counties, Maine, in
July of 2015, when the former boyfriend of Brittany
Irish entered her house, shot and killed her new boyfriend, shot and grievously wounded her mother, and
abducted her. Ms. Irish, her mother, and the estate of
her deceased boyfriend ﬁled a civil action against the
state of Maine, the Maine State Police, and a number
of police ofﬁcers on the ground that, despite explicit
warnings from Ms. Irish, the police notified her old
boyfriend that she had gone to the police to complain

App. 200
that he had sexually assaulted her and then the Defendants had failed to protect them from the ensuing
harm. Even though the facts in this case are especially
compelling, the Court has concluded that the law does
not allow the Plaintiffs’ lawsuit to continue against
these governmental Defendants and therefore grants
the Defendants’ motion to dismiss.
I.

BACKGROUND
A. Procedural History

On December 10, 2015, Brittany Irish, individually and as personal representative of the estate of
Kyle Hewitt, deceased, and Kimberly Irish (Plaintiffs)
ﬁled a three-count complaint in this Court, bringing a
civil rights action against the state of Maine, the
Maine State Police, and ten certain known and unknown state of Maine police ofﬁcers (Defendants).
Compl. at 1 (ECF No. 1) (Compl.). The Defendants ﬁled
a motion to dismiss the Complaint on February 19,
2016. Defs.’ Mot. to Dismiss Compl. (ECF No. 4) (Defs.’
Mot.). On February 22, 2016, the Plaintiffs ﬁled a response to the Defendants’ motion. Pls.’ Opp’n to Defs.’
Mot. to Dismiss [Dkt. No. 4] (ECF No. 5) (Pls.’ Opp’n).
The Defendants ﬁled a reply to the Plaintiffs’ response
on February 24, 2016. Defs.’ Reply in Supp. of Mot. to
Dismiss Compl. (ECF No. 6) (Defs.’ Reply).

App. 201
B. Factual Background1
Brittany Irish met Anthony Lord over four years
ago, at which time Mr. Lord was a registered sex offender. Compl. ¶¶ 9-10. In 2011, for herself and on behalf of her son, J., Ms. Irish obtained a Protection from
Abuse (PFA) order against Mr. Lord; the PFA lasted
two years and expired in 2013. Id. ¶ 11. Also in 2013,
Ms. Irish began residing with Kyle Hewitt. Id. ¶ 12.
Later in 2013, Ms. Irish reconciled with Mr. Lord and
began living with him in Millinocket, Maine. Id. ¶ 13.
In approximately May, 2013, Ms. Irish and her son resumed living with Mr. Hewitt in Old Town, Maine; in
March, 2014, Ms. Irish’s son, J., Ms. Irish, Mr. Hewitt,
and their newborn son, B., moved to Bangor, Maine. Id.
¶ 14-15.
In March, 2015, while separated from Mr. Hewitt,
Ms. Irish “reconnected with Lord and remained in a
friendship relationship with Lord for a number of
weeks.” Id. ¶ 16. However, by late April or early May,
2015, Mr. Lord began threatening and harassing Ms.
Irish and conveyed to her his desire for the relationship to become intimate, including using explicit sexual communications. Id. Ms. Irish immediately
contacted the Bangor Police Department, which recommended that she stay away from and obtain a PFA order against Mr. Lord. Id. ¶ 17. On or about July 6, 2015,
as she “made plans” to obtain a PFA order, Ms. Irish
1

In considering a motion to dismiss, the Court assumes the
truth of the complaint’s well-pleaded facts and draws all reasonable inferences in the plaintiff ’s favor. Schatz v. Republican State
Leadership Comm., 669 F.3d 50, 55 (1st Cir. 2012).

App. 202
resumed living with Mr. Hewitt. Id. ¶ 18. On July 14,
2015, Ms. Irish met with Mr. Lord at his request at a
local IGA food store; there, Mr. Lord abducted Ms. Irish
and drove her to rural Aroostook County, Maine, where
he repeatedly sexually assaulted her, strangled her
with a seatbelt, and threatened to kill her. Id. ¶ 20. Mr.
Lord speciﬁcally threatened to kill her if she reported
the sexual assaults. Id. Ms. Irish believed Mr. Lord was
sexually obsessed with her, and Mr. Lord indicated to
Ms. Irish he was suicidal. Id. ¶ 21.
The following day, July 15, 2015, Ms. Irish went to
her local hospital and submitted to a rape kit evaluation. Id. ¶ 22. Later that day, Ms. Irish reported to
the Bangor Police Department that she had been sexually assaulted by Mr. Lord; because the abduction
and assault occurred in two counties (Penobscot and
Aroostook) the Bangor Police Department referred Ms.
Irish to the Maine State Police. Id. The Maine State
Police asked Ms. Irish to drop off a written statement
the next day. Id.
On July 16, 2015, Mr. Lord asked Ms. Irish to meet
with him to “talk about what had happened.” Id. ¶ 24.
Ms. Irish advised the Maine State Police of the conversation and asked that she meet with Mr. Lord to “elicit
a confession from him,” and that she “could wear a wire
or be otherwise monitored,” believing she could “keep
him stable and herself safe.” Id. The Maine State Police
refused Ms. Irish’s request, stating “that’s not the way
we do it.” Id. ¶ 25. Instead, the Maine State Police told
Ms. Irish that they were going to call Mr. Lord, tell him
that she had alleged that he sexually assaulted her,

App. 203
and ask Mr. Lord to meet with the Maine State Police
“to give his side of the story.” Id. Ms. Irish told the
Maine State Police that “she was afraid that that
would incite Lord to terrible violence and that she
would not thereupon be safe.” Id. ¶ 26. Later that day,
unidentiﬁed members of the Maine State Police told
Ms. Irish that they had left a voice message for Mr.
Lord advising him of her accusations and “asking him
to come to the local State Police barracks.” Id. ¶ 27.
Approximately two hours later, on July 16, 2015,
Ms. Irish learned that her parents’ barn in Benedicta,
Maine was on ﬁre, and Ms. Irish “immediately suspected that Lord had set the ﬁre.” Id. ¶¶ 28-29. Ms.
Irish contacted the Maine State Police and, with Mr.
Hewitt, traveled to her parents’ home in Benedicta. Id.
¶ 30. In Benedicta later that day, Ms. Irish met with
two state troopers. Id. ¶ 31. While she was meeting
with the state troopers, Ms. Irish received a telephone
call from her brother’s friend. Id. ¶ 32. The friend
stated that a friend of Mr. Lord’s had stated that when
Mr. Lord received the voice message from the Maine
State Police he became “immediately incensed and agitated and had indicated that ‘someone was going to
die tonight,’ ” and had “expressly stated that he was going to kill someone that night due to the State Police
call.” Id. Ms. Irish then asked the state troopers to assign someone to protect her and her children overnight. Id. ¶ 33. The state troopers told her that “they
could not spare the manpower to protect anyone but
would, rather, ‘keep an eye on the situation.’ ” Id. Ms.
Irish’s mother, Kimberly Irish, asked the state troopers

App. 204
to park a police car outside of their house overnight
because “she felt that that ruse, at least, would keep
Lord away”; the state troopers replied “that they could
not even spare a car.” Id. ¶ 34.
That evening, on July 16, 2015, “several State Police cars were observed approximately eleven miles
away ‘dumpster diving,’ apparently looking for accelerant from the Benedicta ﬁre.” Id. ¶ 35. Later that evening, Ms. Irish called the Maine State Police “to inquire,
again, why no State Police ofﬁcer or car was stationed
at the home when it was obvious that Lord was incensed by the State Police call which he had received
advising him of Brittany Irish’s claim of rape and
which had inspired his death threats.” Id. ¶ 36. Early
on the morning of July 17, 2015, while Ms. Irish, her
mother, Kimberly Irish, and Mr. Hewitt were asleep in
the Benedicta home, Mr. Lord entered the house, shot
and killed Mr. Hewitt, shot and grievously wounded
Kimberly Irish, and again abducted Brittany Irish. Id.
¶ 37. While driving in his vehicle with Ms. Irish as a
hostage, Mr. Lord engaged in a shoot-out which left another individual dead; Mr. Lord was later apprehended. Id. ¶ 38.
C. The Complaint
The Plaintiffs’ Complaint alleges generally that
the Defendants are liable under 42 U.S.C. § 19832 for
2

42 U.S.C. § 1983 states in relevant part:
[e]very person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or

App. 205
violating the Plaintiffs’ constitutional rights, including
their substantive due process rights. Applying United
States Supreme Court precedent,3 the Court ﬁnds that
42 U.S.C. § 1983 provides a potential cause of action for
the Plaintiffs’ claims.4
Count I alleges that the state of Maine, the Maine
State Police, and the ten individual John and/or Jane
Doe state of Maine police ofﬁcers directly violated the
Plaintiffs’ constitutional rights by “refusing and/or
failing to provide protection” to the Plaintiffs and putting them in danger, and alternatively that the Defendants violated a “special duty” owed to the Plaintiffs

Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress. . . .
3
The Supreme Court found that “[a] broad construction of
§ 1983 is compelled by the statutory language, which speaks of
deprivations of `any rights, privileges, or immunities secured by
the Constitution and laws.’ ” Dennis v. Higgins, 498 U.S. 439, 443
(1991) (emphasis in original). Moreover, the Supreme Court has
“given full effect to [the statute’s] broad language, recognizing
that § 1983 `provide[s] a remedy, to be broadly construed, against
all forms of ofﬁcial violation of federally protected rights.’ ” Id. at
445 (internal citations omitted).
4
Although the Plaintiffs allege that this Court has pendant
jurisdiction over state law tort claims pursuant to 28 U.S.C.
§ 1367(a), Compl. ¶ 1, the Plaintiffs failed to assert any tort
claims in the Complaint. The Court does not consider the pendant
jurisdiction argument over unasserted state claims.

App. 206
because of the Defendants’ “implicit and/or express
promise to protect” the Plaintiffs. Id. ¶¶ 39-44.
Count II alleges a violation of the Plaintiffs’ substantive constitutional rights resulted from the failure
of some of the John and/or Jane Doe State Police Ofﬁcer Defendants to “properly supervise, educate, instruct, train, and/or control” other Doe Defendants. Id.
¶¶ 45-50.
Count III alleges that the state of Maine and the
Maine State Police are liable, either vicariously or under a theory of respondeat superior, for the acts of
the individual John and/or Jane Doe Defendants. Id.
¶¶ 51-53.
II.

THE PARTIES’ POSITIONS
A. The Defendants’ Motion to Dismiss

The Defendants contend that the claims against
the state of Maine and the Maine State Police should
be dismissed because states and their agencies are not
“persons” within the meaning of 42 U.S.C. § 1983 and
thus are not subject to § 1983 liability. Defs.’ Mot. at 56 (collecting cases). Moreover, the Defendants argue
that even if the state of Maine and the Maine State
Police are “persons” within the meaning of § 1983, they
are protected from suit by the doctrine of sovereign immunity and by the Eleventh Amendment, as Maine
has not consented to this lawsuit and, in enacting
§ 1983, Congress has not abrogated the States’ sovereign immunity. Id. at 6.

App. 207
Next, citing the Supreme Court’s decision in
DeShaney v. Winnebago County, Department of Social
Services, the Defendants argue the Plaintiffs have
failed to state a claim that any police ofﬁcer is responsible for the harms caused by Mr. Lord, as generally “a
State’s failure to protect an individual against private
violence simply does not constitute a violation of the
Due Process Clause.” Id. at 7 (citing 489 U.S. 189, 197
(1989)). The Defendants also deny that any exceptions
to DeShaney apply to the Plaintiffs. See id. 8-12. Speciﬁcally, the Defendants maintain that as alleged, the
facts do not suggest that any ofﬁcer made any promise
to protect the Plaintiffs from Mr. Lord, and more speciﬁcally that “[w]hile ofﬁcers allegedly told [Ms. Irish]
that they would ‘keep an eye on the situation,’ this was
in no way an implicit or express promise of protection,
especially given that the ofﬁcers allegedly told [Ms.
Irish] expressly that they ‘could not spare the manpower to protect anyone.’ ” Id. at 8. Again citing
DeShaney, in addition to First Circuit caselaw, the Defendants contend that even if police ofﬁcers promised
to protect the Plaintiffs,5 there was no “special duty”
placed on the police ofﬁcers because “[t]he afﬁrmative
duty to protect arises not from the State’s knowledge
of the individual’s predicament or from its expressions
of intent to help him,” but only when the state takes a
5

The Defendants note that “[e]ven if telling [Ms. Irish] that
they would `keep an eye on the situation’ could be construed as a
promise to protect her, plaintiffs do not allege that [Ms. Irish’s]
mother (Kimberly Irish) or Hewitt participated in, or we [sic] even
aware of, that conversation,” and “[t]hus, no promise was made to
either of them.” Defs.’ Mot. at 8 n.4.

App. 208
person into its custody and holds him against his will.
Id. at 8-9 (quoting 489 U.S. at 200).
Additionally, the Defendants submit that none of
the unidentiﬁed police ofﬁcers created or substantially
contributed to the danger posed by Mr. Lord, heading
off assertions of a constitutional violation against the
police ofﬁcers’ failure to protect against private violence under the “state-created danger theory.” Id. at 9.
The Defendants contend this theory applies only if the
“state actors have taken afﬁrmative acts to create or
exacerbate the danger posed by third parties,” id. at 10
(emphasis provided by Defendants), and that the First
Circuit case of Rivera v. Rhode Island, 402 F.3d 27 (1st
Cir. 2005), forecloses any liability for the police ofﬁcers’
afﬁrmative act of calling Mr. Lord and informing him
of Ms. Irish’s sexual assault allegations, as the First
Circuit concluded that identifying witnesses and taking their statements does not impose constitutional liability on the state, even if it enhances the danger to
the witness. Id. at 10-11 (citing Rivera, 402 F.3d at 37).
The Defendants further argue that in order to be
successful on a substantive due process claim, the First
Circuit requires that a state actor’s conduct be “so egregious as to shock the conscience” and the Plaintiffs
have not alleged sufﬁcient facts to satisfy this element.
Id. at 12 (collecting cases). Speciﬁcally, they assert
that “it is impossible to see how police engage in conscience-shocking conduct simply by conducting the
routine investigatory step of seeking to interview the
alleged perpetrator of a serious crime.” Id. at 13.

App. 209
Furthermore, the Defendants contend that even if
the Plaintiffs have stated a substantive due process
claim, the state police ofﬁcers, as government ofﬁcials,
are entitled to qualiﬁed immunity. Id. The Defendants
explain that government ofﬁcials “are entitled to qualiﬁed immunity unless (1) ‘the facts that a plaintiff has
alleged or shown make out a violation of a constitutional right’ and (2) ‘the right at issue was ‘clearly established’ at the time of their alleged misconduct,’ ”
and note that the second, “clearly established” prong
has two aspects: (1) the “clarity of the law at the time
of the alleged civil rights violation,” and (2) “the facts
of the particular case and whether a reasonable defendant would have understood that his conduct violated the plaintiffs’ constitutional rights.” Id. at 14
(citing Walden v. City of Providence, 596 F.3d 38, 52 (1st
Cir. 2010)). The Defendants argue that if the Court
were to ﬁnd an alleged constitutional violation, given
that “neither the Supreme Court nor the First Circuit
has ever recognized the state-created danger theory
or held that promises of protection give rise to a constitutional duty,” “the ofﬁcers could not possibly have
had fair warning [that their actions] were somehow
violating plaintiffs’ substantive due process rights,”
particularly because the Defendants could not have
understood that their decisions rose to the level of “conscious-shocking” behavior. Id. at 15.
As to the supervisory liability claim, the Defendants assert that without a valid substantive due process claim there can be no vicarious liability, but even
if the Court were to ﬁnd a constitutional violation and

App. 210
that qualiﬁed immunity did not apply, the Plaintiffs’
claim still must fail because “[i]t is well established
that ‘vicarious liability is inapplicable to . . . § 1983
suits,’ ” as it must be pleaded “that each Government
ofﬁcial defendant, through the ofﬁcial’s own individual
actions, has violated the Constitution.” Id. at 15-16
(citing Ashcroft v. Iqbal, 556 U.S. 662, 676 (2009)).
Moreover, the Defendants argue that the Plaintiffs’ allegations of certain ofﬁcers’ failure to train and supervise are vague and insufﬁcient to support a supervisor
liability claim. Id. at 17. Lastly, regarding the respondeat superior and vicarious liability claims, Defendants submit that the state of Maine and the Maine
State Police could not be liable, as neither can be subject to § 1983 claims, and even if they could, respondeat
superior and vicarious liability do not apply under
§ 1983. Id. at 17.
B. The Plaintiffs’ Response
The Plaintiffs respond that, whereas a state’s failure to protect an individual against private violence
does not ordinarily constitute a constitutional violation, “that general principle is not absolute and an afﬁrmative, constitutional duty to protect arises where
the State, as here, creates the danger to an individual,”
and “that general principle may be obviated where a
‘special relationship’ exists between the parties which
requires that the State provide reasonable protection.”
Pls.’ Opp’n at 7.

App. 211
The Plaintiffs maintain that “when the state enters into a special relationship with a particular citizen, it may be held liable for failing to protect him or
her from the private actions of third parties,” and they
argue “[a]ppellate (and trial) courts from across the
country have found a ‘special relationship’ to exist in
circumstances analogous to those presented here.” Id.
at 8-9 (collecting cases).
Further, the Plaintiffs contend that their Complaint should be allowed to proceed under the statecreated danger doctrine, “which has long recognized a
viable civil rights claim where state actor(s) create a
foreseeable, direct danger in willful disregard of the
safety of the plaintiff.” Id. at 9. The Plaintiffs contend
that a relationship existed between Ms. Irish and the
state police ofﬁcers because “by communicating the
rape allegations to the state police, who then communicated same on to Lord, [Ms. Irish] had abdicated the
relative safety of her own controlled relationship with
Lord in favor of the state police,” id. at 11, and that the
state police ofﬁcers:
created the peril . . . by contacting Lord over
Plaintiff Brittany Irish’s objections and advising him of Brittany’s rape allegations thereby
investing him with great anger, refusing to allow Brittany to contact Lord directly and
thereby control his anger, failing to respond to
the ensuing ﬁre at her parents’ property in
close proximity to Brittany (and the other
Plaintiffs), ignoring Lord’s direct death threat
and failing and refusing to provide protection,

App. 212
or even the appearance of protection (an unoccupied state police cruiser).
Id. at 10.
As to the conscious-shocking test requirement for
substantive due process claims, Plaintiffs assert the
facts alleged in the Complaint “tell a shocking tale.” Id.
at 11. Lastly, in addressing the Defendants’ qualiﬁed
immunity claim, the Plaintiffs argue the test outlined
by the Defendants is “one of ‘fair warning’ and nothing
more,” that that “[t]o the extent that the constitutionally-protected civil right at issue involves the ‘failure
to protect,’ the parameters of the governing law was
long well settled in the First Circuit . . . as of July 16,
2015.” Id. at 12-13.
C. The Defendants’ Reply
The Defendants contend the Plaintiffs failed to
distinguish the most direct case on point – Rivera v.
Rhode Island – which forecloses their arguments that
a promise of protection gives rise to any duty to protect.
Defs.’ Reply at 1. In addition, the Defendants distinguish Wood v. Ostrander, 879 F.2d 583 (9th Cir. 1989)
from the facts here and note the First Circuit in Rivera
cited the Ninth Circuit decision for the proposition that
other courts “have recognized the existence of a constitutional violation when, on particular facts, the state
fails to protect against private violence under this
state created danger theory,” id. at 2 (quoting Rivera,
402 F.3d at 35), but the First Circuit nevertheless held
“that promises of protection and the performance of

App. 213
routine law enforcement activities do not give rise to a
state-created danger claim.” Id. The Defendants also
assert that Rivera demonstrates that the police ofﬁcer
Defendants are entitled to qualiﬁed immunity, as
“[a]ny reasonable police ofﬁcer reading Rivera would
have understood that interviewing an alleged perpetrator does not violate principles of substantive due
process, even when doing so might increase the risk to
the accuser,” and moreover that the Plaintiffs have
cited no caselaw from the United States Supreme
Court, the First Circuit, or this Court “that possibly
could have given the [D]efendants ‘fair warning’ that
they would violate [Ms. Irish’s] constitutional rights by
seeking to obtain a statement from Lord.” Id. at 2-3.
Lastly, the Defendants note that in their response
to the motion to dismiss, the Plaintiffs did not address
the argument that neither the state of Maine nor the
Maine State Police is subject to § 1983 liability, nor the
argument that the Plaintiffs failed to allege a basis for
supervisory or respondeat superior liability, and thus,
even if the Plaintiffs alleged a due process claim, the
state of Maine, the Maine State Police, and any individual supervisory Defendants are still entitled to dismissal. Id. at 3.
III. LEGAL STANDARD
A. Subject Matter Jurisdiction
The Defendants moved to dismiss pursuant to
Rule 12(b)(1) and Rule 12(b)(6) of the Federal Rules of
Civil Procedure. “A motion to dismiss an action under

App. 214
Rule 12(b)(1) . . . raises the fundamental question
whether the federal district court has subject matter
jurisdiction over the action before it.” United States v.
Lahey Clinic Hosp., Inc., 399 F.3d 1, 8 n.6 (1st Cir. 2005)
(internal citation omitted). “The burden falls on the
plaintiff to clearly allege facts demonstrating that he
is a proper party to invoke federal jurisdiction.” Dubois
v. U.S. Dep’t of Agric., 102 F.3d 1273, 1281 (1st Cir.
1996) (citation and internal quotation marks omitted).
In ruling on a Rule 12(b)(1) motion, the Court “must
construe the complaint liberally, treating all wellpleaded facts as true and indulging all reasonable inferences in favor of the plaintiff.” Aversa v. United
States, 99 F.3d 1200, 1209-10 (1st Cir. 1996). “If the
Court determines at any time that it lacks subjectmatter jurisdiction, the court must dismiss the action.”
FED. R. CIV. P. 12(h)(3).
B. Failure to State a Claim
When evaluating a motion to dismiss under Federal Rule of Civil Procedure 12(b)(6) for failure to state
a claim upon which relief can be granted, a court must
determine “whether, construing the well-pleaded facts
of the complaint in the light most favorable to the
plaintiffs, the complaint states a claim for which relief
can be granted.” Ocasio-Hernández v. Fortuño-Burset,
640 F.3d 1, 7 (1st Cir. 2011) (citing FED. R. CIV. P.
12(b)(6)). A court need not assume the truth of conclusory allegations, and the complaint must state at least
a “plausible claim for relief.” Iqbal, 556 U.S. at 678-79.
However, “[n]on-conclusory factual allegations in the

App. 215
complaint must . . . be treated as true, even if seemingly incredible.” Ocasio-Hernández, 640 F.3d at 12. A
court may not “attempt to forecast a plaintiff ’s likelihood of success on the merits.” Id. at 12-13.
In 2007, the United States Supreme Court issued
Twombly, which emphasized the need for a plaintiff ’s
complaint to marshal sufﬁcient facts to demonstrate a
“plausible entitlement to relief.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 559 (2007). Two years later, in
Iqbal, the United States Supreme Court reﬁned the
dismissal standard:
To survive a motion to dismiss, a complaint
must contain sufﬁcient factual matter, accepted as true, to state a claim to relief that
is plausible on its face. A claim has facial
plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable
for the misconduct alleged.
556 U.S. at 678 (internal quotation marks and citations
omitted). The Iqbal Court suggested that courts, when
considering motions to dismiss, could “choose to begin
by identifying pleadings that, because they are no
more than conclusions, are not entitled to the assumption of truth.” Id. at 679. Having isolated “the wellpleaded factual allegations, a court should assume
their veracity and then determine whether they plausibly give rise to an entitlement to relief.” Id.
In 2013, the First Circuit described the Twombly
and Iqbal decisions as “watershed cases.” García-Catalán

App. 216
v. United States, 734 F.3d 100, 101 (1st Cir. 2013). The
“plausibility standard,” the First Circuit wrote, has
become “the ‘new normal’ in federal civil practice.” Id.
(quoting A.G. v. Elsevier, Inc., 732 F.3d 77, 78-79 (1st
Cir. 2013)). The First Circuit explained that “[t]he
plausibility inquiry necessitates a twostep pavane.” Id.
at 103 (citing Rodríguez-Reyes v. Molina-Rodríguez,
711 F.3d 49, 53 (1st Cir. 2013)). “First, the court must
distinguish ‘the complaint’s factual allegations (which
must be accepted as true) from its conclusory legal allegations (which need not be credited).’ ” Id. (quoting
Morales-Cruz v. Univ. of P.R., 676 F.3d 220, 224 (1st Cir.
2012)). “Second, the court must determine whether the
factual allegations are sufﬁcient to support ‘the reasonable inference that the defendant is liable for the
misconduct alleged.’ ” Id. (quoting Haley v. City of Boston, 657 F.3d 39, 46 (1st Cir. 2011) (quoting Iqbal, 556
U.S. at 678)).
Lastly, “[t]o state a claim under § 1983, a plaintiff
must allege the violation of a right secured by the Constitution and laws of the United States, and must show
that the alleged deprivation was committed by a person acting under color of state law.” West v. Atkins, 487
U.S. 42, 48 (1988). If a § 1983 complaint fails to state a
constitutional claim, it is subject to dismissal under
Rule 12(b)(6). Doe v. Metro. Police Dep’t, 445 F.3d 460,
467 (D.C. Cir. 2006). Moreover, in substantive due process cases, “the Supreme Court has held that such
claims must be carefully scrutinized to determine if
the alleged facts support the conclusion that the state
has violated an individual’s constitutional rights.”

App. 217
Rivera, 402 F.3d at 33 (citing Collins v. City of Harker
Heights, 503 U.S. 115, 125 (1992)).
IV. DISCUSSION
A. Section 1983 Liability
The Supreme Court held that a state is not a “person” within the meaning of § 1983 and not subject to
§ 1983 liability.6 Will v. Michigan Dep’t of State Police,
491 U.S. 58, 64 (1989); 42 U.S.C. § 1983 (“Every person
who, under color of any statute, ordinance, regulation,
custom, or usage . . . subjects, or causes to be subjected,
any citizen of the United States . . . to the deprivation
of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law . . . ”) (emphasis added). As
the First Circuit explained, “[n]o cause of action for
damages is stated under 42 U.S.C. § 1983 against a
state, its agency, or its ofﬁcials acting in an ofﬁcial
6

Section 1983 provides a federal forum to remedy
many deprivations of civil liberties, but it does not
provide a federal forum for litigants who seek a remedy against a State for alleged deprivations of civil
liberties. The Eleventh Amendment bars such suits
unless the State has waived its immunity, or unless
Congress has exercised its undoubted power under § 5
of the Fourteenth Amendment to override that immunity. That Congress, in passing § 1983, had no intention to disturb the States’ Eleventh Amendment
immunity and so to alter the federal-state balance in
that respect was made clear in our decision in [Quern
v. Jordan, 440 U.S. 332 (1979)].
Will v. Michigan Dep’t of State Police, 491 U.S. 58, 66 (1989).

App. 218
capacity.” Nieves-Márquez v. Puerto Rico, 353 F.3d 108,
124 (1st Cir. 2003) (citing Will, 491 U.S. at 71); Brown
v. Newberger, 291 F.3d 89, 92 (1st Cir. 2002) (“The
claims under 42 U.S.C. § 1983 fail because a state
and its agencies are not ‘persons’ ”); Hutchins v. Maine
State Hous., No. 1:14-CV-00491-JAW, 2015 WL
2250672, at *6 n.13 (D. Me. May 13, 2015) (“Section
1983 provides a cause of action against ‘persons’ acting
under color of state law. The State of Maine and its
agencies are not persons and cannot be sued under
§ 1983”); Marcello v. Maine, 464 F. Supp. 2d 38, 44 (D.
Me. 2006) (same). The Plaintiffs’ claims against the
state of Maine and the Maine State Police are not cognizable under federal law.
B. Sovereign Immunity
The doctrine of sovereign immunity presents a
second rationale for dismissing the state of Maine and
the Maine State Police from this action. The doctrine
is grounded in the Eleventh Amendment to the United
States Constitution, which provides: “[t]he Judicial
power of the United States shall not be construed to
extend to any suit in law or equity, commenced or prosecuted against one of the United States by Citizens of
another State, or by Citizens or Subjects of any Foreign
State.” U.S. CONST. amend. XI. In practice, “[t]he Eleventh Amendment bars such suits unless the State has
waived its immunity, or unless Congress . . . override[s]
that immunity.” Will, 491 U.S. at 66 (internal citation
omitted); Seminole Tribe of Florida v. Florida, 517 U.S.
44, 54-55 (1996). Moreover, sovereign immunity

App. 219
extends to agents and instrumentalities of the state.
Regents of the Univ. of Cal. v. Doe, 519 U.S. 425, 429
(1997).
The state of Maine “regards the immunity from
suit as ‘one of the highest attributes inherent in the
nature of sovereignty,’ ” Cushing v. Cohen, 420 A.2d
919, 923 (Me. 1980) (quoting Drake v. Smith, 390 A.2d
541, 543 (Me. 1978)), and adheres to the general rule
that “a speciﬁc authority conferred by an enactment of
the legislature is requisite if the sovereign is to be
taken as having shed the protective mantle of immunity.” Cushing, 420 A.2d at 923; see also Doyle v. State,
No. 2:15-CV-00078-JAW, 2015 WL 5813312, at *5 (D.
Me. Oct. 5, 2015). In the Complaint, the Plaintiffs have
not established, nor attempted to establish, a waiver of
immunity under this standard, and as such the Court
concludes, in the absence of speciﬁc authority conferring waiver, the state of Maine has not consented to
suit. Because the state of Maine has not waived its immunity with respect to § 1983 actions, and because
Congress has not overridden that immunity, the Plaintiffs’ claims against the state must be dismissed. See
Maysonet-Robles v. Cabrero, 323 F.3d 43, 54 (1st Cir.
2003) (“Section 1983, although enacted pursuant to the
Fourteenth Amendment, did not abrogate the immunity of the States because there was insufﬁcient evidence of Congress’ desire to make States liable under
that statute”) (citing Quern v. Jordan, 440 U.S. 332, 345
(1979)). Likewise, because the Maine State Police, as
part of the state executive branch of government, is an
instrumentality of the state of Maine, it too is cloaked

App. 220
with immunity, and must also be dismissed. See Marcello, 464 F. Supp. 2d at 44.
C. Substantive Due Process Claims
The Due Process Clause of the Fourteenth Amendment provides that “[n]o State shall . . . deprive any
person of life, liberty, or property, without due process
of law.” U.S. CONST. amend. XIV, § 1. In order to establish a substantive due process claim, the Plaintiffs
must ﬁrst show a deprivation of a protected interest in
life, liberty, or property. Rivera, 402 F.3d at 33-34; see
also Rhode Island Bhd. of Correctional Ofﬁcers v.
Rhode Island, 357 F.3d 42, 49 (1st Cir. 2004); Macone
v. Town of Wakeﬁeld, 277 F.3d 1, 9 (1st Cir. 2002). Second, the Plaintiffs must show that “the deprivation of
this protected right was caused by governmental conduct.” Rivera, 402 F.3d at 34.
The Supreme Court established that the Due Process Clause of the Fourteenth Amendment does not require a state to “provide its citizens with particular
protective services” and that “the State cannot be
held liable under the Clause for injuries that could
have been averted had it chosen to provide them.”
DeShaney, 489 U.S. at 196-97. The DeShaney Court
concluded that, generally, “a State’s failure to protect
an individual against private violence simply does not
constitute a violation of the Due Process Clause.”7 Id.
7

[N]othing in the language of the Due Process Clause
itself requires the State to protect the life, liberty, and
property of its citizens against invasion by private

App. 221
at 197. However, the Court also acknowledged that “in
certain limited circumstances the Constitution imposes upon the State afﬁrmative duties of care and protection with respect to particular individuals.” Id. at
198.
The Defendants argue the circumstances here
gave rise to this afﬁrmative duty to protect. But the
DeShaney Court found this duty arises only when “the
State takes a person into its custody and holds him
there against his will,”8 and that “[t]he afﬁrmative
duty to protect arises not from the State’s knowledge
of the individual’s predicament or from its expressions
of intent to help him, but from the limitation which it
has imposed on his freedom to act on his own behalf.”
actors. The Clause is phrased as a limitation on the
State’s power to act, not as a guarantee of certain minimal levels of safety and security. It forbids the State
itself to deprive individuals of life, liberty, or property
without `due process of law,’ but its language cannot
fairly be extended to impose an afﬁrmative obligation
on the State to ensure that those interests do not come
to harm through other means.
DeShaney v. Winnebago Cty. Dep’t of Soc. Servs., 489 U.S. 189,
195 (1989).
8
The rationale for this principle is simple enough:
when the State by the afﬁrmative exercise of its power
so restrains an individual’s liberty that it renders him
unable to care for himself, and at the same time fails
to provide for his basic human needs—e.g., food, clothing, shelter, medical care, and reasonable safety—it
transgresses the substantive limits on state action set
by the Eighth Amendment and the Due Process
Clause.
DeShaney, 489 U.S. at 200.

App. 222
Id. at 199-200; see also Monahan v. Dorchester Counseling Ctr., Inc., 961 F.2d 987, 991-92 (1st Cir. 1992)
(ﬁnding a constitutional duty to protect may exist
when an individual is incarcerated or is involuntarily
committed to the custody of the state). In Rivera, relying on DeShaney, the First Circuit found there is no
duty to protect against private harm when state actors
have knowledge of a danger to a person, promise to
protect that person, the person relies on the promise,
and the state actors fail to keep the promise, resulting
in the person’s death.9 Rivera, 402 F.3d at 37-38; see
also Hill-Spotswood v. Mayhew, No. 1:14-CV-00206GZS, 2015 WL 403931, at *4 (D. Me. Jan. 29, 2015)
(“Nonfeasance by a state actor, including unfulﬁlled or
unkept promises to protect, does not deprive an individual of their liberty or ability to act”).
The holdings in DeShaney and Rivera forestall the
Plaintiffs’ argument that any promises of protection
made by state police ofﬁcers created a “special duty” to
protect. Moreover, the Court notes that the only alleged
“promise” made by the state police ofﬁcers to the Plaintiffs occurred when the ofﬁcers told Ms. Irish that “they
could not spare the manpower to protect anyone but
would, rather, ‘keep an eye on the situation.’ ” Compl.
9

In Rivera, Jennifer Rivera witnessed a murder and twice
went to the local police station to make a statement and identify
the murderer. 402 F.3d at 31. Thereafter, Ms. Rivera was continually threatened with death if she agreed to testify about the murder. Id. The threats were conveyed to the police department,
which repeatedly assured her that she would be safe in order to
secure her testimony. Id. at 31-32. The day before Ms. Rivera was
scheduled to testify, she was killed in front of her house. Id.

App. 223
¶ 33. Regardless of whether the statement made by the
state police ofﬁcers to Ms. Irish amounts to a promise
to protect her, no substantive due process violation occurred.10
The Rivera Court recognized that in DeShaney,
the Supreme Court suggested that it is only when the
state creates the danger to an individual that an afﬁrmative duty to protect may arise:
[w]hile the State may have been aware of the
dangers that [the plaintiff ] faced in the free
world, it played no part in their creation, nor
did it do anything to render him any more vulnerable to them. [By returning the plaintiff ’s
child to his abusive father, the State] placed
him in no worse position than that in which
he would have been had it not acted at all.
Rivera, 402 F.3d at 34-35 (quoting DeShaney, 489 U.S.
at 201). Other courts have identiﬁed this exception and
have determined that in limited situations and under
particular facts, a state actor may be found to have
committed a substantive due process violation where
the state actor creates the danger to an individual and
fails to protect that individual from the danger. HillSpotswood, 2015 WL 403931, at *3 (citing Rivera, 402
10

The Court is doubtful whether, even assuming the facts
alleged in the Complaint are true, the statement by the state police may be fairly construed as a promise of protection, especially
given that the state police also allegedly stated that “they could
not even spare a car” to park outside of the house overnight as a
“ruse” to “keep Lord away.” Compl. ¶ 34. If the statement is not
such a promise, this would constitute a separate basis to conclude
that the Plaintiffs’ Complaint is subject to dismissal.

App. 224
F.3d at 34-35 (at least three circuit courts have recognized a constitutional violation when the state fails to
protect an individual against private violence under
the state created danger theory)); see Kallstrom v. City
of Columbus, 136 F.3d 1055, 1066-67 (6th Cir. 1998);
Reed v. Gardner, 986 F.2d 1122, 1125-26 (7th Cir.
1993); Ostrander, 879 F.2d at 589-90.
The First Circuit has addressed the state-created
danger theory but has never found it applicable to a
case before it. See e.g., Rivera, 402 F.3d at 38; J.R. v.
Gloria, 593 F.3d 73, 79 n.3 (1st Cir. 2010) (“This case
does not involve the state-created danger theory, which
this circuit has never, in any event, found applicable”);
Bennett v. Wainwright, 548 F.3d 155, 163 n.2 (1st Cir.
2008) (“Since the Estate failed to meet the threshold
pleading requirement of identifying the deprivation of
a recognized interest, we need not reach the question
of whether this circuit recognizes a statecreated danger theory of liability”); Coyne v. Cronin, 386 F.3d 280,
287 (1st Cir. 2004) (“[W]e have recognized that the Due
Process Clause may be implicated where the government afﬁrmatively acts to increase the threat to an individual of third-party private harm or prevents that
individual from receiving assistance”); Souza v. Pina,
53 F.3d 423, 427 (1st Cir. 1995) (ﬁnding that actions
taken by a prosecutor implicating plaintiff in murders
were not the type of afﬁrmative acts that give rise to a
constitutional duty to protect under the state created
danger theory).
The state-created danger theory applies only if,
inter alia, a state actor takes afﬁrmative acts to create

App. 225
or exacerbate the danger posed by third parties. See
Ramos-Piñero v. Puerto Rico, 453 F.3d 48, 55 n.9 (1st
Cir. 2006) (“To the extent plaintiffs attempt to ground
liability in the so-called ‘state-created danger’ theory,
the absence of an afﬁrmative act by the state in creating the danger is fatal to the claim”); Rivera, 402 F.3d
at 35; Robbins v. Maine Sch. Admin. Dist. No. 56, 807
F. Supp. 11, 13 (D. Me. 1992) (“A state may be held liable if it can fairly be said to have afﬁrmatively acted to
create or exacerbate a danger to the victims. Mere nonfeasance has been held insufﬁcient to constitute the
requisite state action”) (citation omitted).
Ms. Irish alleges that the state police ofﬁcers afﬁrmatively acted to create or exacerbate the danger to
her when they called Mr. Lord and informed him that
she had alleged that he sexually assaulted her, despite
her objections to the ofﬁcers that this would “incite
Lord to terrible violence and that she would not thereupon be safe.” Compl. ¶¶ 25-27. Rivera provides guidance here.11 In Rivera, the First Circuit rejected the
11

The Plaintiffs cite caselaw from the Third and Tenth Circuit that outlines four- and ﬁve-part tests, respectively, for evaluating state-created danger claims. Pls.’ Opp’n at 9-10, 10 n.2
(citing Kneipp v. Tedder, 95 F.3d 1199, 1208 (3d Cir. 1996); Mark
v. Borough of Hatboro, 51 F.3d 1137, 1152 (3d Cir. 1995); Uhlrig
v. Harder, 64 F.3d 567, 574 (10th Cir. 1995)). The First Circuit
has cited both Kneipp and Uhlrig with apparent approval. See
Ramos-Piñero v. Puerto Rico, 453 F.3d 48, 54 (1st Cir. 2006);
Enwonwu v. Gonzales, 438 F.3d 22, 30 (1st Cir. 2006). The First
Circuit has not, however, formally adopted these tests. See
Rivera, 402 F.3d at 37.
The four-factor Third Circuit standard for imposing constitutional liability for a state-created danger requires (1) the harm

App. 226
argument that the defendants’ actions in identifying
Ms. Rivera as a witness and taking her witness statement in the course of investigating a murder – despite
having knowledge of threats against her because of her
cooperation as a witness – compelled her to testify and
thus enhanced the danger to her. Rivera, 402 F.3d at
37. The Rivera Court found “[b]oth are necessary law
enforcement tools, and cannot be the basis to impose
constitutional liability on the state.” Id. Similarly, the
First Circuit rejected the argument that the defendants increased the risk to Ms. Rivera by issuing her a
subpoena to testify at trial, describing a subpoena as a
ultimately caused was foreseeable and direct; (2) the state actor
acted in willful disregard for the safety of the plaintiff; (3) there
existed some relationship between the state and the plaintiff; and
(4) the state actors used their authority to create an opportunity
that otherwise would not have existed for the third party’s crime
to occur. Kneipp, 95 F.3d at 1208. In Kneipp, the Third Circuit
explained that the relationship element requires that the plaintiff
allege a “relationship between the state and the person injured
. . . during which the state places the victim in danger of a foreseeable injury.” Id. at 1209.
The Tenth Circuit standard is that the Plaintiff must
demonstrate that “(1) [the plaintiff ] was a member of a limited
and speciﬁcally deﬁnable group; (2) Defendants’ conduct put [the
plaintiff ] and the other members of that group at substantial risk
of serious, immediate and proximate harm; (3) the risk was obvious or known; (4) Defendants acted recklessly in conscious disregard of that risk; and (5) such conduct, when viewed in total, is
conscience shocking.” Uhlrig, 64 F.3d at 574.
The only allegation that could arguably meet Third and
Tenth Circuit requirements is the voice message to Mr. Lord, but
in Rivera the First Circuit exempted the use of “necessary law
enforcement tools”, such as contacting a witness or a potential defendant, from the imposition of constitutional liability. Id. at 37.

App. 227
“vital prosecutorial tool,” and concluding that “[w]hile
requiring [Ms. Rivera’s] testimony may in fact have increased her risk, issuance of a subpoena did not do so
in the sense of the state created danger doctrine.” Id.
Here, it follows that seeking to interview Mr. Lord, an
alleged perpetrator of a sexual assault, was a “necessary law enforcement tool” and is not a basis to impose
constitutional liability on the state police ofﬁcers. Indeed, for the police ofﬁcers not to investigate these accusations would be a dereliction of their duties as law
enforcement.12
Moreover, to maintain a substantive due process
claim against the Defendants, the Plaintiffs must allege “conduct . . . so extreme as to ‘shock the conscience.’ ” Cummings v. McIntire, 271 F.3d 341, 344 (1st
Cir. 2001) (quoting Cty. of Sacramento v. Lewis, 523
12

Moreover, the Court is not persuaded by the Plaintiffs’ argument that “by communicating the rape allegations to the state
police, who then communicated same on to Lord, [Ms. Irish] had
abdicated the relative safety of her own controlled relationship
with Lord in favor of the state police.” Pls.’ Opp’n at 11. To argue
that Ms. Irish had a “controlled relationship” with Mr. Lord is inconsistent with the facts alleged by the Plaintiffs: in 2011, Ms.
Irish obtained a Protection from Abuse (PFA) order against Mr.
Lord, Compl. ¶ 11, in late April or early May, 2015, Mr. Lord began threatening and harassing Ms. Irish and conveyed to her his
desire for the relationship to become intimate, including using
explicit sexual communications, Compl. ¶16, and on July 14,
2015, Mr. Lord abducted Ms. Irish and repeatedly sexually assaulted her, strangled her, and threatened to kill her. Compl.
¶ 20. Under the Twombly plausibility standard, the Court is required to accept the facts alleged by the plaintiff, but not legal
argument in the guise of facts. García-Catalán v. United States,
734 F.3d 100, 103 (1st Cir. 2013).

App. 228
U.S. 833, 846-47 (1998)); Pagán v. Calderón, 448 F.3d
16, 32 (1st Cir. 2006); Berry v. RSU 13 Sch. Bd., No.
2:15-CV-00146-JAW, 2016 WL 742901, at *19 (D. Me.
Feb. 24, 2016); Rivera, 402 F.3d at 33-34 (explaining
that “it is not enough to claim the governmental action
shocked the conscience” but a plaintiff must also show
a deprivation of a protected interest). The First Circuit
observed that this standard was “deliberately . . . set
high to protect the Constitution from demotion to
merely a ‘font of tort law.’ ” McIntire, 271 F.3d at 344
(quoting Lewis, 523 U.S. at 847 n.8, 848).
In this Court’s view, the facts alleged here fall
short of examples of conduct that the First Circuit and
other circuit courts have concluded meet this high
standard. See Marrero-Rodriguez v. Municipality of
San Juan, 677 F.3d 497, 502 (1st Cir. 2012) (ﬁnding
that a police ofﬁcer who during a training exercise took
out a ﬁrearm, placed it to the unprotected back of an
unarmed, face down, motionless, and under control
prone ofﬁcer, and shot the ﬁrearm, resulting in the ofﬁcer’s death, had engaged in conduct shocking to the
conscience); Neal ex rel. Neal v. Fulton Cty. Bd. of Educ.,
229 F.3d 1069, 1076 (11th Cir. 2000) (student blinded
in one eye when teacher intentionally struck him with
a metal weight); Morris v. Dearborne, 181 F.3d 657,
668 (5th Cir. 1999) (teacher fabricated sexual abuse
charges against a father causing loss of contact with
his child for three years); Rogers v. City of Little Rock,
152 F.3d 790, 797 (8th Cir. 1998) (rape by police ofﬁcer
in connection with a car stop). Furthermore, as the
First Circuit noted in ﬁnding that a state actor’s

App. 229
conduct did not shock the conscience, “[e]ven where the
government is aware of speciﬁc dangers . . . it must
perform a triage among competing demands.” RamosPiñero v. Puerto Rico, 453 F.3d 48, 54 (1st Cir. 2006).
The Defendants did not commit conscious shocking behavior by contacting Mr. Lord about the sexual assault
allegations, nor by failing to afﬁrmatively comply with
the Plaintiffs’ requests for protection.
D. Qualified Immunity
“The doctrine of qualiﬁed immunity protects government ofﬁcials ‘from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable
person would have known.’ ” Pearson v. Callahan, 555
U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)); Glik v. Cunniffe, 655 F.3d 78, 81
(1st Cir. 2011) (public ofﬁcials are entitled to “qualiﬁed
immunity from personal liability arising out of actions
taken in the exercise of discretionary functions”). In
determining questions of qualiﬁed immunity, courts
must apply the following two prong analysis: “(1)
whether the facts alleged or shown by the plaintiff
make out a violation of a constitutional right; and (2)
if so, whether the right was ‘clearly established’ at
the time of the defendant’s alleged violation.” Rocket
Learning, Inc. v. Rivera-Sánchez, 715 F.3d 1, 9 (1st Cir.
2013) (quoting Maldonado v. Fontanes, 568 F.3d 263,
269 (1st Cir. 2009)); Walden v. City of Providence, 596
F.3d 38, 52 (1st Cir. 2010). The “clearly established”
analysis itself divides into two parts. Rivera-Sánchez,

App. 230
715 F.3d at 9. For a plaintiff to overcome qualiﬁed immunity, “the contours of the right must be sufﬁciently
clear that a reasonable ofﬁcial would understand that
what he is doing violates that right.” Id. (internal quotations and citations omitted). Next, considering the
speciﬁc facts of the case at bar, it must have been “clear
to a reasonable [ofﬁcial] that his conduct was unlawful
in the situation he confronted.” Id. (alteration in original).
This Court has already determined that the Plaintiffs failed to make a substantive due process claim
against the state police ofﬁcers, and thus under the
test outlined in Rivera-Sanchez, the Defendants are
entitled to qualiﬁed immunity. 715 F.3d at 9. Moreover,
any reasonable state police ofﬁcer reading Rivera
would determine that contacting and interviewing a
person accused of sexual assault would not violate the
accuser’s substantive due process rights, even if doing
so could increase the risk to the accuser.
E. Supervisory Liability Claims
Because the Plaintiffs failed to state a substantive
due process claim, their claims in Count II of the
Complaint against any unnamed state police ofﬁcer for
supervisory liability and for failure to train fail. See
Rivera, 402 F.3d at 38-39; see also City of Canton v.
Harris, 489 U.S. 378, 391 (1989) (holding that the city’s
constitutional liability for failure to train or for inadequately training its employees is premised on there
being an underlying constitutional violation of the

App. 231
harmed individual’s rights); Maldonado-Denis v. Castillo-Rodriguez, 23 F.3d 576, 581-82 (1st Cir. 1994) (explaining that to establish supervisory liability, the
plaintiff must show an underlying constitutional violation); Hill-Spotswood, 2015 WL 403931, at *5 (“Because Plaintiff has failed to state a constitutional claim
. . . her claim for supervisory liability based on that underlying constitutional claim also fails”).
F. Respondeat Superior and Vicarious Liability
In Count III, the Plaintiffs allege that the state of
Maine and the Maine State Police “are liable as principals for all violations of civil rights, torts or other
wrongs committed by their respective agents and/or
employees.” Compl. ¶ 53. However, as discussed, the
state of Maine and the Maine State Police are protected from suit under sovereign immunity, nor are
they subject to § 1983 liability. See supra Sections
IV.A.-B. Moreover, vicarious and respondeat superior
liability do not apply to Section 1983 claims. Iqbal, 556
U.S. at 676 (“[V]icarious liability is inapplicable to . . .
§ 1983 suits”); Monell v. Dep’t of Soc. Servs. of City of
New York, 436 U.S. 658, 691 (1978) (“[A] municipality
cannot be held liable under Section 1983 on a respondeat superior theory”).
V.

CONCLUSION

The Court GRANTS the Defendants’ Motion to
Dismiss (ECF No. 4).

App. 232
SO ORDERED.
/s/ John A. Woodcock, Jr.
JOHN A. WOODCOCK, JR.
UNITED STATES DISTRICT JUDGE
Dated this 12th day of September, 2016

